<html>
<title> - CALIFORNIA WATER CRISIS AND ITS IMPACTS: THE NEED FOR IMMEDIATE AND LONG-TERM SOLUTIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 CALIFORNIA WATER CRISIS AND ITS IMPACTS: THE NEED FOR IMMEDIATE AND 
                          LONG-TERM SOLUTIONS

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

            Wednesday, March 19, 2014, in Fresno, California

                               __________

                           Serial No. 113-63

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PUBLISHING OFFICE

87-181                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Rauul R. Labrador, ID                Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Steve Daines, MT                     Matt Cartwright, PA
Kevin Cramer, ND                     Katherine M. Clark, MA
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 19, 2014........................     1

Statement of Members:
    Costa, Jim, a Representative in Congress from the State of 
      California.................................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement of....................................     4
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     8
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     7

Statement of Witnesses:
    Beland, Janelle, Undersecretary, California Natural Resources 
      Agency, State of California................................    41
        Prepared statement of....................................    42
    Chavez, Hon. Sylvia V., Mayor, City of Huron, California.....    21
        Prepared statement of....................................    23
    Coleman, Tom, President, Madera County Farm Bureau, Madera, 
      California.................................................    30
        Prepared statement of....................................    31
    Delgado, George, Delgado Farming, Firebaugh, California......    27
        Prepared statement of....................................    29
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California........................................    14
    Knell, Steve, P.E., General Manager, Oakdale Irrigation 
      District, Oakdale, California..............................    50
        Prepared statement of....................................    52
    McCarthy, Hon. Kevin, a Representative in Congress from the 
      State of California........................................    13
    Murillo, David, Regional Director, Mid-Pacific Region, Bureau 
      of Reclamation, U.S. Department of the Interior............    36
        Prepared statement of....................................    37
    Nunes, Hon. Devin, a Representative in Congress from the 
      State of California........................................     9
        Prepared statement of....................................    11
    Starrh, Larry, Co-Owner, Starrh and Starrh Farms, Shafter, 
      California.................................................    25
        Prepared statement of....................................    26
    Upton, Kole, Chowchilla, California..........................    54
        Prepared statement of....................................    56
    Valadao, Hon. David G., a Representative in Congress from the 
      State of California........................................    16
    Watte, Mark, Tulare, California..............................    18
        Prepared statement of....................................    20

Additional Material Submitted for the Record:
    Bureau of Reclamation, Mid-Pacific Region, April 2, 2014, 
      Response to House Committee on Natural Resources field 
      hearing question on South-of-Delta Water Supply Deficit....    75




OVERSIGHT FIELD HEARING ON CALIFORNIA WATER CRISIS AND ITS IMPACTS: THE 
               NEED FOR IMMEDIATE AND LONG-TERM SOLUTIONS

                              ----------                              


                       Wednesday, March 19, 2014

                     U.S. House of Representatives

                     Committee on Natural Resources

                           Fresno, California

                              ----------                              

    The committee met, pursuant to call, at 10 a.m., in Fresno 
City Council Chambers, 2600 Fresno Street, Hon. Doc Hastings 
[Chairman of the committee] presiding.
    Present: Representative Hastings, McClintock, Lummis, and 
Costa.
    Also Present: Representatives Nunes, Valadao, Denham, and 
McCarthy.
    The Chairman. The committee will come to order.
    The House Committee on Natural Resources meets today to 
hear testimony on a hearing called the ``California Water 
Crisis and Its Impacts: The Need for Immediate and Long-Term 
Solutions.''
    By way of introduction, I am Congressman Doc Hastings, and 
I have the privilege of representing the Fourth District in 
Washington State, which is very similar to the valleys here in 
California, although not as large. We have a tremendous amount 
of irrigated agriculture in my area, and I was down here 3 
years ago when we had a subcommittee hearing. So, it is nice to 
be back in Fresno.
    By way of introduction, before we get started, I just 
wanted to let you know, for those of you who aren't familiar as 
to how committee hearings are set, at least in my committee in 
the U.S. House, it is set up exactly this way, meaning that 
Democrats sit to my left and Republicans sit to my right. That 
is the way it is set up, and so I just wanted to let you know.
    I should also note, too, that I sent a letter out to all 
members of the California delegation on both sides of the aisle 
to attend this hearing because we thought it was that 
important.
    So, with that, there are a number of Members that are 
members of the House Committee on Natural Resources, but there 
are some Members that are not. So this is the procedure that we 
have to go through, and I ask unanimous consent that Mr. Nunes 
and Mr. McCarthy, Mr. Denham, who is on his way, and Mr. 
Valadao be allowed to sit at the committee, and without 
objection, they will be seated at the committee.
    And with that, let me turn it over to my good friend and 
colleague from this area, Mr. Valadao, for the purposes of the 
opening ceremonies.
    Mr. Valadao, you are recognized.
    Mr. Valadao. Thank you, Chairman Hastings. Thank you for 
taking the time to come out and visit us here in the valley. 
This is obviously a very important hearing, and this issue has 
been something that a lot of Members have been fighting before 
my time in Congress, and I am lucky enough to be able to join 
them in this fight this past year as I have served in the House 
of Representatives.
    Being that this is a congressional hearing, we are going to 
begin, as we do with every session of the House of 
Representatives, with a prayer, the posting of the colors, and 
the Pledge of Allegiance.
    So I would like to recognize Reverend Gaspar Baptista to 
offer a prayer.
    [Prayer.]
    Mr. Valadao. Thank you, Father.
    Please stay standing.
    I would like to recognize Selma High School Marine Corps 
Junior ROTC to present the colors.
    [Colors presented.]
    Mr. Valadao. As a token of our appreciation, I would like 
to present the Selma High School Marine Corps ROTC with a flag 
that was flown over the capital for their service today.
    And to do our pledge, I want to invite my friend, Mr. 
William Bordeaux, retired U.S. Marine Corps veteran, to lead us 
in the Pledge of Allegiance.
    [Pledge of Allegiance.]
    The Chairman. The procedure that we will follow now will be 
that each Member will have up to 5 minutes to make opening 
remarks, and then we will go to our panel to hear their 
testimony. Following that, each Member will have some time to 
follow up on questions with any of the panelists that they 
desire.
    So, with that, I will recognize myself for 5 minutes for my 
opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. As I mentioned, it is a pleasure for me to be 
back here in Fresno because my regions that I have the 
privilege to represent are very much the same as the Central 
Valleys of California in that they are deserts, but they were 
transformed into the most productive soils on earth after our 
Nation wisely realized that the deserts would bloom if they had 
water and the necessary infrastructure of multi-purpose dams, 
reservoirs and canals.
    Entire agriculture economies and ways of life grew around 
our ability to irrigate these once-dormant lands. In our 
regions, respective regions, food grows where water flows. 
Conversely, communities wither and die when the water spigot 
stops. As many of you know, this is an all-too-familiar 
occurrence here in the San Joaquin Valley. And, if it can 
happen here, it can happen anywhere in the Western United 
States, including my home area.
    As Chairman of the House Natural Resources Committee, I 
have painfully watched the cycle that has gone on over here for 
the past several years. In 2009 and 2010, a man-made drought 
brought this region to its knees, where communities experienced 
40 percent unemployment and food lines handed out Chinese-
produced carrots to the victims of senseless regulatory 
drought. That followed, then, with two good years of water.
    During those relatively good times, the House passed a 
comprehensive bill--and, I might add, every Member on this dais 
voted for that bill--that was intended to ensure that man-made 
drought never returned. Unfortunately, that bill fell on deaf 
ears in the Senate and by this administration. And so now we 
are back yet with another drought, and this one could be far 
more catastrophic than the previous one. History is once again 
repeating itself.
    It doesn't have to be that way. As a matter of fact, had 
the bill that we passed out of the last Congress passed and 
been signed into law, we wouldn't be in this particular 
situation today because of the solutions that were embodied in 
that law.
    But in the long term, we have an opportunity to right the 
wrongs of what has gone on here and to learn lessons from the 
past. First, let's stop the deliberate diversion of billions of 
gallons of water to a 3-inch fish where the science has not 
demonstrated that the fish is being helped by diversions. When 
the Ninth Circuit Court of Appeals validated the delta smelt 
Biological Opinion last week, it said that the species have 
been, and I quote, ``afforded the highest of priorities by law 
even if it means the sacrifices of the anticipated benefits of 
the project.'' The opinion went on to say, and I quote again, 
``Resolution of this fundamental policy question lies with the 
Congress.'' I concur, and that is why we are here today. The 
Endangered Species Act needs reform, and we plan on our 
committee to begin that process in the next several weeks.
    Second, let's reinvest in new water storage to capture 
water in wet times so that we can deliver it in dry times. The 
West is what it is today because of storage projects, and we 
are literally throwing that legacy away by thinking that 
conservation alone can resolve water shortages, because it 
can't.
    There is a demonstrated willingness from non-Federal 
interests to invest in storage. The problem is that a maze of 
Federal Government regulations, including the Biological 
Opinion of the delta smelt, will continue to make it a 
difficult process for these projects to become a reality. I 
note that feasibility studies on three storage projects here in 
California have gone on for over a decade. I would just remind 
you, our country put a man on the moon in less time than that. 
This administration must stop getting ready to get ready for 
new storage. The California water bill that recently passed in 
the last Congress and this Congress immediately authorizes 
construction of storage by eliminating bureaucratic paralysis-
by-analysis and by tapping into private investments.
    And third, parties on all sides must have the political 
will to find common-sense solutions. To only resolve this 
situation in the short term is simply kicking the can down the 
road. I only wish that more of our California colleagues were 
here today. As I mentioned, I had invited them to be here 
today.
    I also want to say that Mr. Valadao's recently passed bill 
that we passed, which is similar to the bill that passed last 
time, is a long-term solution to our problems that we face. And 
I might add again that all Members sitting in front of you 
voted for that legislation.
    So now it is truly the time for the Senate to act. We 
cannot enact law in our country unless both houses act. We have 
acted in two Congresses in a row. It is now time for the Senate 
to act.
    [The prepared statement of Mr. Hastings follows:]
 Prepared Statement of the Honorable Doc Hastings, Chairman, Committee 
                          on Natural Resources
    It's always a pleasure to be back in Fresno.
    Our regions have a lot in common. They were once deserts, but they 
were transformed into the most productive soils on earth after our 
Nation wisely realized that the deserts would bloom if they had water 
and the necessary infrastructure of multi-purpose dams, reservoirs and 
canals. Entire agricultural economies and ways of life grew around our 
ability to irrigate these dormant lands.
    In our regions, food grows where water flows. Conversely, 
communities wither and can die when the water spigot stops. As many of 
you know, this is an all-too-familiar occurrence here in the San 
Joaquin Valley. And, if it can happen here, it can happen anywhere in 
the Western United States.
    As Chairman of the House Natural Resources Committee, I have 
painfully watched the cycle that has gone on here over the past few 
years. In 2009 and 2010, a man-made drought brought this region to its 
knees, where communities experienced 40 percent unemployment and food 
lines handed out Chinese-produced carrots to the victims of senseless 
regulatory drought. This followed with 2 good water years.
    During those relatively good times, the House passed a 
comprehensive bill intended to ensure that man-made drought never 
returned. That bill fell on deaf ears in the Senate and the 
administration. Now, we are back to yet another drought and this one 
could be far more catastrophic than before. History is once again 
repeating itself.
    It doesn't have to be this way. We have an opportunity to right the 
wrongs of what's gone on here and to learn lessons from the past.
    First, let's stop the deliberate diversion of billions of gallons 
of water to a 3-inch fish when the science has not demonstrated that 
the fish is being helped by the diversions. When the Ninth Circuit 
Court of Appeals validated the delta smelt Biological Opinion last 
week, it said that species have been quote ``afforded the highest of 
priorities by law even it means the sacrifices of the anticipated 
benefits of the project'' unquote. The opinion went on to say that 
quote ``Resolution of these fundamental policy questions . . . lies 
with Congress.'' Unquote. I concur. The Endangered Species Act needs 
reformed and we plan to begin that process in the next few weeks.
    Second, let's re-invest in new water storage to capture water in 
wet times so we can deliver it in dry times. The West is what it is 
today because of storage projects and we are literally throwing that 
legacy away by thinking that conservation alone can resolve water 
shortages.
    There is a demonstrated willingness from non-Federal interests to 
invest in storage. The problem is that a maze of Federal environmental 
regulations--including a Biological Opinion on delta smelt--will 
continue to make it a difficult process to make these project a 
reality. I note that feasibility studies on three storage projects here 
in California have gone on for over a decade. Our great country put a 
man on the moon in less time. This administration must stop getting 
ready to get ready on new storage. The California water bill recently 
passed by the House immediately authorizes construction of storage by 
eliminating bureaucratic paralyses-by-analyses and by tapping into 
private investment.
    Third, parties on all sides must have the political will to find 
common-sense solutions. To only resolve this situation in the short-
term is simply kicking the can down the road. I only wish that more 
California House and U.S. Senate Democrats, all of which I invited, 
could be sitting here to listen to the long-term solutions posed today.
    Mr. Valadao's recently passed bill is a great start to bringing 
short and long-term help. Long-term solutions must be part of the 
equation or we will repeat this destructive drought cycle once again. 
We must not be short-sighted. I hope that the Senate can do its part so 
a meaningful but rapid negotiation can truly happen. The Senate is 
entitled to its solution, but the next step is to pass their solution 
and if there are differences, get together to work differences out.
    In closing, I want to thank Mr. Valadao for his leadership on his 
bill and in asking for this hearing. The people of the San Joaquin 
Valley have asked for and deserve nothing less than their water. We are 
here to listen and to bring your message back to Washington, DC.
                                 ______
                                 
    With that, I recognize the distinguished Member who is 
serving as the Ranking Member of this committee, Mr. Costa, for 
5 minutes.

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Chairman Doc Hastings, for 
holding this hearing, and my colleagues for being here today.
    Obviously, this devastating drought is impacting our 
valley, but I think it is reflective of the water problems our 
entire State is going to have. No people, though, will bear the 
brunt of this drought's effects more than the people in this 
room today and many who are outside of this room who are part 
of the farmers, the farm workers, and the farm communities that 
have made our valley what it is today.
    We see its effects in lost jobs, in families standing in 
food lines to provide for their meals, and in the incredible 
burden that mothers and fathers have trying to provide the 
basic needs for their families while fertile ground beneath 
their feet lies dry and fallow.
    I believe that this drought and the comments that I have 
made reflect the sentiment that every person in this valley 
has. And like many of you, I am angry. I am angry that we have 
failed to capture the water that lies available to us in times 
of plenty so that we can use it in years like these. I am angry 
that we have failed to invest in our water system that was 
designed by our parents and our grandparents. And unfortunately 
today, California's needs have become over-burdened because of 
the greater population increase, and the water supply is 
stretched thin, and therefore we have a broken water system.
    I am angry that in face of the devastation, we continue to 
point fingers and play the blame game, and it does not bring us 
one additional drop of water.
    To understand my anger, we must first place this drought in 
perspective. Like many of you, my family and I today have 
farmed for generations. We went through this from 2008 to 2010, 
as the Chairman noted. It was terrible. From the drought, we 
learned many things, but the biggest lesson we should have 
learned is that we can simply not continue to do nothing. We 
must act and we must act now to resolve this problem, and we 
must do it in a bipartisan fashion. We must forge compromises 
that ultimately result in successful legislation. That is the 
only way you ever get successful legislation.
    Every day, I work with everyone to bring more water to our 
valley, and no one is more committed to doing that than the 
folks that are here on this dais. I certainly am. And we have 
had success when we work together: the Intertie Project; water 
bonds that in the past and today are being considered for 
additional storage in Sacramento; carryover storage. Just this 
week, the State board order has been changed to relieve the 
pressure on the exchange contractors and other water users.
    In 2011, I introduced H.R. 1251, more water for our valley 
after the 2010 drought which provided more direction on how the 
pumps should operate while still being in compliance with the 
Endangered Species Act. Now, I think we ought to change the 
Endangered Species Act, but I also believe that the likelihood 
of that occurring in the Senate is not good.
    Had this bill been in place, though, it is estimated that 
we would not have lost the 800,000 acre feet of water last 
year. Unfortunately, that bill was never brought for a hearing, 
let alone a vote.
    But when we work together, we can have success. The most 
recent success was when the colleagues, many here at this 
table, pushed the Bureau of Reclamation and Director Murillo 
that the carryover water that had been saved last year by 
farmers, 360,000 acre feet of water, must be made available for 
those farmers who saved that water. That was a success.
    But we need to have more of this type of cooperation to 
craft legislation that can successfully pass in the House of 
Representatives as well as in the U.S. Senate that could be 
signed by the President.
    We all know what the solutions must include: more storage 
in the long term so we can save water in wet years; an improved 
conveyance system that doesn't cause the collapse of the delta 
so that we can move water through the Sacramento San Joaquin 
River Delta system; and legislative flexibility, legislative 
flexibility to provide the operations under the State and 
Federal projects. That is why this year I have introduced and 
supported bills to provide authorization of more storage. 
Congressman McClintock, who chairs the subcommittee, he has 
introduced H.R. 937, and I am a co-sponsor of that to raise the 
spillway gates at Exchequer Dam that would provide 70,000 acre 
feet of additional water. We passed that bill in the House; it 
is now in the Senate. We should act on it. H.R. 4125, which 
would authorize the expansion of Exchequer Dam that I 
introduced last month, 600,000 additional acre feet of water; 
H.R. 4126, which would enlarge San Luis Reservoir in my 
district that would provide 130,000 acre feet of additional 
water; and Temperance Flat Dam that we share here that would 
provide us the ability to move water north and south that would 
provide 1.3 million acre feet of additional storage.
    However, we must be able to supply more water for our farms 
and for our cities. And as I close, I want to suggest that 
legislation that has been introduced this year, H.R. 4039, 
would provide direction on how we can operate the systems that 
capture water that we need so much.
    In closing, let me say that none of us can make it rain. If 
we could, we would have done it already. But our valley is our 
home. We love it dearly. And my heart goes out to all of those 
who have been impacted, as my family and your family has. I 
look forward to listening to the testimony, Mr. Chairman, of 
the witnesses, and continuing to work with you and members of 
the committee to solve our drastic water drought that is facing 
the people of this valley and California.
    The Chairman. I thank the gentleman for his statement.
    I recognize the gentleman, another gentleman--in fact, I am 
going to recognize every gentleman from California that I will 
recognize will be from California.
    [Laughter.]
    The Chairman. That will not be the case. After Mr. 
McClintock, it will be somebody from Wyoming.
    So I will recognize the gentleman from California, Mr. 
McClintock.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman.
    As you know, long before the current drought, the Central 
Valley suffered from the deliberate diversion of billions of 
gallons of water promised to it under the Bay Delta Accord. 
Instead, that water was dumped into the Pacific Ocean for the 
amusement of the delta smelt. This wanton act caused the loss 
of a quarter-million acres of the most productive farmland in 
America. It threw thousands of families into unemployment. It 
economically devastated this region.
    Well, now a natural drought has compounded the regulatory 
drought, and here is the simple truth of the matter. Droughts 
are nature's fault; water shortages are our fault. Nature 
produces 45,000 gallons of fresh water every day for every man, 
woman and child on this planet. The problem is that water is 
unevenly distributed over both time and distance. We build dams 
to transfer water from wet times to dry times. We build 
aqueducts to transfer water from wet areas to dry areas. We 
don't build dams and aqueducts to dump that water into the 
ocean.
    [Applause.]
    Mr. McClintock. Water is very good at flowing downhill on 
its own. It doesn't need our help. We build dams and aqueducts 
so that surplus water isn't lost to the ocean but is rather 
retained for human prosperity.
    Unfortunately, in the last generation, a radical and 
retrograde ideology has insinuated its way into our public 
policy. It holds that human needs need to be subordinated to 
the goal of restoring Earth to her prehistoric condition. In 
pursuit of this goal, this movement has obstructed the 
construction of new dams by attaching so many conditions and 
restrictions as to render them economically infeasible. Mr. 
Costa just referenced bills that ostensibly authorize new dams 
at sites and Temperance Flats, but only if judged feasible 
under these unobtainable standards. Translation, that means 
these dams will not get built.
    We have been unable to get the spillway raised just 10 
lousy feet on the Exchequer Dam that would add 70,000 acre feet 
of additional storage to Lake McClure. Self-described 
environmentalists oppose it because it would require a minor 
boundary adjustment to the wild and scenic river boundary that 
overlapped with the preexisting FERC boundary. Indeed, this 
movement has not only obstructed the construction of new dams, 
it has actively pursued the goal of tearing down existing ones 
such as the four hydro-electric dams on the Klamath.
    If anything good comes of this drought, it will be that the 
public is finally awakening to the enormous economic and 
environmental damage that these policies have done.
    The House has acted twice on legislation to address both 
the regulatory drought caused by the unnecessary water 
diversions and to begin removing the regulatory hurdles that 
block new dam construction. Mr. Valadao's H.R. 3964 is an 
important first step. It strengthens water rights, it stops the 
massive loss of water required by the Biological Opinions on 
smelt in the San Joaquin River Restoration Act, it opens up 
additional storage for local agencies at New Melones, it 
expands capacity at Lake McClure, it allows local water 
districts to partner with the Federal Government to expedite 
expansion and construction of reservoirs.
    But there is a problem, and the problem is that the Senate 
has not acted on this legislation, and progress cannot be made 
between the two houses until the Senate either passes the House 
bill or sends its own bill to the House so that the conference 
process can proceed to a conclusion.
    We are at a crossroads, and it is time to choose between 
two very different visions of water policy. One is the 
nihilistic vision of increasingly severe government-induced 
shortages, higher and higher electricity and water prices, 
massive taxpayer subsidies to politically well-connected 
industries, and a permanently declining quality of life for our 
children who will be required to stretch and ration every drop 
of water and every watt of electricity in their bleak and dimly 
lit homes.
    The other is a vision of abundance, a new era of clean, 
cheap, and abundant hydro-electricity, great new reservoirs to 
store water in wet years, to assure abundance in dry ones, a 
future in which families can enjoy the prosperity that abundant 
water and electricity provide and the quality of life that 
comes from that prosperity. It is a society whose children can 
look forward to a green lawn, a backyard garden, affordable 
air-conditioning in the summer and heating in the winter, 
brightly lit homes and cities, and abundant and affordable 
groceries from America's agricultural cornucopia.
    I yield back.
    [Applause.]
    The Chairman. I thank the gentleman for his opening 
statement.
    I now recognize my colleague and a member of the Natural 
Resources Committee from Wyoming, Mrs. Cynthia Lummis, for 5 
minutes.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Thank you, Mr. Chairman, and thanks to my 
colleagues from California for inviting me here to discuss the 
dire water situation in the San Joaquin Valley.
    What is happening to the people of the San Joaquin Valley 
strikes at the core of what western communities share in 
common. Like you, water is our lifeblood in Wyoming. Without 
it, people suffer. People are suffering in California right now 
because of the water shortage, job losses, unemployment, and 
fallowed farmland.
    I say with great regret that some of the factors 
contributing to the water shortages are man-made. The Congress 
can't control the weather, but the Congress can act to strike a 
responsible balance between the needs of people and the needs 
of fish, instead of letting taxpayer-funded lawsuits determine 
the fate of the San Joaquin Valley.
    The livelihoods of people are being held hostage by groups 
who sue over and over to get their way whenever Fish and 
Wildlife officials disagree with them. After hundreds of 
millions of dollars spent on the delta smelt, there is still no 
scientific consensus as to why it is declining. Nonetheless, 
using the courts and tax dollars to pay their attorney fees, 
environmental litigants like the NRDC have managed to choke off 
water supplies to the valley, all for uncertain benefit to the 
fish.
    Together with Chairman Hastings and Representative Valadao, 
we formed a working group to study the Endangered Species Act 
and examples like this where the law simply has not worked as 
intended. We will be pursuing legislation in the months ahead 
to improve the law and make it work better for both species and 
people. The hope is to re-focus the law on actually recovering 
species and prevent it from being abused like it has been here 
in the San Joaquin Valley.
    But in the meantime, the people in the valley need 
immediate relief. That is why the House of Representatives 
passed Mr. Valadao's bill, H.R. 3964. The legislation is 
designed to restore long-term water supplies to farmers and 
communities that right now are looking at zero or near-zero 
percent allocations of water. The bill will also promote more 
water storage to meet the needs of California's growing 
population, and of farmers who are feeding more than half our 
Nation with vegetables, fruits and nuts. California's 
agricultural community has taken water conservation to a new 
level over the last decades. They have never been more 
efficient, and their techniques are being duplicated across the 
country.
    But when you have a water storage and delivery system built 
for 22 million people and a population of 38 million people, 
and growing, no amount of water conservation is going to 
completely solve your problem. California and the people of the 
San Joaquin Valley need more water storage, period. These are 
the good people of agriculture who perform a noble task, who 
feed their families and mine, who love and nurture the land and 
the culture of our Nation.
    I am here from Wyoming today to honor these families and to 
support their goal of continuing this honorable and important 
work of providing food and fiber, the cornerstones of our 
Nation's security, to all Americans.
    Mr. Chairman, that is enough for me. The real story will be 
told by the impressive panel of California witnesses before us. 
I thank you, Mr. Chairman, and I thank the Members of the 
California here today, both on the dais and in attendance, and 
I yield back.
    [Applause.]
    The Chairman. I thank the gentle lady for her testimony.
    Now I will recognize somebody that you are all very 
familiar with, Mr. Nunes from California.
    Mr. Nunes.

STATEMENT OF THE HON. DEVIN NUNES, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Nunes. Thank you, Mr. Chairman, and thank you for your 
continued pursuit of policies that make sense in the Congress.
    Mr. Chairman, the environmental lobby and its allies 
attribute the current water crisis to historic drought induced 
by global warming, but they have it wrong. Central Valley 
farmers are fallowing their lands not because of low levels of 
rainfall, our communities are restricting water usage not 
because the world is getting warmer, and our water districts 
are receiving a fraction of their allocations but not because 
of greenhouse gases. The problem is not that the Central Valley 
is lacking water, it is that we are being deprived of it.
    Our forefathers blessed this State with an amazing 
irrigation system that could withstand 5 years of drought. The 
principle was simple: water was captured during the wet years 
for use in the dry ones. We are still capable of doing that, 
but we are not allowed. For decades, preposterous environmental 
regulations have put more and more water off limits to people. 
Before these regulations began taking hold in the early 1990s, 
water districts routinely received 100 percent of their water 
allocations. Since then, they have hardly ever received 100 
percent. And today, this year, many will receive zero.
    For the sake of supposedly persecuted fish species, the 
salmon and the most precious of all, the 3-inch bait fish 
called the delta smelt, government authorities have diverted 
enormous supplies of water from human usage. How much water has 
been lost? Consider this: in the past 7 years, nearly 4 million 
acre feet of water that could have been used by families and 
farmers has been flushed into the ocean. That is not a result 
of global warming or drought. It is the result of a government 
run amok.
    Altogether, the diversion of water from farms and 
communities to environmental causes has created an average 
annual water shortfall of roughly 1.75 million acre feet on the 
west side of this valley, and 250,000 acre feet on the east 
side of the valley, plus an additional east side groundwater 
overdraft of 400,000 acre feet. That leads to a total average 
shortfall of nearly 2.5 million acre feet.
    What does this mean? If nothing is done, around 800,000 
acres of productive farmland will be forced permanently out of 
production.
    The House of Representatives passed a bill 6 weeks ago and 
a similar bill in 2012 that would eliminate this shortfall 
completely. If the new bill had been in effect for the last 7 
years, about half the water flushed into the ocean would have 
been kept for use.
    More recently, after years of total inaction on this grave 
problem which destroyed thousands of jobs for farmers and farm 
workers, the Senate finally introduced a bill that would 
alleviate some of the water shortfall. It would supply around 
300,000 acre feet. This leaves a deficit of 2.1 million acre 
feet.
    Of course, simply introducing a bill doesn't achieve 
anything. The Senate needs to pass it so that the House and 
Senate can go to conference and hammer out a compromise bill. 
But it must be crystal clear to everyone: if a compromise bill 
provides anything less than 2.4 million acre feet, then the 
State of California counties, cities and irrigation districts, 
not the Federal Government, will be responsible for overcoming 
the remaining deficit.
    What many people don't realize is that the fallowing of 
farmland and the uprooting of entire communities is not a side-
effect of the radical environmentalists' actions. It is their 
goal. For extremists who view human settlement and productive 
economic activity as a blight on nature, it is a good thing 
that water-deprived families are abandoning their farms and 
homes. These extremists won't uproot themselves from their 
comfortable homes in San Francisco and other coastal cities, 
but they are more than willing to use the Central Valley 
communities as a guinea pig to see if our lands can be restored 
to some mystical state of nature.
    These radicals never tire of battle and they never give up. 
You see the results of their relentless fight in the new 
dustbowl that has overtaken the valley. They are using all 
their influence to oppose the House-passed water bill that 
would permanently end the crisis, and they recently imposed 
their will on the Metropolitan Water District of southern 
California.
    Meanwhile, many of our Ag groups' lawyers and lobbyists 
that are supposed to be representing the valley are acting to 
protect their own self-interests with high-paying jobs, 
pensions, and unwillingness to actually call a spade a spade. 
When a government can't provide water to its citizens, the 
government has failed. Victims of its policies have two 
options, to rise in protest until these policies are changed or 
watch helplessly as their communities are destroyed. The 
leftists who have engineered this crisis understand this. To 
try to keep their victims from protesting, they have offered up 
a scapegoat of global warming, and to buy them off, they have 
offered programs and bills that don't provide water but do 
provide sums of money, essentially giving welfare to people who 
really only want water.
    By passing two comprehensive bills, the House of 
Representatives has already shown that it is on the side of the 
people of the valley, but that is not enough to restore their 
water. As shown by the Ninth Circuit Court last week in favor 
of the delta smelt, even during an historic water crisis, the 
radical environmental agenda advances remorselessly. The smelt 
may have won another victory, but the struggling farmers and 
thirsty families and shattered communities of this valley are 
paying the price.
    I have been fighting these extremists for more than a 
decade in Congress, and as long as I am elected I will continue 
to keep up this fight. The most important thing is to give a 
voice to the people who will not sit idly by while their 
livelihoods are stolen away from them and the hopes and dreams 
of their children and grandchildren are grinded into dust.
    I yield back.
    [Applause.]
    [The prepared statement of Mr. Nunes follows:]
 Prepared Statement of The Honorable Devin Nunes, a Representative in 
                 Congress From the State of California
    The environmental lobby and its allies attribute the current water 
crisis to a historic drought induced by global warming. But they have 
it wrong. Central Valley farmers are fallowing their lands, but not 
because of low levels of rainfall. Our communities are restricting 
water usage, but not because the world is getting warmer. And our water 
districts are receiving a fraction of their allocations, but not 
because of greenhouse gases.
    The problem is not that the Central Valley is lacking water, it's 
that we're being deprived of it.
    Our forefathers blessed this State with an amazing irrigation 
system that could withstand 5 years of drought. The principle was 
simple--water was captured during wet years for use in dry ones.
    We're still capable of doing that, but we're not allowed. For 
decades, preposterous environmental regulations have put more and more 
water off-limits to people. Before these regulations began taking hold 
in the early 1990s, water districts routinely received 100 percent of 
their water allocations. Since then, they've hardly ever received 100 
percent, and today many actually receive 0 percent.
    For the sake of supposedly persecuted fish species--the salmon, the 
steelhead, and the most precious of all, the 3-inch baitfish called the 
delta smelt--government authorities have diverted enormous supplies of 
water from human usage. How much water has been lost? Consider this: in 
the past 7 years, 3.9 million acre feet of water that could have been 
used by families and farmers have been flushed out into the ocean. That 
is not a result of global warming or drought--it's a result of 
government run amuck.
    Altogether, the diversion of water from farms and communities to 
environmental causes has created an average annual water shortfall of 
1.75 million feet on the westside and 250,000 acre feet on the 
eastside, plus an eastside groundwater overdraft of 400,000 acre feet. 
That leads to a total average annual shortfall of 2.4 million acre feet 
in the Central Valley. This means if nothing is done, around 800,000 
acres of productive farmland will be forced out of production.
    The House of Representatives passed a bill 6 weeks ago, which 
followed a similar bill passed in 2012, that would eliminate this 
shortfall completely. If the new bill had been in effect for the last 7 
years, about half the water flushed into the ocean would have been kept 
in usage--and some might say we could use an extra 2 million acre feet 
of water right now.
    More recently, after years of total inaction as this grave problem 
destroyed thousands of jobs for farmers and farm workers, the Senate 
finally introduced a bill that would alleviate some of the water 
shortfall--it would supply around 300,000 acre feet, leaving a deficit 
of 2.1 million acre feet. Of course, simply introducing a bill doesn't 
achieve anything--the Senate needs to pass it, so that the House and 
Senate can go to conference and hammer out a compromise bill.
    It must be crystal clear to everyone, however, that if a compromise 
bill provides anything less than the 2.4 million missing acre feet, 
then the State of California, counties, cities, and irrigation 
districts--not the Federal Government--will be responsible for 
overcoming the remaining deficit.
    What many people don't realize is that the fallowing of farmland 
and the uprooting of entire communities is not a side-effect of the 
radical environmentalists' actions; it is their goal. For extremists 
who view human settlement and productive economic activity as a blight 
on nature, it's a good thing that water-deprived families are 
abandoning their farms and homes. These extremists won't uproot 
themselves from their comfortable houses in San Francisco and other 
coastal cities, but they're more than willing to use Central Valley 
communities as guinea pigs to see if our lands can be restored to some 
mystical state of nature.
    These radicals never tire of the battle, and they never give up. 
You see the results of their relentless fight in the new dustbowl that 
has overtaken the Central Valley. They are using all their influence to 
oppose the House-passed water bill that would permanently end this 
crisis, and they recently imposed their will on the Metropolitan Water 
District of Southern California. Meanwhile, Ag groups, lawyers, and 
lobbyists who are supposed to be representing valley farmers are 
primarily acting to protect their own high-paying jobs and pensions.
    When a government cannot provide water to its citizens, that 
government has failed. Victims of its policies have two options--to 
rise up and protest until these policies are changed, or watch 
helplessly as their communities are destroyed. The leftists who 
engineered this crisis understand this. To try to keep their victims 
from protesting, they have offered up the scapegoat of global warming. 
And to buy them off, they have offered programs and bills that don't 
provide water, but do pay out large sums of money, essentially giving 
welfare to people who just want to work.
    By passing two comprehensive water bills, the House of 
Representatives has already shown that it's on the side of the people 
of the Central Valley. But that is not enough to restore their water. 
As shown by the Ninth Circuit Court's ruling last week in favor of the 
delta smelt, even during a historic water crisis, the radical 
environmental agenda advances remorselessly. The smelt may have won 
another victory, but the struggling farmers, the thirsty families, and 
the shattered communities of the Central Valley are paying the price.
    I have been fighting these extremists for more than a decade in 
Congress, and as long as the people of this valley entrust me as their 
representative, I will continue fighting. I will give a voice to people 
who will not sit idly by while their livelihoods are stolen away from 
them and the hopes and dreams of their children and grandchildren are 
grinded into dust.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement.
    I will now recognize the majority whip from Bakersfield, 
Mr. McCarthy.

   STATEMENT OF THE HON. KEVIN McCARTHY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McCarthy. Thank you, Mr. Chairman.
    First, thank you all for turning out. And I want to thank 
the committee for being here. You know, this isn't the first 
time the committee is here. We were here 3 years ago, we were 
here 4 years ago, because we knew today would come, and we 
wanted to be better prepared.
    The sad part is the House has done the work. The Senate 
just stood there defensively in the face of the drought. I am 
here to tell you that is not a noble gesture.
    Just yesterday I was reading The Wall Street Journal, 
headline, front page. Because of the drought in California and 
Texas, prices are rising. We know from the valley what we grow 
is already affecting the economy. We see it right here, right 
now.
    Where will we get our food? Do you ever question about food 
safety? There is no better place to do it than grow our own. 
There is no better place to grow it than here.
    The challenge is, do we have to be where we are today? We 
know some years will be dryer than others. On record, this is 
one of the driest. Three years ago we had 170 percent of snow 
pack, just 3 years ago. What was the State allocation then? 
Eighty percent. Eighty percent in a year of 170.
    Devin has led this charge when many people thought it was 
just a valley issue. He has been able to grow it into a 
national issue, because it is. The policies that are affecting 
this Nation aren't just going to affect California but will 
affect the entire country, and it holds us back.
    David has led the charge this time in Congress to actually 
pass legislation. The Senate has done nothing.
    The challenge is, in 1994, something unique happened. 
Republicans, Democrats, environmentalists, water users all got 
together and made an agreement. They made an agreement, and in 
that agreement it said in the wet years we would let water come 
down from the delta. We would be able to store it for years 
like today. But court cases, Federal regulation and others have 
made that different, so we are in a different place.
    My wife and I, we have two children. Like you, our greatest 
fear in the future is what the future will look like for them. 
What are the opportunities that they will have? And when they 
are growing up, you want to teach them lessons of history and 
the past, and you study history. Are there tales, are there 
fables you can teach them to teach them the lessons?
    Have any of you ever studied Aesop, the ancient Greek? He 
was a slave. He would tell these fables to teach a lesson for a 
moral history in the future. And there is a famous one that we 
would always--we would read it and he would tell it--about the 
ant and the grasshopper. It is really quite simple. It is a 
little story of an ant and a grasshopper in the summertime. 
What did the ant do? The ant went and stored the food, took it 
down, afraid that there might be a cold winter, when others 
would say, oh, no, nothing will happen. The grasshopper enjoyed 
the summer, afraid nothing ever will come.
    Well, you know what? A cold winter came. Who was prepared?
    This would have been a great year to be an ant. We had a 
great opportunity. But government is pushing us into being 
grasshoppers, a challenge we do not have to be.
    Our Chairman is from Washington State. Earlier this year 
they were at 60 percent of their snow pack. The President came 
out here, brought our two Senators, to talk about the water 
crisis of California. He thinks it is a different issue. In 
that time we had that little bit of rain, Washington had 40 
percent more of their snow pack. I think the President is on 
the wrong path that he thinks it is just global warming. 
Washington is not far from California.
    But do you know, during that little bit of rain, in these 
type of years it is very important. I just heard a report back 
that projected from a water district that 445,000 acre of feet 
went out to the ocean because of State and Federal regulation. 
State quality says it needs to be 8-to-1. The fish get 8; we 
get 1.
    It kind of goes back to the old fable. It is not that 
difficult. We need more storage, we need the ability for the 
water to come down, not into the ocean, and we need a plan for 
the years ahead. We were here 3 years ago to make that plan. We 
were very fortunate in a process that most States don't have. 
Both our Senators are committee chairs. Do you know how 
powerful it is to be a committee chair in the Senate? But there 
still has not been a vote in the Senate on water legislation 
for California.
    This country was created with a House and a Senate. One 
House passes a bill, the Senate passes a bill, and you go to 
conference and you solve the problem. We have been waiting two 
Congresses now. We have gotten the entire Congress together to 
vote on where to move, just focused on California. Very seldom 
does that ever happen. The question now is, will the Senate 
even act?
    We can't wait any longer. We are now in that place that we 
did not want to be, and I believe there is a better 
opportunity. I look forward to hearing from all, and I yield 
back.
    [Applause.]
    The Chairman. I thank the gentleman for his testimony.
    Now I will recognize another representative from the 
Central Valley. Mr. Denham is recognized for 5 minutes.

STATEMENT OF THE HON. JEFF DENHAM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Denham. Thank you, Mr. Chairman. Thank you for holding 
yet another hearing here in the valley, and certainly one more 
of many hearings that we have held in Washington, DC on our 
water crisis.
    I start by apologizing for being late, coming from the 
northern part of the valley. If we had been spending the last 5 
years' stimulus dollars on shovel-ready transportation projects 
rather than high-speed rail, I would have been here earlier.
    [Laughter.]
    [Applause.]
    Mr. Denham. And I only bring up high-speed rail in this 
context in a water hearing. If California had its priorities 
right, we would be building water storage instead of a train 
that may never come.
    [Applause.]
    Mr. Denham. Two years ago, the House passed legislation 
seeking to address the imbalance in the State's water system, 
and it was only met with criticism and dismissal. Criticism 
from our Senate counterparts was met with no solutions and no 
legislative proposals at the time.
    Now the State finds itself in the midst of a drought. The 
Speaker of the House came to the valley to witness the 
devastation, and the House again acted swiftly.
    The President visited recently, bringing news of help for 
food banks and discussing the ills of climate change.
    Even the Senate finally placed ideas into legislative text, 
but the scope is short-term and focuses on the authority 
regulatory agencies already possess.
    Unfortunately, the President needs to ensure we don't end 
up in this great crisis once again.
    A bigger problem facing the valley is the outlandish 
approach the California State Water Resources Control Board has 
taken in the last year on required flows for the Tuolumne 
River, and most recently with the threat of overtaking the 
Central Valley project and throwing out over 100 years of water 
rights history.
    Added to this list is the State board's most recent idea of 
cutting off all of agriculture for 2 years.
    Over a year ago, the State board proposed to send over 35 
percent of unimpaired flows on the Tuolumne River out to the 
ocean with no scientific evidence proving it would even help 
the fish species. If this proposal is implemented, water years 
like this would render New Don Pedro Reservoir empty, empty, 
with no water for fish at all. I fail to understand how this 
approach actually helps the fish.
    Now the State board is threatening to do away with over 100 
years of water rights history without even understanding the 
impacts to our reservoirs; and worse, what it would do to the 
people of the valley that will suffer from these short-sighted 
policies.
    What this State needs is more storage, and we need it now, 
not after a few more years of study, but right now. Provisions 
in the House bill I authored allow for construction of millions 
of acre feet of new water to begin immediately. I included a 
provision to allow for more storage at New Melones Reservoir at 
no cost to the taxpayer. I also included a provision seeking to 
do a pilot study on the impacts predator fish have on listed 
species.
    It is all very disappointing because while I am offering 
solutions to assist our State's water problems, all of my 
common-sense provisions have been met with either resistance 
and dismissal by the Senate or the President and the Governor. 
Instead of offering assistance to solve our problems long term, 
all I hear about is global warming and short-term fixes that 
should have already been implemented to lessen the blow in 
future years.
    To further exacerbate an already difficult water year, I 
continue to hear from water managers that the last few storms 
that have brought needed rain to the valley has not been 
captured, and the State and Federal projects continue to miss 
important opportunities to store more water. On March 10, the 
Delta Vision Foundation urged, and I will quote, ``the State of 
California and U.S. Bureau of Reclamation to reach agreement 
immediately on an emergency order to allow increased pumping to 
capture needed water for agriculture, industry and 
communities.'' It goes on to state that, ``regulators missed 
the opportunity during the last series of big storms to export 
more water when there are high levels of water flow in the bay 
delta ecosystem.''
    I look forward to hearing from our witnesses today about 
the very real and predictable impacts that we are facing, what 
the State and Federal Governments are doing to improve water 
supplies, and ideas for short- and long-term solutions to 
protect California from facing this problem next year and year 
after year.
    I yield back.
    [Applause.]
    The Chairman. I thank the gentleman for his statement.
    And last but certainly not least, I want to recognize the 
newest member of the California delegation from the valley, Mr. 
Valadao, who is the author of the legislation that many of us 
have supported that has passed that provides long-term 
solutions to the California water problems.
    Mr. Valadao, you are recognized for 5 minutes.

  STATEMENT OF THE HON. DAVID G. VALADAO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Valadao. Thank you, Chairman Hastings, and thank you 
for taking the opportunity and the time to come out here and 
spend some time with our constituents here in the valley, and 
Congresswoman Lummis from Wyoming. I really enjoyed driving her 
around yesterday and pointing out some of the issues that we 
are facing here in the valley.
    As many of you know, I am a farmer here still in the 
valley. I farm just south of Hanford. And in those years that I 
farmed, as I still do today, we have had years that we get 
extra rain, and we will get calls from our water district 
begging us to take water onto our rain-soaked and flooded 
fields. Yes, and it really happens, and it is something that 
people forget about.
    When we had those really bad rains a few years back, we 
were getting calls, and my fields were literally flooded with 
water. Our crops were on the verge of dying, but they are 
begging us to take water. That is a situation where water 
infrastructure makes a difference, because that water, instead 
of being forced upon us, could have been held back for a year 
like now. And then the water that we did have in storage was 
wasted, slowly. You hear about releases up in McClintock's 
district and other parts of the State where water is being 
released during the winter; or there is water, just like 
earlier this year, that was released out into the ocean and not 
captured and stored.
    In a year like today, when we are literally at zero percent 
allocation, where the well drillers in our area are tied up for 
at least a year-and-a-half, where some farmers are even getting 
to the point of buying their own drilling rigs, we have water 
flowing out into the ocean, water just being wasted for 
absolutely no good reason, because of law.
    What needs to be done? A bill was passed a few years ago, 
H.R. 1837. A bill was passed again, H.R. 3964. Yes, everybody 
has been saying it is my bill. My name is at the top of the 
list, but I had every single Republican in the delegation sign 
on to that bill. Chairman Hastings sat down with all of us and 
said what do you need to do, how do we make you guys get 
something through this House again? He said as long as we work 
together, I am there.
    We put a bill out. We made a few changes at the request of 
some of the Members. We introduced it. In a few weeks it was 
off the House Floor and it was delivered to the Senate.
    How does the legislative process work now? The Senate has 
to act, either take up our bill or pass the bill that was 
introduced not too long ago by our two Senators here in 
California.
    As far as how this group up here has handled the situation, 
we have reached out, we are continuing to reach out, and we are 
going to continue to meet with and help in any way we can to 
either pass our bill through the Senate or pass their bill. But 
at the end of the day, until we get something to the 
President's desk for his signature, we cannot solve this 
problem.
    So having hearings like this helps bring more attention to 
what is going on in the valley to make sure there is a face 
with the situation that we have here. When we go back to 
Washington, it is a fight because we can't afford to fly all of 
you back there and help us bring that message. And you do see 
those rallies on TV, and those are helpful, and that is why 
people do that.
    So the fact that we packed this place like we have today, 
standing room only, and the national attention on this issue, 
it helps us push this issue forward. The sad thing is, people 
look at this from other parts of the State. I have made a lot 
of friends in other States, and they always point to us and say 
if we don't fight, if we don't do what is right today, we are 
going to end up like California, and they are where our food 
comes from, and it is sad. It is something that--I don't want 
to be their bad example. I don't like watching our Members, or 
even parts of our State, the representatives from parts of our 
State, not want to help, not want to be part of the solution.
    And it is a challenge, but we have a great team up here. I 
have had the opportunity as the new guy--and that is why I am 
sitting on the end----
    [Laughter.]
    Mr. Valadao [continuing]. But as the new guy, to be part of 
the solution and to work with them and push this forward, and 
we are going to continue to fight. We are not giving up, and we 
are going to keep doing everything we can to bring something to 
the President's desk and get his signature.
    So thank you, and thank you, and I yield back.
    [Applause.]
    The Chairman. I thank the gentleman.
    We have a panel here of 10 people that had been invited, 
and I will just briefly introduce them, and then I will take a 
little bit more time to introduce where they are all from.
    We have Mr. Mark Watte from Tulare; Ms. Sylvia Chavez from 
Huron; Mr. Larry Starrh from Shafter; Mr. George Delgado from 
Firebaugh; Mr. Tom Coleman from Madera; Mr. David Murillo from 
Sacramento; The Honorable Felicia Marcus from Sacramento; we 
have Ms. Janelle Beland from Sacramento; Mr. Steve Knell from 
Oakdale; and Mr. Kole Upton from Chowchilla.
    Now, let me, for those of you who have not testified in 
front of the committee, we ask you with the invite to submit a 
written testimony. Your full testimony will appear in the 
record. However, because of time constraints, we try to keep 
the oral remarks within the 5-minute rule, as we call it.
    Up here is a light that has a green light, a yellow light, 
and a red light. That is really, really significant in 
committee hearings, I will tell you, because what it says, when 
the green light is on, you are just doing swimmingly well. But 
when the yellow light comes on, that means you are within a 
minute of your 5-minute time. And then when the red light comes 
on--well, we just don't want to go there, OK?
    [Laughter.]
    The Chairman. And so what I would like all of you to do is 
keep your oral remarks obviously within the 5 minutes. But if 
your thought goes farther, we will obviously be somewhat 
flexible.
    So I would now like to introduce Mr. Mark Watte from 
Tulare, California.
    Mr. Watte, you are recognized for 5 minutes.

          STATEMENT OF MARK WATTE, TULARE, CALIFORNIA

    Mr. Watte. Good morning, Chairman Hastings and members. My 
name is Mark Watte, better known now I think as the 
cheeseburger man.
    My grandfather emigrated from Belgium in 1909, share-
cropping in southern California for 50 years. After World War 
II the ranch was developed into housing, and my father and 
uncle moved to Tulare County in 1958. They started with 560 
acres, successfully farmed and split their partnership in 1984. 
My brother and I bought the business from our father in 1986, 
and we have grown significantly since then. Together with my 
brother Brian, nephew Matthew, and son-in-law Jason, we milk 
1,000 cows, raising 18,000 calves, and we farm 4,500 acres, 
which is about 7 square miles, of diversified row crops and 
have recently started planting pistachio trees. The downside to 
that growth is we are like Norm and Cliff at Farm Credit, they 
know our name.
    For the last two decades, as a result of an onslaught of 
over-reaching rules and regulations spurred on by environmental 
activists, we have lost and continue to lose huge amounts of 
our potential surface supply for, in many cases, no tangible 
results. Overall, the fish populations are no better off and 
perhaps worse. The activist answer is just to flush more water. 
Here are a couple of examples of what I am talking about.
    Hundreds of thousands of acre feet of water flows to the 
Sacramento Delta to improve water quality, quality degraded by 
neighboring cities dumping low-quality sewage into the river. 
Solution by dilution is not an answer. By the way, the water 
coming from Hetchy-Hetchy reservoir that supplies San 
Francisco, home of Senators Boxer and Feinstein and 
Congresswoman Pelosi, does not contribute any water toward this 
effort, and today that reservoir has one of the highest percent 
of capacity in the whole State.
    Pumping water through the delta is one of the key 
components of our statewide system. These pumps are severely 
restricted ostensibly to protect a 3-inch bait fish that isn't 
even indigenous to the delta. This is only a ruse used by these 
same activists. They don't care about fish. They just don't 
want us to get our entitled water. If any of these groups 
really cared about fish, they would be talking about a huge 
stressor on salmon and smelt population, the striped bass.
    Another big chunk of eastside water is now being lost to 
support a river restoration effort that after several years is 
failing miserably. I believe another presenter will be 
discussing this in more detail.
    In 1992, CVPIA committed 1.2 million acre feet a year for 
environmental uses that anyone today would be hard pressed to 
show any tangible results. Also, none of that water used for 
any of these environmental programs were paid for or held 
accountable for any benefits.
    These are but a few of the leaks on our developed water 
supply in California. These, coupled with a 3-year drought, has 
brought us to where we are today. President Obama, Governor 
Brown, and Senator Feinstein have put forward initiatives to 
spend hundreds of millions of dollars to mitigate drought 
damage. We don't need money; we need water. It is preposterous 
to offer billions of dollars to combat climate change, global 
warming, whatever name you want to put on it, and think that 
will help the California water supply.
    Any meaningful, substantive progress in improving our 
situation has to begin with some common sense injected into the 
entire endangered species discussion. We need to look at where 
ESA has worked. There are many cases of this. But where is the 
law being used for reasons other than species recovery? Without 
some reasoned middle ground in the debate, no real progress 
will be achieved.
    Another significant aspect relative to the overreach of the 
ESA is the huge increased cost of building any water-related 
projects. We have totally lost our sense of balance between 
making significant positive advances with minimal effects.
    Case in point. I am Thomas Edison. I just invented 
electricity. I am now filing my EIR. Part of it is going to 
read something like this. I have invented an energy that will 
revolutionize the way we live. But to transmit this energy, we 
will need to build transmission lines along our roads. To do 
this, we will have to cut down a tree, make a pole, and they 
will be about every 300 feet. The bottoms of the poles are 
going to need to be treated with something so they don't rot 
and fall over in a couple of years. Distracted drivers could 
run off the road and cause themselves a lot of harm. The 
overhead wires will not be very attractive, and once in a while 
an endangered Swainsons hawk will touch two of the wires and we 
will have a barbecued hawk.
    Would we have electricity today? And if we did, at what 
cost? Ask yourself if having power is worth it. Of course it 
is. So is having an abundant, affordable, and safe food supply.
    In conclusion, Congressman Nunes and I were recently 
featured in a far-reaching article in The Wall Street Journal 
that pointed out many of the absurdities of farming in 
California. The response to the article has been overwhelmingly 
positive. This country still has many commonsense people. It 
makes me hopeful that perhaps there is a realization that the 
pendulum of extremism needs to be moderated.
    Thank you, Mr. Chairman and all of the Members, for taking 
time to listen to our concerns. And I would like to submit the 
mentioned Wall Street Journal article into the record.
    [The prepared statement of Mr. Watte follows:]
          Prepared Statement of Mark Watte, Tulare, California
    Good Morning Chairman Hastings and Members.
    My grandfather emigrated from Belgium in 1909, share cropping in 
southern California for 50 years. After World War II it was developed 
into housing and my father and uncle moved to Tulare County in 1958. 
They started with 560 acres and eventually split their partnership in 
1984. My brother and I bought the business from our father in 1986 and 
have grown significantly since then. Today with my brother Brian, 
nephew Matthew, and Son-in-Law Jason; we milk 1,000 cows, raise 18,000 
calves and farm 4,500 acres (7 square miles) of diversified row crops 
and have more recently started planting pistachios. We are like Norm 
and Cliff at our Farm Credit office, they all know our name.
    I currently serve on seven boards and commissions, of which five 
are directly related to water. Married for 41 years, 3 married 
daughters and 10 nearby grandchildren.
    I don't know of anyone that is more committed or passionate about 
our area and way of life than myself.
    For the last two decades, as a result of an onslaught of over-
reaching rules and regulations spurred on by environmental activists, 
we have lost and continue to lose huge amounts of our potential surface 
water supply, for, in many cases, no tangible results. Overall, the 
fish populations are no better off and perhaps worse. The activist 
answer is to flush more water. Here are a couple of examples of what I 
am talking about.

    1.  Hundreds of thousands of acre-feet of water flows to the 
            Sacramento Delta to improve water quality-quality degraded 
            by the neighboring cities dumping low quality sewage into 
            the river. Solution by dilution is not an answer. By the 
            way, the water coming from Hetchy-Hetchy reservoir that 
            supplies San Francisco, home of Senators Boxer and 
            Feinstein and Congresswomen Pelosi, does not contribute any 
            water toward this effort and today that reservoir has one 
            of the highest percent of capacity in the entire State.
    2.  Pumping water through the delta is one of the key components of 
            our State wide water system. These pumps are severely 
            restricted ostensibly to protect a 3 inch bait fish that 
            isn't even indigenous to the delta! This is only a ruse 
            used by the same activists. They don't care about fish, 
            they just don't want us to get our entitled water. If any 
            of these groups really cared about fish they would be 
            talking about a huge stressor on salmon and smelt 
            population, the striped bass.
    3.  Another big chunk of east side water is now being lost to 
            support a river restoration effort that after several years 
            is failing miserably. I believe another presenter will be 
            discussing this in more detail.
    4.  In 1992 CVPIA committed 1.2 million acre feet to environmental 
            uses that anyone today would be hard pressed to show any 
            tangible results. Also, none of the water used for any of 
            these ``environmental programs'' were paid for or held 
            accountable for the benefits achieved.

    These are but a few ``leaks'' on our developed water supply in 
California. These coupled with a 3-year drought has brought us to where 
we are today. President Obama, Governor Brown, and Senator Feinstein 
have put forward initiatives to spend hundreds of millions of dollars 
to mitigate drought damage. WE DON'T NEED MONEY-WE NEED WATER! It is 
preposterous to offer to billions of dollars to combat climate change/
global warming and think that will help the California water supply.
    Any meaningful substantive progress in improving our situation has 
to begin with some common sense injected into the entire endangered 
species discussion.
    What we need to look at is what has worked--there are many cases of 
this--but where is the law being used for reasons other than species 
recovery. Without some reasoned middle ground in the debate no real 
progress can be achieved. Another significant aspect relative to the 
overreach of the ESA is the huge increased cost of building any water 
related projects. We have totally lost our sense of balance between 
making significant positive advances with minimal negative effects.
    Case in point. I'm Thomas Edison and just invented electricity. I 
am now filing my EIR, which will include among many others State and 
Federal fish and game, NEPA, CEPA. It would read like this--I have 
invented an energy source that will revolutionize the way we live. But 
to transmit this energy we will need to build a transmission line along 
our roads. To do this we will need to cut down a tree to make a pole 
and they will be every 300 feet along our roads. The bottoms of the 
poles will need to be treated so that they will not rot; distracted 
drivers could run off the road and kill themselves running into a pole. 
The overhead wire will not be attractive and once in awhile an 
endangered Swainsons Hawk will touch two of the wires and we will have 
a BBQ'd hawk. Would we have electricity today, and at what cost? Ask 
yourself if having power is worth it? Of course it is. So is having an 
abundant affordable food supply.
    In conclusion, Congressman Nunes and I were recently featured in a 
far-reaching article that pointed out many of the absurdities of 
farming in California. The response has been overwhelming positive. 
This country still has many common sense people. It makes me hopeful 
that perhaps there is a realization that the pendulum of extremism 
needs to be moderated.
    Thank you Mr. Chairman and all of the members for taking time to 
listen to our concerns.
                                 ______
                                 
    The Chairman. Without objection, it will be part of the 
record.
    Mr. Watte. Thank you.
    The Chairman. Thank you very much, Mr. Watte.
    [Applause.]
    The Chairman. Next I will recognize Ms. Sylvia Chavez, who 
is the Mayor of the city of Huron.
    Mayor Chavez, you are recognized for 5 minutes.

 STATEMENT OF THE HON. SYLVIA V. CHAVEZ, MAYOR, CITY OF HURON, 
                           CALIFORNIA

    Mayor Chavez. Mr. Chairman and Members of Congress, good 
morning and welcome to the Central Valley. Thank you for coming 
today to learn about the impacts the drought is having on our 
communities.
    The Chairman. Speak more closely into the mic. There you 
go.
    Mayor Chavez. I hope when you leave today you will take a 
better understanding that for our communities in the Central 
Valley water is jobs and water is life.
    My name is Sylvia V. Chavez and I am the child of farm 
workers, as were my parents before me. As a child, I worked in 
the fields during my summer vacations to earn extra income. My 
mother and father worked in the fields out of necessity to 
provide a better life for our family. Their hard work showed 
our eight siblings and me what work ethic is truly all about.
    Today, I am the Mayor of the city of Huron. Huron has a 
population of just under 7,000 people and is located 60 miles 
southwest of Fresno. Our population is 97 percent Hispanic. The 
majority of our residents are connected to agribusiness either 
directly or indirectly. Because our city is so far away from 
Fresno and the other population centers, many times we are 
forgotten. Yet, like many other small valley towns, when it 
comes to putting food on the dinner table, it is communities 
like ours that fill our Nation's stomachs with many of the 
everyday foods Americans take for granted.
    You see, my city, like many valley towns, is surrounded by 
agriculture. Local farmers plant, irrigate, and harvest their 
crops with the help of Huron's residents. Then, the people of 
Huron pack and transport valley commodities to market. If you 
did not grow up in the valley or have not traveled here before, 
you may be unaware that the lettuce and tomato in your garden 
salad or the toppings on your McDonald's hamburger come from 
here in the San Joaquin Valley.
    Our region was blessed with fertile farm land. What we grow 
is not simply transported to other parts of our Nation. Our 
commodities are shipped across the globe. The next time you put 
sauce on your spaghetti, remember that 95 percent of the 
processing tomatoes in the United States are grown in Huron. 
Let's face it, in Huron, we feed the world.
    As much as our community is tied to agriculture, we are 
equally tied to water. In 2009, when water allocations reached 
as low as 10 percent, Huron's unemployment rate climbed to 
almost 40 percent. Businesses who normally hired as many as 
3,500 farm workers in previous years needed less than 600 
because of the drought. As a result of the 2009 drought, many 
in my community were forced into food lines just to feed their 
families. The drought we face today is by far more serious. In 
fact, the drought we face today has put my community's ability 
to turn on its faucets in jeopardy.
    In the city of Huron, we purchase our water from the Bureau 
of Reclamation. This year we were notified that Huron will 
receive an allotment of 649 acre feet for fiscal year 2014-
2015. For my city, whose historical usage is 1,125 acre feet 
per year, this year's allotment represents a shortage of 476 
acre feet. Because of record drought conditions, my city is 
already tapping into its water allotment. Our local water 
managers have become concerned enough that the Huron City 
Council recently passed a resolution restricting water use on 
residential and industrial properties. Our community truly 
understands the value of water, and the council is confident 
the city's residents will conserve all the water they can, but 
will it be enough?
    Today, I am calling on you, the Members of Congress 
gathered here today, to provide a solution to the man-made 
drought that is crippling my community. If the drought is not 
dealt with quickly and appropriately and actions are not taken 
to better balance the needs of our community, and communities 
like it, with the needs of the delta fish, the inaction will 
truly threaten my community's existence. I fear continued 
drought and water diversions will make our agricultural 
community a thing of the past. Our residents will be without 
jobs and incomes, and our city will suffer the consequences. In 
short, our economy will fail.
    Solving the water crisis is so urgent to my city that when 
I told my friends and neighbors that I was coming here today to 
testify, many in my community wanted to share their stories as 
well. They wanted to tell you, their elected representatives in 
Congress, how the water crisis is impacting them. Today I have 
brought with me letters from many of my neighbors who wanted to 
have their voices heard. I hope you will take these letters 
with you, listen to their stories too, and use the knowledge 
they share to inform your decisionmaking in Washington.
    For many, the unemployment in the town of Huron may be 
forgotten once we leave here today, but it shouldn't be. For my 
community, water is about jobs and the opportunity to thrive. 
But what about you and your communities? To that we say, what 
about your dinner table? Congress must act soon to provide 
drought relief. Remember, it is communities like Huron, 
California that feed the world.
    In ending, I wanted to state something that my 
granddaughter told me last night. As I was speaking with my 
husband about this----
    The Chairman. Quickly, quickly. Go ahead, please.
    Mayor Chavez. As I was speaking to my husband about this, 
my granddaughter stated, ``Grandmother, you need to make them 
hear. You need to make them understand. My friends are afraid. 
Their parents have been talking about losing their jobs because 
of no water, no jobs for them, and they are thinking of 
moving.'' She was very serious, and this is coming from my 10-
year-old granddaughter.
    She understands. She is 10 years old, and she understands 
the impact this is having on our community and her friends and 
their families and how to provide food on the table. And she 
said, ``Papa and you and mama put food on our table, but our 
friends are worried about how they are going to be fed this 
summer.''
    Thank you.
    [The prepared statement of Mayor Chavez follows:]
 Prepared Statement of The Honorable Sylvia V. Chavez, Mayor, City of 
                           Huron, California
    Mr. Chairman and Members of Congress, good morning and welcome to 
the Central Valley. Thank you for coming here today to learn about the 
impacts the drought is having on our communities. I hope that as you 
leave today you will take with you a better understanding that for many 
communities in the Central Valley water is jobs and water is life.
    My name is Sylvia V. Chavez and I am the child of farm workers, as 
were my parents before me. As a child, I worked in the fields during my 
summer vacation from school to earn extra income. My mother and father 
worked in the fields out of necessity and survival to provide a better 
life for our family. Their hard work showed my eight siblings and I 
what work ethic is truly all about.
    Today, I am the Mayor of the city of Huron, California. Huron has a 
population of just under 7,000 people and is located 60 miles southwest 
of Fresno. Our population is 97 percent Hispanic. The majority of our 
residents are connected to agribusiness either directly or indirectly. 
Because our city is so far away from Fresno and the other population 
centers, many times we are forgotten. Yet, like many other small valley 
towns, when it comes to putting food on the dinner table, it is 
communities like ours that fill our Nation's stomachs with many of the 
everyday foods Americans take for granted.
    You see, my city, like many valley towns, is surrounded by 
agriculture. Local farmers plant, irrigate, and harvest their crops 
with the help of Huron's residents. Then, the people of Huron pack and 
transport valley commodities to market. If you did not grow up in the 
valley or have not traveled here before, you may be unaware that the 
lettuce and tomato in your garden salad or the toppings on your 
McDonalds hamburger burger come from right here in the San Joaquin 
Valley. Our region has been blessed with fertile farm land. What we 
grow is not simply transported to other parts of our Nation. Our 
commodities are shipped across the globe. The next time you put sauce 
on your spaghetti, remember that 95 percent of the processing tomatoes 
in the United States are grown in Huron. Let's face it, in Huron,
                           we feed the world!
    As much as my community is tied to agriculture, we are equally tied 
to water. In 2009, when water allocations reached as low as 10 percent, 
Huron's unemployment rate climbed to almost 40 percent. Businesses who 
normally hired as many as 3,500 farm workers in previous years needed 
less than 600 because of the drought. As a result of the 2009 drought, 
many in my community were forced into food lines just to feed their 
families. The drought we face today is by far more serious.
    In fact, the drought we face today has put my community's ability 
to turn on its faucets in jeopardy. In the city of Huron, we purchase 
our water from the Bureau of Reclamation. This year we were notified 
that Huron will receive an allotment of only 649 acre feet for fiscal 
year 2014-2015. For my city, whose historical usage is 1,125 acre feet 
per year, this year's allotment represents a shortage of 476 acre feet. 
Because of record drought conditions, my city is already tapping into 
its water allotment. Our local water managers have become concerned 
enough that the Huron City Council recently passed a resolution 
restricting water use on residential and industrial properties. Our 
community truly understands the value of water and the Council is 
confident the city's residents will conserve all the water they can, 
but will it be enough?
    Today, I'm calling on you, the Members of Congress gathered here 
today, to provide us a solution to the manmade drought that is 
crippling my community. If the drought is not dealt with quickly and 
appropriately and actions are not taken to better balance the needs of 
my community, and communities like it, with the needs of delta fish, 
the inaction will truly threaten my community's existence. I fear 
continued drought and water diversions will make our agricultural 
community a thing of the past--our residents will be without jobs and 
incomes and our city will suffer the consequences. In short, our 
economy will collapse.
    Solving the water crisis is so urgent to my city that when I told 
my friends and neighbors I was coming here today to testify many in my 
community wanted to share their stories as well. They wanted to tell 
you, their elected representatives in Congress, how the water crisis is 
impacting them. Today I have brought with me letters from many of my 
neighbors who wanted to have their voices heard. I hope you will take 
these letters with you, listen to their stories too, and use the 
knowledge they share to inform your decisionmaking in Washington.
    For many, the unemployment in the town of Huron may be forgotten 
once we leave here today, but it shouldn't be. For my community water 
is about jobs and the opportunity to thrive. But, what about you and 
your communities? To that I say, ``what about your dinner table?'' 
Congress must act soon to provide drought relief. Remember, it is 
communities like Huron, California that FEED THE WORLD!
                                 ______
                                 
    The Chairman. Ms. Chavez, thank you very much.
    You referenced some letters. Would you like to have those 
letters part of the record?
    Mayor Chavez. Yes, please. I gave them to Congressman 
Valadao's office.
    The Chairman. OK. I will recognize Mr. Valadao.
    Mr. Valadao. Mr. Chairman, I ask unanimous consent that the 
letters Mayor Chavez brought with her today and the letters of 
my constituents on the impacts of the current drought be 
entered into the record.
    The Chairman. Without objection, they will be part of the 
record.
    Mr. Valadao. Thank you.
    The Chairman. Now I recognize Mr. Larry Starrh, who is co-
owner of Starrh----
    [Applause.]
    The Chairman. Mr. Larry Starrh, who is co-owner of Starrh 
and Starrh Farms in Shafter, California.
    Mr. Starrh, you are recognized for 5 minutes.

 STATEMENT OF LARRY STARRH, CO-OWNER, STARRH AND STARRH FARMS, 
                      SHAFTER, CALIFORNIA

    Mr. Starrh. Thank you, Mr. Chairman, and thank you, Members 
of the House.
    I don't know that I should say anything. I mean, you all 
got it. Everything that you said here at the dais needs to 
happen. So you know what to do, and you are doing it, so I 
don't know if what I can add is going to be much help, but I am 
going to read it anyway because I wrote it.
    [Laughter.]
    Mr. Starrh. But seriously, you know what needs to happen. 
We need the water, and you know how to get it done. So I wish 
you well, and get it done.
    My name is Larry Starrh, and I am a partner in Starrh 
Family Farms. Our farm is located in Kern County, and my 
partners include my father Fred Starrh, my brother Fred Starrh 
II, and my brother-in-law Jay Kroeker. Our office and all our 
bookkeeping is run by my two sisters, and most recently my 
niece. My oldest son is now farming with us and is excited by 
the opportunity for a future in farming. Good luck. My youngest 
son is also looking forward to being a farmer and has said so 
since he was a toddler. God bless him, right?
    We employ 46 full-time employees, with an average time of 
service to our ranch of over 20 years, good men who have 
dedicated years of their life to provide for their families and 
to help make our farm successful, and we are grateful to them. 
I tell you this so you can get a glimpse of who and what I 
represent. I am not alone when I sit here.
    We farm close to 9,000 acres, primarily almonds and 
pistachios. The bulk of our ranch is located in the Belridge 
Water Storage District, which lies on the west side of Kern 
County, and it is completely reliant on the State Water Project 
for providing water.
    I know this hearing is about water, and my family has been 
farming for over 80 years, and according to what I have been 
told by the experts, this is the driest year on record in 
California. Due to the lack of water this year, my family and I 
had to make the hard decision to dry up and let die close to a 
thousand acres of producing almond trees. As well, we will 
continue to keep fallow another 2,000 acres of open ground, 
ground that we have had to keep idle for close to 8 years 
because of water shortages, shortages that were created and 
sustained by regulations, regulations that have been imposed 
and brandished like weapons, weapons that are built on myths 
and hyperbole.
    In the last 12 years, our farm hasn't received 100 percent 
allocation of entitlement water once. But every year we have to 
pay for 100 percent of that water even though we don't receive 
it. Every year the State Water Project takes water out of the 
system for environmental needs. Every year the State bills us 
for that water, and we have to pay it. The people who have to 
pay it are the water users it is taken from, and the government 
recognizes that word. It is a taking, and it is OK. I don't get 
it.
    As a grower, the challenges get even greater. Reliability 
of contracted water is non-existent. You can't make crop 
decisions. You can't make labor decisions. You can't make them 
until the last minute, or ever. And on top of that, we have to 
try to source dry-year water, if it is even available, to buy 
at who knows what the cost will be. And the cost can double or 
triple. This year we paid $1,250 an acre foot for water, and 
that was at a bid price. We had to bid for that water. And 
until we did it, we said we have to do it because we have to 
keep our trees alive, the rest of our trees alive.
    We can't sustain this way of doing business. The water 
system in California is crippled and needs to be repaired.
    Two weeks ago at our water district meeting, it was 
reported that the Sacramento River was running at flood stage, 
flood stage, right? But we couldn't move the water because the 
San Joaquin River was low. I don't get it. I really don't get 
it.
    Last year, 800,000 acre feet of State Water Project water 
was released to the ocean instead of being stored. Last year we 
bought dry-year water, and we purchased it, and it was almost 
stranded in Oroville because of mismanagement. Had it rained 
this year as normal, we would have lost it.
    The water system in California is crippled and needs to be 
repaired.
    In my naive world, water is life. Water creates life. Water 
sustains life. Sadly, in the real world, I think water is about 
power. Water is a weapon. Water is a hostage. Our water system 
is battered and broken and has been hijacked by the 
unreasonable, and we need help.
    This year we are in a drought caused by nature. I know 
that. But in the years prior to this, the droughts we have 
suffered were imposed on us by the illogical and the senseless. 
And I know that you folks understand this, and I know that I am 
just reiterating things, but we do need to look at this 
seriously. Three years ago I sat in the audience and I listened 
to a lot of these same things, and I thought, wow, we are on 
the road, we are going to fix this. Here we are again. We are 
on the same road.
    I know you understand this, so I don't know how you get any 
further. I thank the Lord that you are doing it, and I 
appreciate your time here today, and I appreciate you allowing 
me to testify in front of you.
    Thank you, Mr. Chairman. That is all I have.
    [The prepared statement of Mr. Starrh follows:]
Prepared Statement of Larry Starrh, Co-Owner, Starrh and Starrh Farms, 
                          Shafter, California
    My name is Larry Starrh, I am a partner in Starrh Family Farms. Our 
farm is located in Kern County and my partners include my father Fred 
Starrh, my brother Fred Starrh II, and my brother in-law Jay Kroeker. 
Our office and all our book keeping is run by my sisters and recently 
my niece and my oldest son is now farming with us and is excited by the 
opportunity for a future in farming. My youngest son is also looking 
forward to being a farmer and has said so since he was a toddler. We 
employ 46 full time employees with an average time of service of over 
20 years. Good men who have dedicated years of their life to help make 
our farm successful and we are grateful to them. We farm close to 9,000 
acres primarily almonds and pistachios. The bulk of our ranch is 
located in the Belridge Water Storage District and is completely 
reliant on the State Water Project for providing water.
    This meeting is about water. My family has been farming for over 80 
years, and according to what I have been told by the experts this is 
the driest year on record in California! . . . Due to lack of water 
this year my family and I had to make the decision to ``dry up and let 
die'' close to a thousand acres of producing almond trees, as well as 
keeping fallow another two thousand acres of open ground. Ground that 
we have had to keep idle for close to 8 years because of water 
shortages. Shortages that were created and controlled by regulations, 
regulations that have been imposed and brandished like weapons! On the 
State Water Project water has been ``taken'' out of the system to 
protect environmental needs, to add insult to injury the bill for that 
water is paid for by the people who the water was taken from. Our farm 
hasn't received a hundred percent allocation for water in 18 years but 
we have been charged and have had to pay for 100 percent every year. We 
pay for water we don't get. Then we have to try and source ``dry year 
water'' to buy which can cost double or triple, or like this year 10 
times more than the base price. We can't sustain this way of doing 
business, the water system in California is crippled and needs to be 
repaired.
    In my world water is life. Water creates life, water sustains life. 
Sadly in the real world water is about power, water is a weapon, water 
is a hostage. Our water system is battered and broken and has been 
kidnapped/hijacked by the unreasonable, and we need help! This year we 
are in a drought caused by nature, I know that, but in the years prior 
to this the droughts we have suffered were imposed on us by the 
illogical and senseless. Thank you! Thank you for your commitment and 
your understanding that water is life! And thank you for trying to find 
a reasonable solution!
                                 ______
                                 
    The Chairman. Thank you, Mr. Starrh.
    [Applause.]
    The Chairman. Thank you, Mr. Starrh.
    I will now recognize Mr. George Delgado, owner of Delgado 
Farming in Firebaugh.
    Mr. Delgado, you are recognized for 5 minutes.

   STATEMENT OF GEORGE DELGADO, DELGADO FARMING, FIREBAUGH, 
                           CALIFORNIA

    Mr. Delgado. Delgado.
    [Laughter.]
    The Chairman. I knew I would mess that up.
    Mr. Delgado. Chairman Hastings and members of the 
committee, I thank you for the opportunity to come here to 
testify before you today on one of the most important issues 
facing my community.
    My name is George Delgado. I am a farmer on the west side 
of the Central Valley in Firebaugh, a small community in 
western Fresno County where I have lived my entire life. My 
experiences in agriculture on the west side began long before I 
started farming. As a young man, I learned to work in the 
fields, whether it was chopping weeds, picking cotton or 
tomatoes by hand. My father told me that if I didn't want to 
work in the fields the rest of my life, I should get an 
education, so I did. I attended Fresno State. I earned a degree 
in agricultural science.
    I continued to work weekends and summers for west side 
farmers who gave me an opportunity to work so that I could pay 
for my college education.
    In 1978, I leased some land near Firebaugh and began 
farming on my own. A few years later, I leased an additional 
300 acres on the historic Sam Hamburg Ranch, where I continue 
to farm to this day. Presently, I own and farm several hundred 
acres of almonds, cherries and cantaloupe in the San Luis Water 
District, Pacheco Water District, and Westlands Water District. 
Each of these districts receives water from the Central Valley 
Project and has been greatly affected by the drought and the 
environmental restrictions.
    The heart of the Central Valley Project is the Sacramento 
San Joaquin River Delta. Water naturally flows to the delta 
from reservoirs in northern California, where it is pumped into 
both the Central Valley and State Water Project man-made canals 
and aqueducts. Unfortunately, water conveyance through the 
delta has presented significant challenges to State water 
systems.
    Besides water quality in the delta, the environmental laws 
and continuous litigation brought largely by environmental 
special interest groups have constrained California's water 
system. The Federal Endangered Species Act has been the major 
environmental driver in water supply litigation. Efforts to 
protect species such as the delta smelt have created a 
tremendous amount of uncertainty in our annual water supply. 
Over the last decade, millions of acre feet of water have been 
diverted away from human use to save these species. 
Environmentalists have repeatedly blamed the operations of the 
delta pump for causing the delta population decline. Yet, they 
have ignored other proven factors, including predation by non-
native fish such as the striped bass and the discharges of 
toxic sewage into the delta from the cities.
    The pumping has been stopped even in wet years to protect 
fish, yet the delta ecosystem continues to be in decline. Water 
that could have been stored for use in dry years such as the 
current year has been lost forever. Unfortunately, protection 
of the delta smelt is not the only reason water has been taken 
away from Central Valley Project water users. When I began 
farming, west side farmers could expect to receive 100 percent 
of their contracted water supply each year, except in the years 
of the most extreme drought conditions.
    However, since the passage of the Central Valley Project 
Improvement Act of 1992, over 1 million acre feet of water each 
year has been taken away from irrigated agriculture and 
dedicated to fish and wildlife uses. As a result, in an average 
water year, most farmers on the west side receive less than 
half of their contracted water allocation.
    The CVPIA has had a devastating effect on our communities, 
especially in years of below-average rainfall. Hundreds of 
thousands of acres have been fallowed. Unemployment and crime 
rates have dramatically increased. Here in the San Joaquin 
Valley, water equals jobs, not just farm jobs but off-farm 
jobs. It is sad to see, here in the Nation's food basket, so 
many people forced into food lines to receive food that is 
likely grown in China or other parts of the world.
    As farmers, a natural occurring drought is an acceptable 
risk of our chosen profession. But a drought caused by 
restrictive legislation is very difficult to understand. The 
CVPIA was enacted while California was experiencing the effects 
of a long-term drought, and it was intended to encourage water 
conservation, increase the use of water transfers, and to 
provide additional water for fish and wildlife. However, it has 
amounted to little more than legally stealing water from the 
farmers to dilute discharges of sewage, metals and chemicals 
dumped into our rivers, the delta, the San Francisco Bay; and 
on the west side, we have invested millions of dollars in 
installing state-of-the-art irrigation systems to improve water 
quality and conserve our diminishing water supply, yet we are 
blamed for the continued decline of the delta and our 
waterways, not the polluters who refuse to live by the laws 
that they impose on us.
    Much can be done to improve our situation here in the 
Central Valley. The Endangered Species Act must be reformed to 
strike a reasonable balance between people and fish. The CVPIA 
must be amended to encourage balance between the needs of our 
cities, farmers, and the environment.
    I thank you for the opportunity to share my story with you 
today. Only a united Congress and a President can make the 
necessary changes and enact legislation to give us short- and 
long-term solutions to our water issues. Please take what you 
learn here today back to Washington and, working together, use 
it to help provide the relief that the valley needs.
    [Applause.]
    [The prepared statement of Mr. Delgado follows:]
   Prepared Statement of George Delgado, Delgado Farming, Firebaugh, 
                               California
    Chairman Hastings and members of the committee, I thank you for the 
opportunity to come here to testify before you today on one of the most 
important issues facing my community.
    My name is George Delgado. I have lived on the west side of the 
Central Valley all my life in Firebaugh, western Fresno County. I 
attended local schools in Firebaugh, California and completed my 
education at Fresno State University earning a degree in Agricultural 
Science.
    My experiences in agriculture on the west side go back to well 
before I started my first farm. As a young man, I picked cotton and 
tomatoes and chopped weeds by hand. Working summers and on weekends in 
the fields for west side farmers gave me the opportunity to work as I 
attended school and helped me earn the money I needed to complete my 
education. My career as a farmer started in 1978 when I leased my first 
field near Firebaugh. Later, I leased an additional 300 acres on the 
historic Sam Hamburg Ranch, first cultivated in 1936. Presently, I own 
and farm almonds, cherries, and cantaloupes in Westlands Water 
District, San Luis Water District and Pacheco Water District, all of 
which receive their water from the Federal Central Valley Project.
    The hub of California's Central Valley Project is the Sacramento-
San Joaquin River Delta. Here, water from reservoirs in the northern 
portions of the Central Valley and State water projects is conveyed 
through natural channels to pumps that feed the man-made canals and 
aqueducts that carry water to the west side and down toward the 
southern portions of our State. Unfortunately, using the delta's 
natural channels to convey water through the system has shown itself to 
be the equivalent of using an unimproved dirt road as an interchange on 
our Federal interstate system and it has imposed significant challenges 
on the State's water systems.
    Environmental statutes and litigation, brought largely by 
environmental special interests, have led to serious water conflicts in 
California. The Federal Endangered Species Act [ESA] has been the major 
environmental driver in water supply litigation. Of the over 1,300 
species listed under the Endangered Species Act in the United States, 
over 300 are in the State of California. During the past 10 years, 
trillions of gallons of water have been diverted away from human use to 
environmental purposes to ``save'' these species.
    Recent litigation on protecting delta smelt, a 3-inch fish native 
to California's Sacramento-San Joaquin River Delta, has taken hundreds 
of thousands of acre feet away from our communities each year. 
Environmentalists have consistently blamed the delta pumps as the cause 
for smelt population decline. Yet, they continue to ignore numerous 
other factors, including predation by nonnative fish such as the 
Striped Bass and the discharge of toxic sewage into the delta, all of 
which have been shown to contribute significantly to smelt decline. 
Unfortunately, the delta smelt is not the only reason water has 
continued to be taken from the valley.
    When I started farming on the west side, farmers could expect to 
receive 100 percent of their contracted water supplies year-in and 
year-out, except in years of the most extreme drought conditions. 
However, since the passage of the Central Valley Project Improvement 
Act of 1992, more than 1.2 million-acre feet of water annually--enough 
to irrigate over 340,000 acres of farmland--have been redirected away 
from irrigation to fish and wildlife uses. As a result, in an average 
water year, most farmers on the west side expect to receive less than 
40 percent of their allocation from year to year.
    Agriculture in my part of the valley has been devastated by the 
Central Valley Project Improvement Act. As farmers, we can accept 
natural droughts as a risk of our chosen profession but a drought 
caused by legislation that takes away our water is very difficult to 
understand. The Central Valley Project Improvement Act was enacted 
while California was experiencing the effects of a long-term drought 
and many of the provisions in the act were aimed at conserving water, 
increasing the use of water transfers, and providing additional water 
for fish and wildlife purposes.
    As someone who makes his living off the land, I am all too aware of 
the need for all of us to be good stewards of the earth. However, part 
of being a good steward is ensuring that scarce resources are allocated 
in the most efficient and effective means possible, striking careful 
balances. That means ensuring there is enough water available for both 
fish and families. The continued decline of threatened and endangered 
species in the State in the face of CVPIA's water reallocation has led 
me, and many others who make their livings on the west side, to ask 
whether taking away our water for fish and wildlife has had a 
meaningful impact on our environment.
    Growing up, I was taught that the purpose of our Government is to 
help farmworkers, those in agriculture related professions, and farmers 
as they struggle to grow America's vegetables, fruits, nuts and other 
food products. Those of us who farm in the valley are proud to say we 
feed the world. However, the continued manmade drought has left many 
families in communities up and down the valley unable to feed 
themselves.
    Here in the San Joaquin Valley, water equals jobs. In 2009 during 
the last water crisis, hundreds of thousands of acres were fallowed, 
leaving many thousands unemployed. Our communities saw unemployment 
rates reach well over 40 percent and crime rates hit record highs. 
Here, in the Nation's food basket, many of our friends and neighbors 
were forced into food lines to receive Chinese produce.
    Like many of my friends and neighbors, I am afraid the CVPIA is 
doing little more than legally stealing water from farmers. Here in the 
Central Valley, we work every day to conserve every drop of water that 
is delivered to us and protect our precious and quickly diminishing 
ground water resources so we can continue to feed the world. Although 
we are on the cutting edge of irrigation technology and we feed the 
world with the minimum water necessary, each year more water is taken 
from us to help clean up sewage, metals and chemicals dumped into the 
Sacramento River, San Joaquin River, the delta, and San Francisco Bay 
by polluters who refuse to keep up with the times.
    Much can be done to improve our situation here in the Central 
Valley. California's farmers cannot continue to give up their water for 
``environmental purposes''. The Endangered Species Act must be reformed 
to strike a reasonable balance that puts families first and the CVPIA 
has to be amended to help bring a compromise between the needs of 
wildlife, cities and food producers.
    Thank you for the opportunity to come here today and share my 
story. Only a united Congress and President can work together to make 
these changes and enact legislation necessary to give short and long 
term drought relief to our communities. I hope you will take what you 
learn here today back to Washington and, working together, use it to 
help provide the relief our valley needs.
                                 ______
                                 
    The Chairman. Thank you, Mr. Delgado. I was trying to put 
an ``R'' in your name by way of introduction, and I don't know 
why. I didn't see an ``R'', but I tried to put an ``R'' in 
there, so thank you for correcting me.
    Now I want to recognize Mr. Tom Coleman. Mr. Coleman is the 
President of the Madera County Farm Bureau from Madera.
    Mr. Coleman, you are recognized for 5 minutes.

STATEMENT OF TOM COLEMAN, PRESIDENT, MADERA COUNTY FARM BUREAU, 
                       MADERA, CALIFORNIA

    Mr. Coleman. Thank you. Mr. Chairman and members of the 
committee, thank you for providing me the opportunity to 
testify today on the subject that is of great importance to so 
many. I appear today not just representing myself but thousands 
of people who rely on agriculture to sustain their livelihoods. 
It is not just growers and farmers who are affected by this 
situation but their employees, bankers, businessmen, and the 
entire community.
    We have heard about the horrific effects the drought has 
caused in the Central Valley, and I am sure we will continue to 
see far-reaching consequences into the future. It is important 
that these effects not be minimized. But as President of the 
Madera County Farm Bureau, I would like to focus on one 
solution that has the potential to solve so many of these 
problems, the construction of a reservoir in the Upper San 
Joaquin River called Temperance Flat.
    Temperance Flat is a project that has been on the books 
since the 1950s, first authorized by Congress in 2003 and in 
2004, now only to be introduced in several pieces of 
legislation that have gone before or are pending in front of 
this committee. This storage project is unique as it is 
designed to be a flood storage facility only and would not 
impede San Joaquin River flows during normal rain years. It is 
also exceptional in that this project does not touch the delta 
directly, which makes it a prime candidate for less 
controversy.
    Temperance Flat accomplishes multiple objectives, all of 
which will bring major relief to the problems described today 
in the following ways: increased water supply reliability and 
system operational flexibility for agriculture, MNI, and 
environmental purposes, regardless of who gets the lion's share 
of the water; enhanced environmental benefits through better 
temperature flow conditions along the San Joaquin River. The 
water from Temperance Flat can flow north or south as the 
conveyance facilities are in place already to do so. If 
ecosystem restoration ultimately remains impossible due to the 
current arrangement on the San Joaquin River, the construction 
of Temperance Flat Reservoir will provide a major relief for 
all of the system.
    Finally, the local cost share associated with Temperance 
Flat will be generous, if not the highest available. Farmers 
want this project and are willing to pay for it. We don't 
necessarily need the Federal Government or the irrigation 
districts to bear the cost.
    Madera County Farm Bureau's main objective is to protect 
its vast membership throughout Madera County. Even though all 
of these people's water needs are different, everyone would 
also benefit from having more water in the system regardless of 
who gets it.
    The Farm Bureau appreciates the community's efforts to 
highlight this important issue in Congress, but we would 
appreciate your continued assistance and dedication toward 
providing a major, sweeping solution to this crisis so that it 
never has to happen again. Thank you.
    [Applause.]
    [The prepared statement of Mr. Coleman follows:]
   Prepared Statement of Tom Coleman, President, Madera County Farm 
                       Bureau, Madera, California
    The Madera County Farm Bureau [MCFB] is a representative member 
body composed of 1,200 members, 550 agricultural operations, and 170 
agri-businesses. Madera County's top agricultural commodities include 
almonds, grapes, milk, pistachios, and cattle livestock operations. The 
2013 gross agricultural value of Madera County agricultural commodities 
was $2,739,411,000.00--ranking the county as the 10th largest 
agricultural producing county in the State of California, and the 16th 
largest agricultural commodity sector in the world.\1\ Madera County 
has an agricultural production acreage exceeding 2 million acres; 1.5 
million of those acres belong to irrigable agricultural practices.
---------------------------------------------------------------------------
    \1\ Madera County Ag Commissioner's 2013 Annual Crop Report (online 
at www.madera-county.com).
---------------------------------------------------------------------------
    Historically, Madera County agricultural production has been rooted 
in arid rangeland grazing to the east, along with permanent crops 
throughout the Central Valley floor, including vines and orchards. Due 
to rising crop values of permanent crops since 2003 however, Madera 
County is now largely dedicated toward permanent crop production, 
including almonds, pistachios, and grapes as of 2014.\2\ This 
transition to a high percentage of permanent crops--in some places 
triple plantings taking place, has occurred at an extremely rapid rate, 
increasing in the County's irrigation demands.
---------------------------------------------------------------------------
    \2\ Central Valley Farmland Trust 2014 Central Valley Review pp. 
244-258.
---------------------------------------------------------------------------
    Water usage for this shift in planting activities has been 
significant in contributing toward the need for a conjunctive use 
basin; the use of groundwater as well as surface water, and has nearly 
doubled the amount of surface water required for irrigation of these 
permanent crops and tripled the amount of groundwater required to 
sustain the deep root bases these commodities have. A significant 
amount of farmed areas in Madera County are entirely dependent on 
groundwater--to which is in a serious overdraft condition. It is 
estimated that by 2017, Madera County groundwater will be overdrafted 
by 200,000 acre feet (AF).\3\
---------------------------------------------------------------------------
    \3\ Madera Irrigation District.
---------------------------------------------------------------------------
    Agricultural conversion--land being taken out of production and 
dedicated toward residential or municipal purposes, has also not only 
slowed, but by 2013 had been reversed in Madera County. Land that was 
zoned for residential housing purposes in the Madera County General 
Plan has now been placed back into Agricultural Zoning.\4\
---------------------------------------------------------------------------
    \4\ Madera County General Plan Update 2013 pp. 89-145.
---------------------------------------------------------------------------
    This new water burden associated with these agricultural practices 
in creating the critical groundwater overdraft condition is called 
subsidence in the most extreme cases. In the case of Madera County, 
this phenomenon occurs when so much groundwater has been pumped out 
that the physical sea level of the land is dropped. The upper aquifers 
that wells typically rely on have been depleted and growers are 
therefore drilling deeper--sometimes as much as 500 feet, to locate 
water. At this level, there is significant disruption to the Corcoran 
Clay layer, ultimately causing the land to succumb to a vacuum-like 
activity. Last year, Madera County saw an average drop of over 1 foot 
in land levels--with subsidence occurring at a rate of 18" per year on 
the County's West side.\5\ It is important to note that typical 
groundwater aquifers are recharged once a significant rain event 
occurs, but subsided land does not. It can be compared to a plastic 
bottle literally being vacuumed sucked dry--but unable to be refilled.
---------------------------------------------------------------------------
    \5\ Central California Irrigation District [CCID] and San Joaquin 
Exchange Contractors, 2013 Merced and Madera Subsidence Study.
---------------------------------------------------------------------------
    Madera County is the top part of the Friant Water System, managed 
largely by the Madera Irrigation District [MID] and second to that the 
Chowchilla Irrigation District. The Friant Division is the central 
piece of the Central Valley Project plan and irrigates more than 1 
million acres on the valley's east side. Beginning at Millerton Lake 
and dammed by Friant Dam, water is diverted through the Friant-Kern 
Canals to southern counties including Fresno, Kings, and Kern. 
Diverting water west toward the dryer eastern Madera and Fresno areas 
is the Madera Cross Canal.\6\
---------------------------------------------------------------------------
    \6\ Friant Water Users Authority, Friant Division Facts 2014 
(online www.friantwater.org).
---------------------------------------------------------------------------
    The Central Valley Project [CVP], managed by the Bureau of 
Reclamation (Bureau), provided for the construction of Friant Dam in 
1944. This Project set up the current system of exchanged water 
deliveries between the Sacramento and the San Joaquin Rivers. The 
Friant system's current practices of classification deliveries were 
also born from the CVP, specifically Class 1 and Class 2 water. Under 
normal conditions, 840,000 AF of northern California water is delivered 
to the Mendota Pool via the Delta-Mendota Canal for use by west side 
agencies with historic San Joaquin water rights \7\--known as the 
exchange contractors. As a result, 800,000 AF of water may be diverted 
for the Friant water users on the eastern valley floor--which is 
classified as Class 1 water. An additional 140,000 AF of water is 
available for Friant contractors if and when it becomes evident that 
the needs of the Class 1 water will be met by that year's water supply. 
This 140,000 AF is designated as Class 2 water. This year, the Bureau 
of Reclamation has determined that the supply for Class 1 water is 
zero, and therefore, zero is also available for the Class 2 water 
users. This designation of zero is unprecedented and greatly impacts 
the future prosperity of not just Madera County agriculture, but the 
entire Central Valley. In addition, the Bureau's Operation and 
Maintenance costs have sky-rocketed to the local irrigation districts--
as there is less water moving through the system bringing the cost per 
AF to astronomically high levels.\8\ Even though the Friant users are 
receiving a zero allocation this year, they will be bearing a major 
portion of the O&M fees associated with the Central Valley Project in 
2015.
---------------------------------------------------------------------------
    \7\ See above.
    \8\ Madera Irrigation District 2014 O&M Charges and Fees Schedule.
---------------------------------------------------------------------------
    Madera County Farm Bureau's membership is largely composed from 
Class 2 water users to the Friant system--to a much lesser extent Class 
1. But it's a forgone conclusion at this point that most of our 
membership has been or is on the books to drill deeper wells in 
anticipation of this crisis. The waiting list for a well drill is over 
13 months from the time of booking, and can exceed costs of $1 million. 
This figure--although staggering, is a far cheaper investment than 
losing highly productive almonds or pistachio orchards.
    In addition to the raw economic affects this zero allocation of 
northern California/delta water brings to agricultural operators, the 
rural farming communities and labor services that go along with 
agriculture have been hit hard. Finishing the first quarter of 2014, 
due to lack of rain and available irrigation practices, nearly half of 
Madera County's temporary work force was left out of work or placed on 
temporary leave.\9\ With no weeds to spray and any trees or vines to 
prune, Madera County faced a staggering increase in unemployment--from 
11 percent on average to 26 percent.\10\ Madera County's rural 
communities of Firebaugh and Mendota are slated to run out of municipal 
water by July this year.
---------------------------------------------------------------------------
    \9\ Madera County Economic Employment Department, 1st Quarter 
Economic Outlook, pp. 13-18.
    \10\ See above.
---------------------------------------------------------------------------
    Since the effects of the zero allocation to the Friant system by 
the Bureau of Reclamation have such far reaching consequences, the 
Madera County Farm Bureau is concerned that a full accounting of water 
supplies by the Bureau has not been made available. Some water 
continues to be made available to small rural towns that rely solely on 
Friant water for municipal purposes, understandably by way of a reserve 
called ``Health and Safety Water,'' that was produced by shortening the 
restoration flows dedicated in the San Joaquin River Restoration 
Program.\11\ The MCFB was pleased that restoration activities were 
curbed in January 2014;\12\ however it is critical that the amount of 
water saved and the Bureau's dedication of its uses be published as 
soon as possible, least a request demanding such information from the 
Bureau and the Department of the Interior be necessary.
---------------------------------------------------------------------------
    \11\ Madera Irrigation District Friant System pp. 89, San Joaquin 
River Restoration Program, FEIR/EIS 2012 pp. 439.
    \12\ Bureau of Reclamation, SJRRP, Press Announcement (online at 
http://restoresjr.net/news/MP-14-012SJRRPCeaseFlows1MonthEarly.pdf).
---------------------------------------------------------------------------
    The aforementioned model of Friant water user classification and 
its efficacy had never been tested in a manner that actually involved a 
zero water allocation from the Bureau. It had however--been heavily 
theorized in a model developed by the Technical Advisory Committee 
[TAC] to the San Joaquin River Restoration Project [SJRRP], developed 
by way of the San Joaquin River Settlement Agreement (Settlement 
Agreement/SA). The MCFB maintains a seat on the Board of Directors at 
the Resource Management Coalition [RMC], to which public and non-public 
presentations are made by the Bureau of Reclamation on the status of 
the SJRRP to a collective group of San Joaquin River stakeholders, the 
Exchange Contractors, State Department of Water Resources, the U.S. 
Fish and Wildlife Service, the National Marine Fisheries Service, and 
multiple irrigation districts. Throughout last year, the Bureau 
suggested through multiple reports \13\ and letters from the State 
Water Resources Control Board [SWRCB] that a 0 percent allocation was 
impending based on hydrological models. The planning for this event is 
therefore derived to be a contingency of the SJRRP, and the MCFB is 
deeply affected by its implementation. To fully understand the nature 
of how the Settlement Agreement [SA] affects MCFB and its members, a 
summary of the settlements key provisions is necessary. The SJRRP is a 
direct result of a Settlement (known as the SA), reached in September 
2006 on an 18-year lawsuit to provide sufficient fish habitat in the 
San Joaquin River below Friant Dam near Fresno, California, by the U.S. 
Departments of the Interior and Commerce, the Natural Resources Defense 
Council [NRDC], and the Friant Water Users Authority [FWUA]. The 
settlement received Federal court approval in October 2006. Federal 
legislation was passed in March 2009 authorizing Federal agencies to 
implement the settlement.\14\ The settlement is based on two goals:
---------------------------------------------------------------------------
    \13\ Draft Channel Capacity Report for 2014, Bureau of Reclamation, 
presented at RMC Permits 11885, 11886, and 11887 and License 1986 of 
U.S. Bureau of Reclamation, Letter from SWRCB dated October 21, 2013.
    \14\ Bureau of Reclamation, SJRRP (online http://restoresjr.net/
background.html).

     Restoration: To restore and maintain fish populations in ``good 
            condition'' in the main stem of the San Joaquin River below 
            Friant Dam to the confluence of the Merced River, including 
            naturally reproducing and self-sustaining populations of 
---------------------------------------------------------------------------
            salmon and other fish.

     Water Management: To reduce or avoid adverse water supply impacts 
            to all of the Friant Division long-term contractors that 
            may result from the Interim Flows and Restoration Flows 
            provided for in the settlement.

    The MCFB and its members are greatly and frequently affected by the 
SA's water management strategies--which are directly influenced by the 
SA's restoration objectives. These two goals are often contradictory in 
nature and in a case like this year's extreme drought, have made the SA 
un-implementable by the State, the Federal Government, and those 
locally involved.
    By way of example, the SJRRP's efforts to build habitat required 
for the reintroduction of anadromous fish has stalled for multiple 
reasons--however the plan to support a small population of transplanted 
fish has moved forward--without any of the infrastructure required to 
keep the fish alive. This took a significant amount of water out of the 
system for the Class 1 and 2 Friant water users heading into a critical 
drought year. The information can be summarized by the Bureau's 
designated Restoration Administrator, Tom Johnson in the following 
manner:

        ``The winter of 2013-2014 is shaping up to be one of the driest 
        in California history . . . the opportunity to conserve 
        unreleased Restoration Flows to support the Restoration Program 
        in the future and improve water supplies in the region in this 
        incredibly dry year was a consideration . . . ultimately, it 
        was the . . . consensus that an early reduction of flows, while 
        not biologically beneficial in its own right, is biologically 
        reasonable . . . given the anticipated sufficient water 
        temperatures in critical areas of the river . . .''\15\
---------------------------------------------------------------------------
    \15\ San Joaquin Restoration Program, Restoration Administrator 
Flow Recommendation, January 31, 2014, ``Recommendations for 2014 
Restoration Flows.''

    The MCFB contends that this practice, although discussed and 
determined legally under the confines of the SA, is a horrendous 
practice--effectively placing a non-existent population of fish over a 
very real and present population of people and agricultural businesses. 
The amount of water that was dedicated to the 2014 Restoration Flows 
was over 250,000 AF.\16\ Although the MCFB appreciates that an overall 
``ramp down'' of restoration flows occurred, this amount of water being 
dedicated to something that the Bureau's own panel of experts and 
scientists has claimed is pointless is a massive waste of water and 
precious wealth for the Central Valley.
---------------------------------------------------------------------------
    \16\ See above.
---------------------------------------------------------------------------
    The MCFB would like to offer a set of solutions to this water 
crisis, immediate and long term. These solutions have been tailored to 
the jurisdiction of this committee, the House Natural Resources 
Committee--and should be viewed through its ability to enact change 
through its jurisdiction.
                    immediate water crisis solutions
I. Expedition of Water Deliveries by Maximization of Through Delta 
        Pumping
    The need for expedited water deliveries--specifically throughout 
the delta and Mendota Pool is extreme and can be performed in real 
time. Achieving maximum flexibility in delta export operations will be 
key in allowing the Bureau to meet Exchange Contractor substitute water 
supply operations, which is critical for Friant to be able to use 
whatever supplies may be generated (or stored) in the upper San Joaquin 
River watershed.
    Water deliveries are presently being hampered by an inadequate 
definition of what is considered a protected v. threatened species 
under the Endangered Species Act. This committee has the power to 
review and change this law to better define the nature of what an 
endangered species is AND the success criteria required for it to be 
delisted. This change, although controversial, may be considered to 
sunset by 2015, to at minimum allow some form of relief for farmers 
during this crisis.
    This action would also bring the Tracy Pumping Plants back online 
at a greater capacity, providing much needed relief for the 
recirculation efforts on the San Joaquin River.
    In addition to these immediate fixes, any and all water dedicated 
toward cold water promotion in attempts to minimize turbidity 
throughout the Central Valley Project must cease immediately. This is a 
wasteful practice in the delta, given the drastic need for all the 
water available to supply people and people's food supply.
II. San Joaquin River Restoration Plan Amendments (Pub. L. 111-11)
    The SJRRP provides for a dedicated ``cold water fishery'' on the 
San Joaquin River, based on historical hydrographic data and evidence 
of previous cold water activities nearly 100 years ago. It was this 
biome that the SJRRP seeks to reproduce in the present day environment 
in an attempt to bring back anadromous salmon numbers. However, there 
are numerous habitat necessities that will be required prior to 
implementing a cold water fishery--namely a high volume of water, side 
channel habitat construction and spawning gravel implementation, which 
at this time make this condition in the SJRRP unworkable.\17\ This 
committee has the jurisdiction to revisit Pub. L. 111-11, and develop a 
more logical timeframe for which to implement these restoration 
objectives--but moreover, to delay any activities associated with it 
implementation in the next year--based on the critical water year. The 
SJRRP's goal of implementing restoration should also be based on 
minimizing a waste of taxpayer dollars as well as facilitating water 
deliveries to the Friant system.
---------------------------------------------------------------------------
    \17\ SJ Settlement Agreement, Case 2:88-cv-01658-LKK-GGH Document 
1341-1 Filed 09/13/2006 Page 13 of 80.
---------------------------------------------------------------------------
    Again, this action can be considered to sunset by 2015, to at 
minimum allow some form of relief for farmers during this crisis.
                    long term water crisis solution
I. Investment in Water Storage Infrastructure
    One of the greatest and most imperative solutions for long term 
drought crisis aversion is the development of storage throughout 
California. For MCFB members--and for most within the Friant system, 
the development of a storage facility in the upper San Joaquin River 
Basin (Project) would provide massive amounts of direct relief for 5 
counties (Madera, Merced, Fresno, Kings, and Kern), more than 6 million 
acres of irrigable Ag land, and over 1 million people. This is a bold 
statement, but upon elaboration more can be derived from its roots.

    --Upper San Joaquin Storage Site has already been authorized by 
            Congress \18\
---------------------------------------------------------------------------
    \18\ Pub. L. 108-7, Division D, Title II, Section 215, Omnibus 
Appropriations Act 2/2003.
---------------------------------------------------------------------------
    --Project does not touch the delta or is hindered by through-delta 
            conveyance
    --Project is the strongest contender for a local cost share--not 
            also requiring/needing a State cost share component
    --Local irrigation districts will not or don't have to be required 
            to pay for project

    This storage site, colloquially known as Temperance Flat, 
regardless of the end use or ownership--is the only one in the cue that 
has the ability to bring water into the San Joaquin River system 
directly. This means that should the end purpose of the near 500,000 AF 
generated by the Project.
    The Bureau of Reclamation, in its January 2014 Feasibility 
Report,\19\ cited that the potential net effects of a storage project 
in the upper San Joaquin would, ``significantly contribute to the 
success of flow and therefore the success of a Chinook salmon 
population, known to be affected by water temperatures . . .'' The MCFB 
views this benefit--although not directly benefiting farmers, as an 
overall benefit of the project thus contributing to more water system 
wide.
---------------------------------------------------------------------------
    \19\ Draft, Upper San Joaquin River Basin Storage Investigation, 
Feasibility Report, January 2014.
---------------------------------------------------------------------------
    In summary, the drought crisis has been influencing catastrophic 
effects on members of the MCFB. We are estimating a total net loss of 
$65 million in crop damage, $455 million in our labor forces, and 
nearly $275 million lost due to water lost on the exchange market. We 
hope that this committee, through its jurisdiction can enact the 
immediate and long term solutions we've proposed.
    The Madera County Farm Bureau appreciates the opportunity to 
provide testimony today. We have included a letter from our neighboring 
Farm Bureau, Tulare, to be included as part of the record.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Coleman.
    Our next invited witness is the Honorable Felicia Marcus, 
who is the Chairwoman of the State Water Resources Control 
Board of California.
    Chair Marcus is not here, and I have to say, as the 
Chairman of the committee, I am really disappointed because we 
invited her probably a week-and-a-half ago to testify. 
Obviously, this is a very important issue, and it seems to me 
from my perspective that the Water Control Board, at least the 
Chair, ought to be here to testify. We are here to get 
information.
    So we invited her probably a week-and-a-half ago, and it 
was only yesterday that we got a letter saying that she was not 
going to show up. Now, I find it very ironic. On the front page 
of the paper this morning, the State Water Control Board was 45 
minutes away in Firebaugh, and yet the Chair of the Water 
Control Board couldn't show up today. So I am very, very 
disappointed that she is not here, and I just simply wanted to 
state that for the record.
    So next I want to recognize Mr. David Murillo, who is the 
Regional Director of the Mid-Pacific Region of the U.S. Bureau 
of Reclamation.
    Mr. Murillo, thank you for being here. You are recognized 
for 5 minutes.

  STATEMENT OF DAVID MURILLO, REGIONAL DIRECTOR, MID-PACIFIC 
 REGION, BUREAU OF RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Murillo. Thank you, Mr. Chairman. Chairman Hastings and 
members of the committee, I am David Murillo, Regional Director 
of the Mid-Pacific Region for the Bureau of Reclamation. I am 
pleased to be here today alongside our partners to describe the 
actions that are underway to address the drought in California. 
My full written statement has been submitted for the record.
    We are all aware of the severity of this drought, so I will 
skip straight to the discussion of what Reclamation is doing to 
help both at the operational level and within our budget.
    First, Reclamation and our stakeholders are implementing a 
demonstration project for managing Old and Middle River, or 
OMR, flows in the delta. Basically, the demonstration project 
will improve operational stability and result in more efficient 
CVP and State project operations. This demonstration project is 
being implemented in 2014 and will be reevaluated for 2015 
operations.
    Second, in January, Reclamation worked with DWR on a 
Temporary Urgency Change Petition that was submitted to the 
State Board on January 31. The petition requested a reduction 
in the delta outflows required by State Water Rights Decision 
1641, as well as other actions to maintain delta salinity 
requirements. The State Board issued an order in response to 
the petition, and we requested to extend the January order 
through the end of March.
    Third, as described in our 2014 CVP Water Plan, Reclamation 
proactively requested an early determination from NMFS of the 
San Joaquin River inflow-to-export ratio based on the January 
runoff forecast and the predicted continuing dry February 
forecast results based on the need to plan in advance and 
provide some certainty in operations to accommodate water 
transfers.
    And fourth, we have been working collectively with our 
contractors to develop environmental documents to support water 
transfers should conditions allow and sellers are willing to 
make water available. Just last week, we publicly released two 
transfer alternative documents. First transfer water from 
north-of-delta contractors to south-of-delta contractors; and 
two, transfers of non-project-based supplies from Sacramento 
River Settlement contractors to in-basin buyers north of the 
delta. Cumulatively, these alternatives could make 100,000 to 
200,000 acre feet of water available.
    As we move forward in this drought year, Reclamation, DWR, 
NMFS, the Fish and Wildlife Service, Department of Fish and 
Wildlife, Federal and State contractors, and the State Board 
are working to develop an operational plan for the remainder of 
the water year which will serve as a contingency plan under the 
NMFS BO. This plan outlines assumptions for all users in 
California water to plan for and implement drought response 
measures, as necessary.
    Turning from operations to the funding perspective, we have 
worked for years to maximize the budgetary resources available 
for water supplies in California. Every year for the past two 
decades, hundreds of millions of dollars in Federal resources 
have been provided annually in this State, much of it here in 
the Central Valley, to develop new water supplies, maximize 
conservation, improve existing infrastructure, and finalize 
innovative agreements among water users. As the other witnesses 
here can attest, local communities in California are on the 
forefront of water supply efficiency and modernization of their 
delivery systems. These are summarized in my written statement.
    Of course, there is always more to do. We remain committed 
to longer term solutions that will create a more sustainable 
future for the CVP. We are pressing forward on the feasibility 
studies for new and expanded reservoir storage in the Central 
Valley. We have completed four major reports on storage 
projects since July of last year. Specifically, we released a 
Draft Environmental Impact Statement for the Shasta 
investigation, and in December we released a draft appraisal 
report on the expansion of San Luis Reservoir, as well as a 
progress report for the north-of-delta off-stream storage. Then 
in February we released the Draft Feasibility Report for the 
Upper San Joaquin River Basin Storage Investigation. And we are 
planning to release the Draft Environmental Impact Statement 
for it this year. Last, we expect to complete the Final 
Feasibility Report and Final EIS for Shasta by the end of this 
year as well.
    In closing, I thank the committee for its attention to this 
issue, and for fair consideration of all that we are doing to 
operate the State and Federal projects in compliance with the 
law. Reclamation values its working relationship with all the 
parties represented here today. I would be glad to answer any 
questions at the appropriate time. Thank you.
    [Applause.]
    [The prepared statement of Mr. Murillo follows:]
  Prepared Statement of David Murillo, Regional Director, Mid-Pacific 
     Region, Bureau of Reclamation, U.S. Department of the Interior
    Chairman Hastings and members of the committee, I am David Murillo, 
Regional Director of the Mid-Pacific Region for the Bureau of 
Reclamation (Reclamation). I am pleased to represent the Department of 
the Interior (Department) today, alongside our partners including the 
State of California and the water community, to describe the actions 
that are underway to address the drought in California.
    As the committee is acutely aware, California is experiencing its 
most severe drought in recent history. We are now more than two-thirds 
of the way through the rainy season and many areas of the State are 60 
to 75 percent below average annual precipitation totals for this date. 
It would take more than \1/2\ inch of rain from Redding to Fresno every 
other day until May to get back to average precipitation, and even with 
such precipitation, California would remain in drought conditions due 
to low water supplies in reservoirs from the two previous dry years. 
Despite recent storms, our very low reservoir and snowpack levels 
dictate that we must plan ahead and conserve more water. Reclamation, 
the State, and our Federal partners have not been standing still 
waiting for this drought to develop. State and Federal water managers 
are working hand in glove in a delicate balancing act to optimize water 
allocations, both short-term and long-term. For my testimony, I would 
like to summarize some of our actions at the operational-level aimed at 
reducing the impacts and optimizing the use of existing water supplies 
this year, and then I will move on to some of the funding issues 
relevant to this discussion.
    First, Reclamation and multiple stakeholders developed and are now 
implementing a demonstration project for managing Old and Middle River 
[OMR] flows in the delta. The demonstration project will use a ``flow 
index'' that can be calculated in real-time to make decisions instead 
of tidally filtered gauge data that can take days for determining OMR 
flow requirements associated with the U.S. Fish and Wildlife Service 
[USFWS] and National Marine Fisheries Service [NMFS] Biological 
Opinions [BOs]. Implementing the OMR Index Demonstration Project will 
improve operational stability and simplify accounting for the many 
factors affecting OMR flow, and result in simplified and more 
predictable Central Valley Project [CVP] and State Water Project [SWP] 
operations. This demonstration project is being implemented in 2014 and 
will be reevaluated for 2015 operations.
    Second, in January, Reclamation worked with the California 
Department of Water Resources [DWR] to develop a Temporary Urgency 
Change Petition that was submitted to the State Water Resources Control 
Board (State Board) on January 31, 2014. The Temporary Urgency Change 
Petition requested a reduction in the delta outflows required by State 
water rights Decision 1641, as well as other actions to maintain delta 
salinity requirements. The State Board issued an Order in response to 
the petition on January 31, 2014. In late February, Reclamation and DWR 
requested the State Board to extend the January Order through the end 
of March. The State Board granted this extension on February 28, 2014. 
As part of the Temporary Urgency Change Petition and Order, Reclamation 
is providing support to USFWS and the California Department of Fish and 
Wildlife [DFW] to perform additional delta smelt and salmon monitoring. 
This monitoring is providing additional information and will provide 
information more quickly on fish movement and presence to inform 
operations under the Temporary Urgency Change Petition and Order. 
Reclamation and DWR will continue to monitor hydrologic conditions to 
determine whether additional drought response actions should be 
requested from the State Water Board. Also, Reclamation is actively 
monitoring the State Board's flow and salinity standards on the San 
Joaquin River at Vernalis. If necessary, Reclamation and DWR may be 
requesting a relaxation of Vernalis salinity standards to conserve 
water in storage that can be used later to ensure our ability to keep 
control over delta salinity over the long term, should the drought 
continue.
    Third, as was detailed in our 2014 CVP Water Plan, Reclamation has 
taken a number of steps to facilitate water transfers. Reclamation 
requested an early determination from NMFS of the San Joaquin River 
inflow to export (I:E) ratio requirement based on the January runoff 
forecast and the predicted continuing dry February forecast results. To 
allow water users to plan in advance and to provide some certainty in 
operations to accommodate water transfers, on February 7, NMFS agreed 
to establish an I:E ratio of 1:1 for April-May, 2014 earlier in the 
year than they normally would so that we could plan for less 
restrictive CVP and SWP exports. Also consistent with the 2014 Water 
Plan, Reclamation has been working collaboratively with its contractors 
to develop environmental documents to support water transfers, should 
conditions allow. During the Week of March 10, we publically released 
two transfer alternatives: (1) transfer of water from north of the 
delta contractors to south of the delta contractors; and (2) transfer 
of non-project base supplies from Sacramento River Settlement 
Contractors to in-basin buyers north of the delta. Cumulatively, these 
alternatives could make 100,000 to 200,000 acre-feet of water available 
to those most in need. In addition, Reclamation has been working 
closely with the DWR and the State Board to facilitate water transfers.
    As we move forward in this drought year, Reclamation, DWR, NMFS, 
USFWS, DFW, Federal and State contractors, and the State Board are 
working to develop an operations plan for the remainder of the water 
year, which will serve as a contingency plan under the drought 
exception procedures in the NMFS BO. This plan will outline operations 
and assumptions (allocation, refuges, barriers, cold water pool, water 
quality, fisheries, and the possibility of entering into another 
drought year in 2015) to allow all agencies and users of California 
water to plan for and implement drought responses measures as 
necessary.
    Through these and other actions, Reclamation is working closely, on 
a day-to-day basis, to coordinate and communicate proactively with the 
State of California and within the Federal family. High level 
leadership calls are being held weekly to identify issues before they 
become problems, and to find solutions to provide water for our 
customers and protect irreplaceable natural resources.
    In November 2013, the administration launched the National Drought 
Resilience Partnership [NDRP] to help communities better prepare for 
droughts and to reduce impacts on families and businesses. The NDRP is 
coordinating Federal efforts across the country and working closely 
with State and local governments and other partners to improve 
community preparedness and resilience to drought. With the severe 
drought in California, the NDRP is also playing a critical role in 
response, helping to connect communities to the Federal assistance they 
need.
    Turning from operations to funding, we have worked for years to 
maximize the resources available for water supplies in California. 
Every year for the past two decades, hundreds of millions of dollars in 
Federal resources have been provided annually in this State, much of it 
here in the Central Valley, to develop new water supplies, maximize 
conservation, improve existing infrastructure and finalize innovative 
agreements among water users. As the other witnesses here can attest, 
many local communities in California are on the forefront of water 
supply efficiency and modernization of their delivery systems. The 
President's visit to the Central Valley last month, as well as the 
Secretary Jewell's visit last week, made clear that the administration 
understands the seriousness of the situation here. Two weeks before the 
President's visit, our previous Commissioner, Mike Connor, came to 
Sacramento to announce a 2014 funding opportunity of up to $14 million 
in Federal assistance for irrigation districts, water districts, tribes 
and other water or power entities to cost share on projects that create 
new supplies for irrigation and improve water management. This 
opportunity is part of a partnership between Reclamation and the 
Natural Resources Conservation Service [NRCS], whereby NRCS will 
provide funding and technical assistance for on-farm projects such as 
tail water recovery systems, conversion to sprinkler or drip systems, 
and micro-irrigation investments. Reclamation and NRCS will each 
provide up to $7 million for this effort. The deadline for submitting 
proposals is Monday, March 24 at noon, and we anticipate project 
selections will be announced by late May or early June.
    These efforts are not new in the Mid-Pacific Region. Since 2009, 
Reclamation has provided over $42 million in financial assistance to 
water purveyors in the Region for agricultural and urban water use 
efficiency improvement/management projects. Through various programs 
such as CALFED, Bay-Delta Restoration Program (NRCS Partnership), 
WaterSMART, and the Water Conservation Field Services Program, combined 
with recipient cost share, over $138 million has been invested in water 
efficiency improvement projects over the last 4 years. Collectively 
these projects conserve approximately 274,000 acre-feet of water 
annually and have been proven as one of the most cost effective ways to 
increase the available supply of water in California, and elsewhere. 
Through the title XVI water reuse program alone, municipalities 
throughout California are now making use of approximately 350,000 acre-
feet of recycled water annually, reducing reliance on the over-
allocated Bay-Delta and Colorado River systems.
    Reclamation recognizes the need to fund projects that address water 
supply sustainability and stretch limited water supplies. This is made 
all the more relevant when you consider that the hundreds of thousands 
of acre-feet of CVP water that was rescheduled from 2013 into 2014 is 
proving crucial to providing water supplies this year. For some 
districts, this water is their only source for 2014 supplies. A 
significant amount of this rescheduled water would not have been 
available without the conservation investments made with our partners 
in years past under these programs.
    In addition, the projects that were funded in 2009-2011 by the 
American Recovery and Reinvestment Act under the authority of the 
Reclamation States Drought Relief Act of 1991 have now been 
implemented. Reclamation provided $40 million in funding in the 
Sacramento and San Joaquin Valley for well rehabilitation, new wells, 
and temporary pumps and pipes. This new infrastructure is providing a 
water supply to areas that previously did not have access to a supply 
and is assisting growers to be more resilient to drought.
    It has been 2 years since Reclamation and the San Luis and Delta-
Mendota Canal Authority completed construction of a 500-foot connection 
between the State and Federal projects just west of Tracy. The Delta-
Mendota Canal/California Aqueduct Intertie addresses conveyance 
conditions that had restricted use of the Jones Pumping Plant to less 
than its design capacity, potentially restoring 35,000 acre-feet of 
average annual deliveries to the CVP. The Intertie provides redundancy 
to portions of the State and Federal water distribution system, allows 
for maintenance and repair activities that are less disruptive to water 
deliveries, and provides the flexibility to respond to CVP and SWP 
emergencies. In the first 18 months of operation, nearly 73,000 acre-
feet of additional CVP water was pumped through the Intertie. It was a 
successful project, and is illustrative of the working relationship we 
have with the State and our water contractor community.
    Of course, there is always more to do. We know there will be more 
tough choices to maintain basic supplies if a fourth straight dry year 
materializes. Various Federal and State agencies are assessing the 
amount of ``carry-over'' supplies that must be retained in our 
reservoirs to maintain salinity control in the delta to ensure that it 
can continue to be used as a water supply source and to provide for 
health and safety purposes in case of a fourth straight dry season, and 
this possibility will inform our thinking for the rest of 2014.
    Although we are focused on near-term actions to address the 
drought, we also remain committed to finding longer term solutions that 
will create a more sustainable future for the CVP. We continue to press 
forward on the feasibility studies that examine the potential for new 
and expanded reservoir storage in the Central Valley. Of note, we have 
completed four major reports on storage projects since July last year. 
Specifically, in July we released the Draft Environmental Impact 
Statement for the Shasta Lake Water Resources Investigation, and in 
December we released a Draft Appraisal Report on the expansion of San 
Luis Reservoir, as well as a progress report for the North-of-Delta 
Offstream Storage Investigation. Then in February we released the Draft 
Feasibility Report for the Upper San Joaquin River Basin Storage 
Investigation. In addition, Reclamation is planning to release the 
Draft Environmental Impact Statement for the Upper San Joaquin 
Investigation and complete the Final Feasibility Report and Final 
Environmental Impact Statement for the Shasta Lake Water Resources 
Investigation by the end of this year. Reclamation, through the San 
Joaquin River Restoration Program, is also supporting the development 
of groundwater recharge projects in support of the water management 
goals of the Program.
    Finally, I would note that for the long-term, the administration 
remains committed to working closely with the State of California to 
achieve the co-equal goals of (1) improving California's water supply 
reliability; and (2) protecting, conserving, and restoring the bay-
delta environment. In addition to the water management measures 
discussed above, we continue to work in close partnership with the 
State in developing the Bay-Delta Conservation Plan.
    In closing, I thank the committee for its attention to this issue, 
and for fair consideration of all we are doing to operate the State and 
Federal projects in compliance with the law for the benefit of all 
Californians and the environment. Reclamation values its working 
relationship with all the parties represented here today. I would be 
glad to answer questions at the appropriate time.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    Our next witness is Ms. Janelle Beland, who is the 
Undersecretary of the California Natural Resources Agency in 
Sacramento.
    For the record, our invitation was to Mr. John Laird, who 
is the Secretary. He couldn't make it, and he was gracious 
enough to send his Undersecretary, and we thank you very much 
for being here.
    I just wish the same courtesy could have been given to us 
from the State Water Resources Control Board.
    Ms. Beland, you are recognized for 5 minutes.

STATEMENT OF JANELLE BELAND, UNDERSECRETARY, CALIFORNIA NATURAL 
             RESOURCES AGENCY, STATE OF CALIFORNIA

    Ms. Beland. Good morning, Mr. Chairman and members of the 
committee. I am Janelle Beland, Undersecretary for Natural 
Resources for the State of California. The State appreciates 
the invitation to appear before this committee today and offer 
testimony on our response to the current drought.
    With California now in our 3rd dry year of weather and 
shrinking reservoir supplies, we are reminded once again that 
nothing focuses California's attention on our limited water 
resources like drought. California is experiencing a severe 
drought of uncertain duration. On the heels of two previous dry 
years, storage in the State's major reservoirs and the water 
content of the Sierra snowpack remain well below average for 
the date.
    Recent storms have not ended the drought, and the window 
for California to gain significant precipitation is closing. 
The latest National Weather Service data continue to show 
nearly the entire State in severe drought and nearly two-thirds 
in extreme drought.
    Federal, State, and local water projects that rely on 
snowpack in the Cascades and the Sierra, the source of nearly 
one-third of California's developed water supply, will be 
operating under unprecedented dry conditions this summer, and 
we will be challenged to manage our system to conserve vital 
reservoir storage.
    Typically, the Sierra Nevada snowpack melts in the spring 
and summer. It collects in reservoirs to provide about one-
third of the water Californians use each year. Some communities 
are running low on drinking water. Many of California's rivers 
and streams are also running very low, and farmers who rely on 
surface water for irrigation are faced with difficult decisions 
to plant crops amidst great uncertainty about whether State and 
Federal water infrastructure will be able to deliver the water 
needed to supplement local supplies to grow their crops.
    Everyone who relies in whole or in part on project water--
farmers, fish, people in cities and towns--will get less water 
this year. Simply put, there is not enough water to go around, 
so we need to conserve and make some strategic decisions now, 
planning for the worst if we do not get much more precipitation 
in the next few weeks.
    One of the most important lessons learned from our previous 
record dry years, such as 1976 and 1977, is that delay only 
makes the effects of the drought worse. Just like the Governor 
has asked all Californians to conserve water around their 
homes, we are taking the same actions for the State on a much 
larger scale.
    On January 17, Governor Brown issued an emergency 
Proclamation of Drought. That proclamation ordered that our 
Department of Water Resources work constructively with fellow 
State and Federal agencies to take proactive steps now to 
preserve our ability to manage water supplies across a broad 
array of needs should this drought worsen. The Governor's 
proclamation is the fourth action taken by a Governor since 
1987 to deal with drought on a statewide basis.
    The California Department of Water Resources runs the State 
Water Project. With Lake Oroville and the California Aqueduct 
that winds across two-thirds of the State, the State Water 
Project delivers water pumped from the delta to 25 million 
Californians and 750,000 acres of farmland.
    One primary concern from the State's perspective has been 
to ensure that enough water can be directed to communities for 
basic needs such as drinking water and water for sanitation and 
fire-fighting. While some communities have adequate water 
supplies saved locally for such purposes, other communities 
need continued exports from the delta for these essential 
purposes.
    Another primary concern is the need to prevent salt water 
intrusion into the interior delta, where a large portion of the 
State's fresh water supplies are conveyed for human and 
agricultural use. A certain amount of outflow must continue 
throughout dry months to push back salt water from the interior 
delta. If there is not enough water to maintain this balance 
throughout the year, fresh water sources traveling through the 
interior delta will become contaminated. This is a very real 
concern this year.
    In recognition of both of these concerns, on January 29 the 
Department of Water Resources and the Bureau of Reclamation 
asked the State Water Board to adjust water rights permit and 
license terms that normally control State Water Project and 
Federal Central Valley Project operations. DWR and the Bureau 
sought this temporary urgency change in order to preserve 
dwindling supplies in upstream reservoirs for farms, fisheries, 
and cities and towns as this drought continues.
    The relief sought in the petition would also provide 
additional time to assess how much water the projects would 
need for salinity control and basic needs such as drinking 
water and sanitation throughout this year.
    This temporary urgency change did the following: it allowed 
a reduced delta outflow so that the State and Federal projects 
could conserve their dwindling supplies in reservoirs for later 
in the year; it allowed for the operation of the Delta Cross 
Channel gates in real time so less flow would be needed to 
repel salinity; and it established a real-time drought 
operations management team. Without these changes, various 
regulations would require us to release water in our reservoirs 
now. The amount usually required to be released from reservoirs 
this time of the year was set assuming a dry year, but not a 
drought of this magnitude.
    The Chairman. Could I ask you to summarize your final part?
    Ms. Beland. Sure.
    The Chairman. Your full statement will appear in the 
record.
    Ms. Beland. Yes, I get it.
    I guess on that, I will just wait for questions. Thank you 
very much.
    [The prepared statement of Ms. Beland follows:]
   Prepared Statement of Janelle Beland, Undersecretary, California 
             Natural Resources Agency, State of California
                                overview
    Good morning Mr. Chairman and members of the committee. I am 
Janelle Beland, Undersecretary of the California Natural Resources 
Agency. The State of California appreciates the invitation to appear 
before your field hearing today to offer testimony on our response to 
the ongoing drought crisis.
    California is experiencing a severe drought. On the heels of 2 
previous dry years, all of the State's major reservoirs remain well 
below average storage for the date. Statewide, the water content of the 
Sierra snowpack also is well below average for the date. Recent storms 
have not ended the drought, and the window for California to gain 
significant precipitation is closing. The latest National Weather 
Service data continue to show nearly the entire State in severe drought 
and nearly two-thirds in extreme drought.
    Although long-range forecasts suggest a shift to weak El Ninno 
conditions in the coming months, this does not mean that the drought in 
California will be over next winter. State and Federal water project 
operators and environmental and water quality regulators are working 
together in real time to exercise as much flexibility as possible under 
regulatory standards to allow for the capture and storage of water from 
the Sacramento-San Joaquin Delta (Delta). Every effort has been made to 
maximize the amount of water the projects could export during the 
storms in February and March, with the realization that this may be the 
last opportunity to capture and store unregulated flow during this 
winter season.
    These efforts are being closely coordinated with State and Federal 
fishery agencies and the State Water Resources Control Board (State 
Board), which is exercising flexibility allowed under the law. This 
real-time water management will continue to adjust operations in 
response to changing conditions.
    In the coming weeks, in order to help preserve water supplies in 
upstream reservoirs and limit salinity encroachment in channels of the 
Delta, the California Department of Water Resources [DWR] is developing 
plans to install temporary emergency rock barriers across three Delta 
channels. DWR is working with Federal and State wildlife agencies and 
the U.S. Army Corps of Engineers to gain permits for installation of 
these emergency barriers, which would be removed in the fall. Similar 
emergency barriers were last installed in the drought year of 1977, and 
the barriers worked as intended to help control salinity.
                    overview of statewide conditions
    As previously mentioned, despite several consecutive days of rain 
across California this month, we are significantly behind average 
precipitation conditions for this time of year.
    The statewide snowpack shows 29 percent of average snow water 
content for the date, slightly less than last week's measurement. The 
snowpack water content is currently at 19 percent in the northern 
Sierra, 35 percent in the central Sierra, and 33 percent in the 
southern Sierra.
    Typically, the Sierra Nevada snowpack melts in the spring and 
summer. It collects in reservoirs to provide about one-third of the 
water Californians use each year.
    Major reservoir storage rose slightly over the last couple of weeks 
but is still significantly below average. Shasta stands at 58 percent 
of typical storage for this time of year. Oroville storage is 62 
percent of average and Folsom Lake is at 67 percent of average storage 
for this time of year.
    Federal, State, and local water projects that rely on snowpack in 
the Cascades and the Sierra--the source of most of California's 
developed water supply--will be operating under unprecedented dry 
conditions this summer, and will be challenged to manage their systems 
to conserve vital reservoir storage.
    The very low reservoir and snowpack levels dictate that we must be 
prudent with our minimal water supplies, and that requires additional 
flexibility to operate the State and Federal water projects. In this 
extraordinarily dry year, all water users, including agricultural, 
municipal, and fish and wildlife uses, will be impacted.
    To maximize flexibility, the project operators, DWR and the U.S. 
Bureau of Reclamation (Bureau) have coordinated closely to exercise 
maximum flexibility and allow the water projects to conserve and store 
water as they continue to assess the water needs for later in the year 
and into 2015. The California Department of Fish and Wildlife [DFW] and 
the National Marine Fisheries Service [NMFS] have coordinated closely 
with these agencies, and have worked to ensure that water management 
decisions do minimal harm to endangered and protected species.
    One primary concern has been to ensure that enough water can be 
directed to communities for human health and safety purposes, which 
includes basic needs such as drinking water and water for sanitation 
and firefighting. While some communities have adequate water supplies 
saved locally for such purposes, other communities need continued 
exports from the Delta for these essential purposes. It should be noted 
that the agencies' intent has been to ensure enough water in 
communities for these essential purposes, but not to deliver exports 
for all normal usage (such as exterior landscape irrigation).
    Another primary concern is being able to prevent saltwater 
intrusion into the interior Delta where a large portion of the State's 
freshwater supplies are conveyed for human and agricultural use. A 
certain amount of flow must continue throughout dry months to push back 
saltwater from the interior Delta. If there is not enough water to 
maintain this flow throughout the year, we will lose control over 
salinity in the Delta and fresh water sources traveling through the 
interior Delta will become contaminated. This severely compromises the 
water projects' ability to deliver water for basic public health and 
safety or irrigation uses. This is a very real concern this year.
    January is typically the wettest month in California, but January 
2014 proved an extraordinary anomaly. Scant rain or snow fell across 
the State for the entire month. It was the driest month on record for 
most places in the State, and it followed two previous dry years.
    On January 29, 2014, DWR and the Bureau asked the State Board to 
adjust water rights permit and license terms that normally control 
State Water Project and Federal Central Valley Project operations. DWR 
and the Bureau sought this ``temporary urgency change'' in order to 
preserve dwindling supplies in upstream reservoirs for farms, 
fisheries, and cities and towns as the drought continues. The relief 
sought in the petition would also provide additional time to assess how 
much water the projects would need for salinity control and essential 
public health and safety needs throughout the year as mentioned above.
    This temporary urgency change order (order) did the following:

    <bullet> Allowed a reduced Delta outflow so that the State and 
            Federal water projects could conserve their dwindling 
            supplies in reservoirs for later in the year;
    <bullet> Allowed for the operation of the Delta Cross Channel gates 
            in real time so less flow would be needed to repel 
            salinity;
    <bullet> Established a Real Time Drought Operations Management 
            Team.

    DWR and the Bureau are now in the process of quantifying those 
public health and safety needs and defining precisely how any water set 
aside for public health and safety purposes may be used. The definition 
will not include deliveries to farms for irrigation or homeowners for 
lawn-watering.
    On January 31, the State Board's Executive Director also advised 
that ``junior priority'' water-right holders may be ordered to curtail 
their diversions from the Sacramento and San Joaquin river systems. 
These curtailments would be structured to occur in a manner that 
respects water rights, with senior water right holders being the last 
to have their water restricted, as required under State law. 
Curtailments will be based on river gauges on each watercourse, and 
have not yet occurred.
    Also, on January 31, DWR announced that its customers--29 public 
water agencies serving cities and farms--should expect no deliveries in 
2014 if significant precipitation did not occur in the next few months. 
These customers could expect delivery only of ``carryover'' supplies 
that they had not used in 2013. The zero allocation is the first-ever 
for all customers in the State Water Project's 54-year history.
    The announcement does not mean that anyone's tap will run dry, but 
it will trigger difficult decisions for many farmers, and it 
underscores the need for aggressive conservation by all Californians.
    Also on January 31, DWR notified long-time water rights holders in 
the Sacramento Valley that their deliveries from the State Water 
Project may be cut 50 percent, the maximum cut permitted under 
contract, depending upon the results of future snow surveys. All of 
these settlement contractors are agricultural irrigation districts.
    On February 7, the order was amended to include the flexibility 
needed after recent storms, when natural flows are high enough, so that 
the limits on Delta exports would not be in effect and normal 
conditions would apply.
    Two separate, moderate storm systems moved across California in 
February. Water project operators worked with the State and Federal 
wildlife agencies to maximize regulatory flexibility so that as much 
storm runoff as possible could be captured and stored in San Luis 
Reservoir, south of the Sacramento-San Joaquin Delta, with minimal harm 
to Delta water quality and threatened and endangered Delta species. 
February 2014 proved wetter than January, but not enough to end the 
drought or avoid a high-stakes balancing act in water project 
operations.
    Around February 9, Delta outflow started spiking after the first 
significant rain event to hit this winter. From February 10 to February 
11, the State and Federal water projects increased their pumping from 
the Delta to about 6,000 cfs, maintaining that level until February 18.
    During the month of February, the State and Federal projects 
received additional flexibility in the amount they could export from 
the Delta, via the coordination established under the Real-Time Drought 
Operations Management Team process for operating Delta facilities 
established by the January order. Additionally, Federal and State fish 
and wildlife agencies have made similar adjustments to export 
limitations based on their authorities and permits.
    As a result, additional water was pumped from the Delta in February 
and March due to regulatory flexibility granted the projects by Federal 
and State fishery agencies. The rest of the water was pumped from the 
Delta under compliance with existing regulations that did not require 
use of the ``temporary urgency change'' or the easing of any standards 
designed to protect water quality and fish species.
    Here is a more detailed analysis of Delta water project operations 
from February to today:
    From Feb. 1 through Feb. 9, record-dry conditions in northern 
California kept Delta outflow (the volume of water flowing out of the 
Delta into San Francisco Bay) at roughly 7,000 cubic feet per second 
[cfs]. The combined export of the State Water Project and Central 
Valley Project (the amount of water diverted from the Delta into 
storage at San Luis Reservoir) was held at slightly under 1,000 cfs due 
to degraded water quality conditions in the Delta.
    Around Feb. 9, Delta outflow started spiking after the first 
significant rain event to hit this winter. In addition, the Delta Cross 
Channel Gates were opened as part of the ``temporary urgency change'' 
order granted by the State Board. That order allowed for modified 
implementation of the requirements in D-1641, a water rights decision 
of the State Board that sets salinity and other water quality 
objectives for the Delta and Bay.
    With Delta water quality improving, from Feb. 10 to Feb. 11, the 
combined water project exports ramped up to about 6,000 cfs and stayed 
there until Feb. 18.
    By Feb. 18, Delta outflow had dropped to 8,000 cfs as the storm 
runoff dwindled.
    Exports ramped down and reached the minimum health and safety level 
of 1,500 cfs by Feb. 23. Exports stayed at that minimum health and 
safety level until March 2. By March 2, with the return of significant 
rain, Delta outflow jumped to 26,000 cfs. Exports increased gradually 
from March 2 through March 4 to reach 6,000 cfs, then climbed over the 
next several days to reach 6,800 cfs.
    Beginning on March 11, Delta outflow dropped to 11,000 cfs, then 
rose again to just under 17,000 cfs. Delta outflows are now headed back 
down to levels below 10,000 cfs by the middle of next week.
    Combined water project exports have remained at just under 7,000 
cfs and were scheduled to remain at that level through last weekend. 
The upper levels of exports were constrained by a multitude of existing 
regulations established to protect Delta fisheries including 
requirements of D-1641 and Federal rules to protect Delta smelt and 
chinook salmon, which are listed under the U.S. Endangered Species Act 
[ESA] and the California Endangered Species Act [CESA].
    Operators of the State Water Project and Central Valley Project, 
together with representatives of the Federal and State fishery agencies 
and the State Board, are working collaboratively to find flexibility in 
the implementation of these regulations. They seek to maximize exports 
to the extent possible under the law, with the realization that the 
last set of storms may be the last opportunity to capture and store 
unregulated flow during this winter season.
    In a normal year, the State and Federal water projects would be 
required to keep Delta outflow at 11,000 cfs during March, primarily to 
protect habitat for fish and wildlife. In particular, these flow 
requirements are elevated during this time of year because of the 
migratory life cycle of salmon. Increased flows help them move through 
the Delta ecosystem. This means that under a normal year's rules, 
11,000 cfs is required to flow out of the Delta and through the San 
Francisco Bay. However, amid drought conditions and the need to 
conserve and export precious water, flexibility for this requirement 
was explored and the State and Federal fisheries agencies have advised 
that reducing the flow below 11,000 cfs will not unreasonably affect 
fish and wildlife.
    The upper levels of exports are constrained by regulations to 
protect Delta fisheries and Federal rules to protect delta smelt and 
chinook salmon, which are listed under the ESA and CESA. Operators of 
the Federal and State projects are working collaboratively with the 
Federal and State fish agencies and the State Board to maximize 
flexibility in the implementation of these regulations.
    During the coming weeks and months, the project operators will work 
in close coordination with the State and Federal fish agencies to 
ensure that the system stays within current requirements for fish. And 
they will closely monitor fish species affected by project operations 
to assess whether further protections are warranted.
    DWR and the Bureau are gathering data and looking at how much water 
will be needed through the dry months and possibly into next year to 
maintain salinity control in the Delta, meet minimal public health and 
safety needs, and abide legal requirements to protect threatened and 
endangered fish. This review should clarify the water needed for these 
purposes for the rest of the year and possibly into next year if we 
experience a 4th dry year.
    At that time, the State and Federal water projects will be able to 
update their allocation projections to their water contractors, based 
on the prudent assessment of water in the system for carryover storage 
needs for the coming dry months.
                          recent state actions
    State and Federal water management agencies continue to work 
together to allow exports of additional water from the Delta based on 
storms in the last 6 weeks. Recent precipitation has provided a window 
of opportunity to capture additional water for storage both north and 
south of the Delta, and both the State and Federal water projects have 
increased pumping for a limited time to capture as much water as 
possible under current regulatory standards.
    Last week, DFW and the State Board announced that they will 
expedite approval of storage tanks built by rural residents for 
domestic water use. These storage tanks help protect drinking water 
supplies and increase fire safety by giving rural residents a water 
supply that they can manage on their own property.
    This week the State Board approved reduced cost financing for 
recycled water projects to speed the construction of such projects. 
They are also working to expedite approval of such projects.
    DFW, USFWS, and NMFS last week released a contingency plan for the 
release of small fish raised in Federal and State hatcheries. Due to 
the drought, new measures will be taken to release the hatchlings in 
portions of the Delta that allow for their migration to the ocean while 
enabling their eventual return to lay eggs and continue their life 
cycle.
    The Governor's Office and State agencies have launched 
drought.ca.gov, which will provide a central location for drought 
information. Agencies will continue their own drought Web pages, and 
drought.ca.gov will include a listing of these Web pages.
    The Governor's Office of Planning and Research has posted online 
its drought toolkit for local governments, which outline actions that 
communities can take to respond to the drought.
    This week on March 21, the Governor's tribal advisor will hold a 
statewide consultation call with tribal leaders to continue discussions 
on drought response with Interagency Drought Task Force officials.
    The Department of General Services held a water conservation 
training last week for facility managers from State and local 
governments, as well as school districts across the State, to provide 
information and support to their water use reduction efforts. Over 300 
managers from across the State participated.
    The Governor's Office of Emergency Services continues to gather 
drought-related costs from State agencies and local governments, which 
is reported weekly to the Drought Task Force. The task force continues 
to meet daily to take actions that conserve water and coordinate State 
response to the drought.
    On March 3, Governor Brown signed a $687.4 million drought relief 
plan (SB 103 and SB 104). Highlights of the package include:

    <bullet> Accelerated grant expenditures of $549 million under 
            Proposition 1E and Proposition 84 in the form of 
            infrastructure grants for local and regional projects that 
            are already planned or partially completed to increase 
            local reliability, including recapturing of storm water, 
            expanding the use and distribution of recycled water, 
            enhancing the management and recharging of groundwater 
            storage and strengthening water conservation.
    <bullet> Thirty million dollars from the Greenhouse Gas Reduction 
            Fund to DWR for direct expenditures and grants to state and 
            local agencies to improve water use efficiency, save 
            energy, and reduce greenhouse gas emissions from state and 
            local water transportation and management systems.
    <bullet> Fourteen million dollars for groundwater management across 
            the State, including assistance to disadvantaged 
            communities with groundwater contamination exacerbated by 
            drought.
    <bullet> Fifteen million dollars from the State general fund to 
            address emergency water shortages due to drought.
    <bullet> Thirteen million dollars from the general fund to augment 
            the State and local conservation corps to expand water use 
            efficiency and conservation activities and to reduce fuel 
            loads to prevent catastrophic wildfires.
    <bullet> Twenty-five point three million dollars from the general 
            fund to be deployed to maximize the potential Federal 
            drought assistance for providing food to those impacted by 
            the drought.
    <bullet> Twenty-one million dollars from the general fund for 
            housing-related assistance for those impacted by the 
            drought.
    <bullet> One million dollars to continue the Save Our Water public 
            education campaign.

    On February 21, DWR sent letters to counties and well-drilling 
contractors asking for timely submission of well completion forms. This 
information will help DWR track increased use of groundwater and new 
well installation activities.
    DWR and the Bureau continue to monitor water quality in the 
western, central, and southern Sacramento-San Joaquin Delta. The cross-
channel gates along the Sacramento River near Walnut Grove were closed 
due to fishery concerns.
    On February 12, DWR and the Bureau filed a petition with the State 
Board seeking authority to exchange water within the areas served by 
the Federal Central Valley Project and the State Water Project and vice 
versa.
    On February 10, DWR announced the award of $153 million to help 
fund 138 separate water projects around the State, 35 of which will 
help communities cope with drought in the long-term.
    DWR is working with the Bureau and the State Board to ensure an 
efficient process to transfer water between voluntary buyers and 
sellers. However, given the uncertainty of water supplies, few 
proposals for voluntary sales may be submitted.
    On January 17, Governor Brown proclaimed a state of emergency and 
directed State officials to take all necessary actions to prepare for 
drought conditions. The Governor asked all Californians to reduce water 
consumption by 20 percent and referred residents and water agencies to 
the Save Our Water campaign for practical advice on how to do so. The 
Governor also directed State agencies to use less water and to hire 
more firefighters.
    Key measures in the proclamation included:

    1.  Directing local water suppliers to immediately implement local 
            water shortage contingency plans;
    2.  Ordering the State Water Resources Control Board to consider 
            petitions for consolidation of places of use for the State 
            Water Project and Central Valley Project, which could 
            streamline water transfers and exchanges between water 
            users;
    3.  Directing DWR and the State board to accelerate funding for 
            projects that could break ground this year and enhance 
            water supplies;
    4.  Ordering the State water board to put water rights holders 
            across the State on notice that they may be directed to 
            cease or reduce water diversions based on water shortages;
    5.  Asking the water board to consider modifying water quality 
            control plan rules that require the release of water from 
            reservoirs so that water may be conserved in reservoirs to 
            protect cold water supplies for salmon and maintain water 
            supplies;
    6.  And directing the State Department of Public Health to provide 
            technical and financial assistance to communities at risk 
            of running out of drinking water.

    The Governor's proclamation is the fourth action taken by a 
Governor since 1987 to deal with drought on a statewide basis.
    The Governor, through the emergency proclamation, directed his 
interagency drought task force to devise a plan to provide emergency 
food supplies, financial assistance, and unemployment services to 
communities hard-hit by drought-induced job losses.
                      agriculture-specific actions
    State officials are working closely with Federal agencies to 
provide assistance to farmers, ranchers and farmworkers in the most 
impacted communities. The California Department of Food and Agriculture 
has launched a one-stop Web site that provides updates on the drought 
and connects farmers to helpful State and Federal programs they can 
access during the drought. Farmers, ranchers and farmworkers can learn 
more at: cdfa.ca.gov/drought/.

    <bullet> The site features links to crop insurance programs, crop 
            disaster assistance, emergency farm loans and Federal water 
            conservation program assistance.
    <bullet> Governor Brown's partnership with the Obama administration 
            on behalf of California has already led to millions of 
            dollars in potential assistance for farmers and ranchers. 
            Those opportunities are chronicled on the Web page.

    The White House on Friday, February 14, 2014, announced emergency 
funding from several Federal programs to support drought response. This 
announcement was coordinated with President Obama's visit to Fresno 
County.
    Emergency assistance includes:

    <bullet> One hundred million dollars in expedited livestock 
            disaster assistance to California farmers and ranchers. 
            This funding, contained in the 2014 Farm bill, will be made 
            available through the USDA in 60 days. Funding assistance 
            can cover financial losses by California producers in 2012, 
            2013 and 2014.
    <bullet> Sixty million dollars for California food banks to help 
            families affected by the drought. Funding will be provided 
            by the USDA's Emergency Food Assistance Program.
    <bullet> Five million dollars of funding for conservation projects 
            at California farms and ranches, provided by USDA's 
            Environmental Quality Incentives Program.
    <bullet> Five million dollars for emergency watershed improvements 
            to enable activities such as stabilizing stream banks and 
            replanting bare lands. Funds will come through the USDA's 
            Emergency Watershed Protection Programs.
    <bullet> Three million dollars for emergency grants to rural 
            communities facing drinking water shortages. Funds come 
            through USDA's Emergency Community Water Assistance 
            program.
    <bullet> Summer food programs: The USDA committed to expanding the 
            number of Summer Food Service Program meal sites to 600 
            locations in drought stricken areas throughout the State.
                           long-term actions
    There is broad agreement that the State's water management system 
is currently unable to satisfactorily meet both ecological and human 
needs, too exposed to wet and dry climate cycles and natural disasters, 
and inadequate to handle the additional pressures of future population 
growth and climate change. Solutions are complex and expensive, and 
they require the cooperation and sustained commitment of all 
Californians working together. To be sustainable, solutions must strike 
a balance between the need to provide for public health and safety 
(e.g., safe drinking water, clean rivers and beaches, flood 
protection), protect the environment, and support a stable California 
economy.
    As we work on emergency actions to manage through this crisis, we 
are also taking proactive, long-term steps to prepare California for 
future droughts and flood. Our long term approach to preparing 
California's water future is captured in the California Water Action 
Plan which was released in January of this year. This plan will guide 
California's efforts to enhance water supply reliability, restore 
damaged and destroyed ecosystems, and improve the resilience of our 
infrastructure. We are working daily to balance needs and interests 
throughout the State on the overall long term sustainability of our 
water resources. This is not just about the current problem of this 
serious drought.
    The California Water Action Plan has been developed to meet three 
broad objectives: more reliable water supplies, the restoration of 
important species and habitat, and a more resilient, sustainably 
managed water resources system that can better withstand inevitable and 
unforeseen pressures in the coming decades. Altogether, this plan 
centers on sustaining supplies of water for people, the environment, 
industry and agriculture.
    This action plan lays out our challenges, our goals and decisive 
actions needed now to put California's water resources on a safer, more 
sustainable path. While this plan commits the State to moving forward, 
it also serves to recognize that State government cannot do this alone. 
Collaboration between Federal, State, local and tribal governments, in 
coordination with our partners in a wide range of industry, government 
and nongovernmental organizations is not only important--it is 
essential.
    The Water Action Plan, over the next 5 years, will guide State 
efforts to enhance water supply reliability, restore damaged and 
destroyed ecosystems, and improve the resilience of our infrastructure.
    With this plan, we recognize that water recycling, expanded water 
storage and groundwater management must all be part of the solution. We 
must also make investments in safe drinking water, restore wetlands and 
watersheds and make further progress on the Bay Delta Conservation 
Plan. All of these things are critical to the long-term solution.
    Ten key actions identified:

    <bullet> Make conservation a California way of life.
    <bullet> Increase regional self-reliance and integrated water 
            management across all levels of government.
    <bullet> Achieve the co-equal goals for the Delta.
    <bullet> Protect and restore important ecosystems.
    <bullet> Manage and prepare for dry periods.
    <bullet> Expand water storage capacity and improve groundwater 
            management.
    <bullet> Provide safe water for all communities.
    <bullet> Increase flood protection.
    <bullet> Increase operational and regulatory efficiency.
    <bullet> Identify sustainable and integrated financing 
            opportunities.

    There are many important components imbedded under each of these 10 
actions. For the committee's benefit, let me highlight just two of 
these that go to the heart of this hearing's topic of addressing long-
term solutions.
    The Delta is California's major collection point for water, serving 
two-thirds of our State's population and providing irrigation water for 
millions of acres of farmland. We know too well the challenges of 
moving water through the Delta's fragile levee system with declining 
fish populations and historic restrictions on water deliveries. But, 
the status quo in the Delta is unacceptable and it would be 
irresponsible to wait for further degradation or a natural disaster 
before taking action.
    While we are working to implement the Delta Plan, one component 
remains to be completed: The Bay-Delta Conservation Plan [BDCP]. State 
and Federal agencies will complete planning for this comprehensive 
conservation strategy aimed at protecting dozens of species of fish and 
wildlife in the Delta, while permitting the reliable operation of 
California's two biggest water delivery projects.
    The BDCP will help secure California's water supply by building new 
water delivery infrastructure and operating the system to improve the 
ecological health of the Delta. It will also restore or protect 
approximately 145,000 acres of habitat to address the Delta's 
environmental challenges. The BDCP is made up of specific actions, 
called conservation measures, to improve the Delta ecosystem. It 
includes 22 conservation measures aimed at improving water operations, 
protecting water supplies and water quality, and restoring the Delta 
ecosystem within a stable regulatory framework. The project will be 
guided by 214 specific biological goals and objectives, improved 
science, and an adaptive management approach for operating the water 
conveyance facilities and implementing other conservation measures 
including habitat restoration and programs to address other stressors. 
As the Delta ecosystem improves in response to the implementation of 
the conservation measures, water operations will become more reliable, 
offering secure water supplies for 25 million Californians, an 
agricultural industry that feeds millions, and a thriving economy.
    State and Federal agencies will complete the State and Federal 
environmental review documents; seek approval of the BDCP by the State 
and Federal fishery agencies; secure all permits required to implement 
the BDCP; finalize a financing plan; complete the design of BDCP 
facilities; and begin implementation of all conservation measures and 
mitigation measures, including construction of water conveyance 
improvements. Once the BDCP is permitted, it will become part of the 
Delta Plan.
    We agree that we need to expand our State's storage capacity, 
whether surface or groundwater, whether big or small. We need more 
storage to deal with the effects of drought and climate change on water 
supplies for both human and ecosystem needs. Climate change will bring 
more frequent drought conditions and could reduce by half our largest 
natural storage system--the Sierra snowpack--as more precipitation 
falls as rain rather than snow, and as snow melts earlier and more 
rapidly. Moreover, we must better manage our groundwater basins to 
reverse alarming declines in groundwater levels. Continued declines in 
groundwater levels could lead to irreversible land subsidence, poor 
water quality, reduced surface flows, ecosystem impacts, and the 
permanent loss of capacity to store water as groundwater.
    Among other actions to expand water storage, our plan supports 
funding partnerships for storage projects. The Brown administration 
will work with the Legislature to make funding available to share in 
the cost of storage projects if funding partners step forward. The 
State will facilitate among willing local partners and stakeholders the 
development of financeable, multi-benefit storage projects, including 
working with local partners to complete feasibility studies. For 
example, the Sites Project Joint Powers Agreement, formed by a group of 
local government entities in the Sacramento Valley, is a potential 
emerging partnership that can help Federal and State government 
determine the viability of a proposed off stream storage project--Sites 
Reservoir.
    Over the next 5 years, this Water Action Plan will help us advance 
sustainable water management by providing a more reliable water supply 
for our farms and communities, restoring important wildlife habitat and 
species, and helping the State's water systems and environment become 
more resilient.
                   bay delta conservation plan [bdcp]
    The Draft Bay Delta Conservation Plan [BDCP] and associated EIR/EIS 
is now available for public review and comment. Lead State and Federal 
agencies recently extended the public comment period for the EIR/EIS by 
60 days. The review period now totals 180 days stretching from December 
13, 2013 to June 13, 2014. This extension will allow the public more 
time to review and comment on the public draft documents. The 180-day 
comment period is 4 times that of the required 45 days in order to 
ensure the public has plenty of time to review the draft documents. 
This extension is not anticipated to cause significant delays in the 
project, although it will likely extend the anticipated release date 
for the Final Draft BDCP and EIR/EIS. The public review draft documents 
are available online and electronically at libraries throughout the 
State serving as document repositories. DVD copies are also available 
on request.
    As of February 12, DWR completed 12 public open house meetings 
throughout the State on the public review draft plan and associated 
EIR/EIS. More than 800 participants attended statewide. The meetings in 
Sacramento, Clarksburg and Stockton had the highest attendance, with 
Sacramento topping the list at 165 participants. A broad range of 
engaged stakeholder groups attended every meeting, including 
environmental, industry, business, water, and labor groups. Feedback 
has been that participants appreciated the format, and the ability to 
have one-on-one conversations with technical staff involved in the 
development of the project.
    Our goal is to allow as many people as possible to provide 
comments, all of which will be carefully considered and will ultimately 
help shape the development of the final project.
    If there's one thing these last 2 to 3 years demonstrate is that we 
need conveyance in place that can move water during wet years in a way 
that's safer for fish. Doing that allows us to lay-off in the dry 
years. We can't manage very easily through droughts without it. In the 
long-term, California must continue to focus on actions to modernize 
our water delivery system by completing the environmental planning 
process for the BDCP.
    With the conveyance proposed in the Bay Delta Conservation Plan in 
place, the Central Valley this year would have an extra 800,000 acre-
feet of water in the San Luis Reservoir. This effort to restore the 
Sacramento-San Joaquin Delta ecosystem and greatly enhance the water 
system's reliability is the best investment we can make right now in 
our water future.
    In closing, it is important to note that California water policy 
moves in fits and starts tied to floods and droughts. When the rain and 
snow falls steadily and predictably, Californians tend to assume it 
will always be so. It's human nature.
    We intend to take advantage of the public's hyper-focus on water 
issues this year to advance improvements to our water system.
    East coast newspaper reporters lately have looked at our muddy 
reservoirs and declared that California has finally overreached and hit 
a wall.
    We know better. We know it's because of our reservoirs--as well as 
our investments in water conservation, recycling, drip irrigation, 
groundwater recharge, and a host of other smart water management 
techniques--that we've been able to build a nearly $2 trillion economy 
in a State with hydrology that is as varied--both temporally and 
geographically--as California.
    We are the most populous State, with the richest farm economy, and 
the most diverse natural heritage in the Nation. Our water system gets 
us through all but the most extreme, outlier years like this one 
without much sacrifice. We will cope, invest, and thrive.
    On behalf of my colleagues at the State level, and our partners at 
the Federal level, I would like to thank you for holding this important 
hearing and providing this opportunity to provide testimony. Thank you 
for your attention to these issues.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    Next I will recognize Mr. Steve Knell, P.E., the General 
Manager of the Oakdale Irrigation District.
    Mr. Knell, you are recognized for 5 minutes.

   STATEMENT OF STEVE KNELL, P.E., GENERAL MANAGER, OAKDALE 
            IRRIGATION DISTRICT, OAKDALE, CALIFORNIA

    Mr. Knell. Thank you, Mr. Chairman, committee members, for 
taking the time to come to California to hear the concerns and 
issues surrounding what is now the State's 3rd year of a 
drought. My presentation will cover the drought impact----
    The Chairman. Move the microphone closer to you, if you 
would.
    Mr. Knell. Is this better?
    The Chairman. That is much better. Thank you.
    Mr. Knell. Thank you. My presentation will cover the 
drought's current impacts on the Oakdale Irrigation District 
and offer a suggested action that should be considered to 
address both the immediate and long-term needs of water supply 
and reliability in our State.
    Compared to many districts, OID has been less affected by 
this 3rd year of drought. I know now today we are the ant, as 
spoken about earlier. We have prepared for this event by 
investing significant amounts of time and resources into making 
our district better.
    Since 2006, we have put in $50 million of modernization 
technologies into our district to advance our district so that 
we are better delivering water to farms. When we deliver water 
better to farms, farmers can better manage their water on the 
farm, making for a rollup of greater efficiencies within 
irrigation districts. These technologies are funded solely by 
water transfers of our conserved water to agricultural and 
municipal water districts in the State.
    While OID is not immune to the effects of this 3rd year of 
drought, the options gained through these investments soften 
those impacts.
    As a State, California has been less successful at 
developing a drought plan. We choose to spend efforts on the 
Lower San Joaquin River Restoration Program to achieve 500 
returning spring-run salmon. We have gravitated to choosing to 
build bullet trains over water storage or water conveyance. The 
State believes it can restore a delta to its once pristine 
condition simply by taking 35 percent of the unimpaired runoff 
from our watersheds and sending it out to the ocean. We have 
taken 10,000 acres of the most productive farmland in the world 
out of production at a time when a significant portion of 
Americans still go to bed hungry. The failure to prioritize, 
plan, and invest leaves California ill-prepared and ill-
equipped to address the human and financial consequences 
brought on by this drought.
    Water managers in California support increased storage. 
Currently, 47 percent of the State's available water is 
dedicated to environmental purposes. Agriculture takes 42 
percent, and the urban part of the equation gets 11. More 
storage makes no sense if that 47 percent share of 
environmental water escalates under the vision of the State's 
Water Resources Control Board. Storage only makes sense if you 
have water to put in storage.
    New Melones is a large federally owned storage reservoir on 
the Stanislaus River. It has the capacity to hold 2.4 million 
acre feet, while the annual yield of the basin is 1.1 million 
acre feet, a very smartly built dam. Unfortunately, the ability 
of the United States Bureau of Reclamation to store water in 
New Melones is restricted by a Biological Opinion which over-
commits the reservoir's water to downstream uses, leaving New 
Melones with underutilized storage each and every year.
    OID and our sister districts, South San Joaquin Irrigation 
District, divert water from the Stanislaus River but do not 
have the right to store water in New Melones without Federal 
permission under a Warren Act contract. Over the past several 
dry years, the need to utilize storage in New Melones has 
become increasingly evident. In 2010, OID and SSJID nearly lost 
the ability to move 80,000 acre feet to the San Luis Delta-
Mendota Water Authority. There was difficulty in matching up 
the timing of water availability to pump access at the Federal 
pumps in the delta. Through extraordinary cooperation, the 
water eventually moved.
    In 2012, that ability was not there, and that water did not 
move to the west side. If storage in New Melones had been 
available, we could have changed that.
    Our initial review indicates somewhere between 20,000 and 
40,000 acre feet could be put into storage annually behind New 
Melones. The cost to raise Shasta Lake to get 20,000 to 72,000 
acre feet is $280 million to $360 million. The cost to raise 
the San Luis Reservoir is $360 million to gain 130,000 acre 
feet. To store 20,000 to 40,000 acre feet annually in New 
Melones would not cost a dollar. In fact, the Federal Treasury 
could actually gain $1 million a year in storage fees. Imagine 
that.
    Access to storage in New Melones provides multiple 
benefits, as is provided in my written testimony, chief of 
which is the reliability to meet exporter needs in water years 
in which storage over-availability is a priority. Congressman 
Denham introduced H.R. 2554 to address the issue of New Melones 
storage. This bill was approved by the House and included in a 
final compromise bill that was sent to the Senate. We hope that 
the Senate will act expeditiously in the passage of this 
legislation.
    And I wish to thank the committee for hearing the views of 
the Oakdale Irrigation District.
    [Applause.]
    [The prepared statement of Mr. Knell follows:]
   Prepared Statement of Steve Knell, P.E., General Manager, Oakdale 
                Irrigation District, Oakdale, California
                            opening remarks
    I would like to thank the Natural Resources Chairman and committee 
members for taking the time to come to California and hear the concerns 
and issues surrounding what now is California's 3rd year of drought.
    My presentation will cover the drought's current impacts on the 
Oakdale Irrigation District [OID] and offer a suggested action that 
should be considered to address both the immediate and long-term needs 
of water supply and water reliability.
                         impacts of the drought
    Compared to many districts, OID has been less affected by this 3rd 
year of drought. OID's preparedness is a result of the investment of 
incredible time and resources preparing for this event. OID has 
planned, financed and implemented modernization technologies that have 
allowed itself to be more efficient at delivering water to its farmers. 
The benefits from that effort and the investments made are visible in 
times of drought. While OID is not immune to the effects of this third 
year of drought, the options gained through its investments soften 
those impacts. OID began its modernization and infrastructure 
replacement program in 2006; its projected costs were $168 million back 
then. OID has spent $50 million to date and still has a way to go. That 
planning vision began back in 2003 when the OID Board of Directors 
voted for OID to embark upon this course.
    As a State, California has been less successful at developing a 
focused plan and investing time and resources to achieve drought 
preparedness. We are choosing to spend billions of dollars on the lower 
San Joaquin River Restoration Program to achieve 500 returning Spring 
Run Salmon, when communities in our valley do not have safe, affordable 
and reliable drinking water. We have gravitated to choosing to build 
bullet trains over water storage or water conveyance facilities. The 
State of California believes we can ``restore a delta'' to its once-
pristine condition simply by taking 35 percent of the unimpaired runoff 
from our watersheds and sending it out to the ocean. We have taken tens 
of thousands of acres of the most productive farmland in the world out 
of production when 25 percent of the American population goes to bed 
hungry every night. The failure to prioritize, invest and plan leaves 
California ill prepared and ill equipped to address the human and 
financial consequences brought on by this third year of drought.
                   immediate and long term solutions
More Reservoir Storage
    Water managers in California support increased storage; whether for 
urban or agricultural use. However, water storage projects require 
significant investment, planning, and long-term reliability. Storage 
projects are useless if the State of California, through the State 
Water Resources Control Board, is focused upon taking more water out of 
existing storage and sending it to the ocean.
    Currently, 47 percent of the State's available water is dedicated 
to environmental purposes, Agriculture takes 42 percent and the urban 
part of the equation gets 11 percent. More storage makes no sense if 
that 47 percent share of environmental water escalates, as is the 
current vision of California's Department of Water Resources.
    While agriculture has made great strides in conservation, like OID, 
we can do more if there is an incentive to build and pay for projects 
to conserve water. In OID's situation, the ability to pay for more 
expensive conservation is diminished because OID has limited ability to 
store and use conserved water. Storage only makes sense if you can put 
water into storage.
Maximizing the Use of Existing Storage
    New Melones is a large federally owned storage reservoir on the 
Stanislaus River. It has the capacity to hold 2.4 million acre feet, 
while the annual yield of the Stanislaus River basin is 1.1 million 
acre feet. The ability of the U.S. Bureau of Reclamation to store water 
in New Melones is restricted by a Biological Opinion [BO]. That BO 
calls for such large in-stream flow releases annually, that over time 
the resource becomes over-committed. Due, in part, to the BO 
requirements, New Melones has a significant amount of storage capacity 
that is not used each and every year.
    OID and SSJID divert water from the Stanislaus River, but do not 
have a right to store water in New Melones without Federal permission 
through a Warren Act Contract. OID and SSJID have smaller storage 
facilities upstream of New Melones. Despite OID's limited ability to 
store water, it has invested in water use efficiency. In 2001, it took 
OID 255,000 acre feet to meet its crop water demands on-farm. Twelve 
years later and $50 million in conservation investments, it now takes 
OID 235,000 acre feet to do the same job. OID markets the surplus water 
generated from its conservation efforts to finance and fund its 
modernization programs.
    Over the past several years, the need to utilize storage in New 
Melones has become increasingly evident. For example, in 2010, OID and 
SSJID agreed to transfer water to the San Luis Delta-Mendota Water 
Authority [SLDMWA]. Pumping restrictions and project operations almost 
defeated this transfer because it was difficult to match up the timing 
of water availability and the ability to pump. If storage in New 
Melones had been available, that difficulty could have been avoided. 
The same was true in 2012 when OID and SSJID discussed moving 
supplemental supplies to SLDMWA, only to be told there was no capacity 
at the pumps. Since there was no capacity, and the Districts could not 
store the water in New Melones, this transfer did not occur. A lost 
opportunity in a dry year.
    OID and SSJID have analyzed the historic hydrology of the 
Stanislaus River basin and the current operations under the BO, and 
have found time periods of up to 35 years in length where additional 
water could have been put into New Melones without spill. As part of 
its planning efforts, OID has looked at storing its conserved water, 
coordinated river releases to meet regional regulatory obligations on 
the Merced, Tuolumne, and Stanislaus Rivers, and water exchanges with 
MID/TID as mechanisms available to generate water for storage. Our 
initial review indicates somewhere between 20,000-40,000 acre feet 
could be put into storage annually. The costs to raise Shasta Lake and 
get 20,000-72,000 acre feet of water is $280-$360 million. The costs to 
raise the San Luis Reservoir is $360 million for 130,000 acre feet of 
water. To store 20,000-40,000 acre feet annually in New Melones would 
cost $0. In fact, the Federal Treasury would receive up to $1,000,000 
in Warren Act contract payments.

    Access to storage in New Melones provides multiple benefits;

    1.  Increased stored water without any additional capital costs, 
            construction, or major environmental permitting.

    2.  More storage under a Warren Act Contract means more revenue to 
            the Federal Government via storage fees. OID has even 
            offered to pay the Federal Government in ``water'' as 
            opposed to ``money'' to benefit their purposes.

    3.  OID's water transfers and the release of that water could be 
            coordinated on a fish-friendly flow schedule that benefit 
            the environment.

    4.  Storage in New Melones would afford OID and SSJID the ability 
            to move water when needed, as needed on an annual basis to 
            better meet the needs of all exporters, both on the Federal 
            and State Water Project, when pump capacities are an issue.

    5.  Storage in New Melones would afford greater reliability to 
            those same exporters as a carryover option in water years 
            that storage over availability is a priority.

    6.  Storage in New Melones could be enhanced by inter-basin, 
            eastside transfers and exchanges.
                               conclusion
    Congressman Denham introduced H.R. 2554 to address the issue of New 
Melones storage. This bill was approved by the House and included in a 
final compromise bill that was sent to the Senate. We ask that the 
Senate act expeditiously in the passage of this legislation.
    I wish to thank the committee again for their time and for 
listening to the views of the Oakdale Irrigation District.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Knell.
    And last, and certainly not least, we have Mr. Kole Upton 
from Chowchilla, California.
    Mr. Upton, you are recognized for 5 minutes.

        STATEMENT OF KOLE UPTON, CHOWCHILLA, CALIFORNIA

    Mr. Upton. Thank you, Mr. Chairman and the committee. I am 
a family farmer. I live on my farm in Merced County. I farm 
with my brother and two sons. The farm was started in 1946 when 
my dad returned from 3 years in Europe in World War II. I 
started farming in 1971 after I spent 6 years in the Air Force.
    We get our water from the underground aquifer, but also 
from Friant Dam and an auxiliary dam in Buchanan Dam. We are 
facing the same situation that the valley faced in the 1920s 
and the 1930s, and that was when the underground aquifer was 
being depleted, and that is why the government decided to build 
Friant Dam, so they could bring surface water into the Friant 
service area, which is about a million acres on the east side. 
And the people that came out and developed this land were 
people from the Depression and World War II, and the government 
passed the reclamation law, which gave people an opportunity to 
build farms, support their families and build these wonderful 
communities we have all the way from Merced to Bakersfield.
    But this whole system, this whole society is under attack 
now, and it is in jeopardy because of the environmental laws 
that we have, and we shouldn't be blaming the judges because 
more than one judge has said, hey, don't blame me; if you want 
to change, then change the law so they can interpret it and so 
the agencies can interpret them with common sense.
    The first item I want to talk about is the San Joaquin 
River Settlement. I was involved in that. I was one of the 
negotiators, and the goals were laudable. Senator Feinstein and 
Congressman Radanovich asked NRDC and Friant to try to come to 
two goals. Number-one goal was to try to get a self-sustaining 
salmon fishery back on the San Joaquin River. The number-two 
and co-equal goal was for the farmers and the east side 
communities to get their water back. Those were the rules.
    So we did that. It was signed on September 13, 2006. In 
addition, Senator Feinstein made us all sign a blood oath that 
we would, in good faith and integrity, try to achieve both 
those goals. Well, shortly thereafter and before it was signed 
in 2008 by President Obama, NRDC and the other environmental 
organizations started chipping away by getting themselves 
involved in court cases and agencies' decisions and that kind 
of thing.
    The bottom line was that first they were able to 
successfully kick out a lot of water that was going to the west 
side. But in addition, they knocked out our ability to 
recirculate our water under the water management goal. The key 
to that was taking the water down to the southern Friant 
districts. Well, we couldn't do that anymore because of these 
environmental actions, and yet we can't get anybody from the 
Senate or anybody else to hold NRDC accountable to this. The 
lady that is not here today, she actually came from NRDC 3 or 4 
years ago, so I am not expecting a whole lot of help from her 
in this situation. So we are going to need--we need help from 
the Congress to change some of these laws.
    In addition to not getting the water management goal done, 
the fish are not going to make it on the San Joaquin. NRDC's 
own data shows that it is going to be too hot because of 
climate warming, whatever you want to call it. It is not going 
to work, so they can't have it both ways.
    And the last thing which I think Mr. Murillo has told me 
before, they are short of money. They don't have enough money 
to finish this thing. So they are releasing water down the 
river when it is available for 10 projects, and none have been 
done, and the money is not available to finish it.
    In addition, the third part of this agreement was no harm, 
no foul to third parties. Well, I can tell you that some of the 
third parties along the San Joaquin River where they release 
these restoration flows, farmers have water coming up in the 
root zones of the permanent crops, and they are hurting them.
    So this thing is a disaster. It needs to be changed. Your 
bill addresses this.
    The other thing is this groundwater subsidence that is 
occurring because we are using so much underground. You have to 
love the environmentalists. Now they are saying, we have to 
come in here and we have to fix this groundwater problem, these 
darn farmers are pumping too much from the underground. What do 
they expect? They have taken all our surface water. What the 
hell are we going to do. That is the only choice we have, all 
right, is the underground.
    [Applause.]
    Mr. Upton. OK. We need three things from you folks. Number 
one is we need environmental accountability. Right now, the 
urban user, the business user, the farm user, we are all 
required to conserve and be accountable. Hey, that is good. I 
understand that. Environmental releases, there is no 
accountability. There is no accountability. Millions of acre 
feet have gone out, and the purpose for which it was intended 
has not helped anybody. So we need that to have the same 
accountability. If it is not working for the fish or whatever, 
then bring it back to the people that are already using it and 
leave it there.
    The second thing is we need to re-do the River Settlement.
    The third thing we need is Temperance Flat. There is no sin 
in investing in a dam for the future food supply of the people 
of the United States. You have to have a storage so we can do 
water banking. People say water banking is the answer. It is 
one of the answers, but you have to have two things. There is 
too much water coming down the river for it to be able to 
percolate in a water bank.
    I will close now by saying that if we don't do this, then 
we are going to have to fallow hundreds of thousands of acres, 
like Congressman Nunes said. And I have to tell you, I think we 
have an obligation to people that live here, that have taken 
the sacrifice of our forefathers in building this area and 
changing it from a desert into a garden, to fight for what they 
thought was right. I spent 6 years in the military. My dad 
spent 3 years in the military. I have to tell you, I feel like 
my own farm, my own family is under an attack by my own 
government.
    [Applause.]
    Mr. Upton. Last, I would say the message I would have is I 
commend you folks, but I would give a message to the Senate: 
the time for talk is over. It is time for them to do something.
    [Applause.]
    [The prepared statement of Mr. Upton follows:]
        Prepared Statement of Kole Upton, Chowchilla, California
    Mr. Chairman and members of the committee, it is an honor and 
privilege to appear before the House Committee on Natural Resources. I 
appreciate the opportunity to testify concerning the subject of the 
hearing: ``California Water Crisis and Its Impacts: The Need for 
Immediate and Long-Term Solutions''.
    We are family farmers who live on our farm. It was started when our 
father returned from World War II. With my brother and sons, I grow 
pistachios, almonds, wheat, corn, barley, oats, and occasionally pima 
cotton. As most framers in the Friant service area, we are in a 
conjunctive water use area. Our water comes from both surface water 
supplies and the underground aquifer.
    I am appearing as an individual at this hearing and not as a 
representative of any of the water or agricultural organizations of 
which I am board member.
                              the problem
    This latest drought has magnified and exposed the water crisis 
being inflicted on the east side of the San Joaquin Valley. The 
availability of adequate and affordable surface water is essential to 
the future of this valley. It was the depletion of the underground 
aquifers in the 1920s and 1930s that led to the building of Friant Dam.
    Remarkably, we are facing the same scenario now. However, it is not 
because of the lack of surface water, it is due to the surface water 
being ``reallocated'' because of the San Joaquin River Settlement and 
the enacting legislation. Surface water that should have been used in 
lieu of underground water and used to replenish the underground 
aquifers has instead been redirected to flow to the ocean. Had the 
redirection of this immense amount of surface water resulted in some 
magnificent environmental achievement or the saving of some species, 
then perhaps it might have been worth it.
    However, the reallocation from east side users has not resulted in 
any environmental improvements. The San Joaquin Restoration water 
releases have been totally wasted because none of the projects to get 
the River ready for salmon have been completed. With no other options, 
farmers have turned to the underground aquifers to sustain their crops. 
Now, we are in crisis with the underground being depleted at an 
unsustainable rate.
    The proposed solution by the environmental community and its allies 
in the government is to demand regulation of underground pumping. They 
allege farmers are acting irresponsibly by depleting the underground, 
and are trying to use this ruse as a reason to further hamstring and 
control water usage by farmers.
                    the san joaquin river settlement
    To understand this situation, we must first review the San Joaquin 
River Settlement. The concept of settlement was advanced by Senator 
Feinstein and Congressman Radanovich. There were two co-equal goals: 1. 
Attempt to revive a self-sustaining salmon fishery on the main stem of 
the San Joaquin River (Restoration Goal); and 2. Mitigate the water 
losses of the folks that have depended on this surface water for 
decades (Water Management Goal).
    The Settlement was signed on Sept. 13, 2006, and Senator Feinstein 
required all parties to sign a ``blood oath'' promising to abide by its 
terms, conditions, and goals. The key to the Water Management Goal was 
the ability to recirculate the restoration water back to the southern 
Friant districts once it reached the delta. However, the Natural 
Resources Defense Council [NRDC] the primary environmental plaintiff in 
the Settlement and the negotiations aggressively continued to 
participate and inject itself into critical litigation and regulatory 
matters after the signing of the Settlement with a view of doing damage 
to delta conveyance and thus to recirculation efforts.
    The bottom line is that the water losses cannot be mitigated and 
the co-equal Water Management Goal is a sham.
    In addition, the goal of a self-sustaining salmon fishery is also 
not achievable. First the funding has dried up, and none of the 
projects required to get the river ready for salmon have been 
completed. Nevertheless, the environmentalists and some government 
officials continue to demand that hundreds of thousand of acre-feet be 
released to the ocean anyway. Also, the environmentalists own data 
shows that the water temperatures caused by global warming will be too 
hot for salmon to survive.
    Finally, the promise of no harmful impacts to third parties as a 
result of actions involving the Settlement has also been broken. An 
example is the farmers along the San Joaquin River who have had their 
permanent crops damaged by water seeping up in to the root zone because 
of restoration flows.
                         the immediate solution
    For the first time in many years, there is proposed legislation in 
both the House and the Senate to address the water situation in 
California. For the east side of the San Joaquin Valley, it is 
imperative that the revision of the San Joaquin River Settlement be 
``on the table'' and part of the legislation. The revision is simple. 
Change the River Restoration goal from a self-sustaining salmon fishery 
to an extension of the current 40 mile, robust fishery that currently 
exists below Friant Dam. This concept will provide us with a live 
fishery 360 days/year and allow achievement of the Water management 
Goal.
    In addition, it will save billions of dollars. Some of these 
savings could be used to enhance the salmon fisheries currently in 
existence that are in the cooler climates required for salmon 
viability. Harmful Third party impacts will also be eliminated. The 
result would be a live river, more total salmon, and the return of the 
availability of hundreds of thousands of acre-feet of surface water 
that is essential to the east side.
                          long term solutions
    There are several long term solutions required for this area to be 
able to maintain its ability to feed the Nation and the world. They 
are:

    1.  An appropriate revision of the Endangered Species Act [ESA] 
            that allows for the worthwhile goals of the act to be 
            achieved without decimating areas like the San Joaquin 
            Valley, and the food supply of the United States. 
            Concurrent with that legislation, a proposed law requiring 
            environmental water releases be held to the same standards 
            for efficiency and accountability as required of urban and 
            agricultural uses. Water is a public resource and should 
            not be wasted by any user. So, if an environmental water 
            release is not accomplishing the task for which it is being 
            released, then it should be made available to the other 
            water users so it may be beneficially used for society.

    2.  A water balance analysis is done for the San Joaquin Valley so 
            that residents and decisionmakers know the extent and 
            seriousness of the situation. Following that analysis, a 
            determination be made as to how many acres of productive 
            farm land must be permanently fallowed to get the area in 
            to water balance.

    3.  A new dam built at Temperance Flat with public funds. Twice in 
            the last 20 years, flood events have resulted in the loss 
            of millions of acre-feet of water because Friant Dam is too 
            small. Water banking by itself cannot address this problem 
            because it takes time for the water to percolate in water 
            banks. The additional storage will provide the time to 
            store the water and then be released over time. In 
            addition, this water can be available for in-lieu recharge 
            which is the most effective means of underground 
            replenishment.

    There is nothing sinful about a society investing in its own 
infrastructure. A new dam is the investment in the future food security 
of the United State. It would provide the additional water needed to 
help restore some water balance to the area, as well as significant 
flood control benefits. However, without revising the San Joaquin River 
Settlement, a new dam would be virtually useless. The only solution 
would then be to permanently fallow hundreds of thousands of more acres 
of productive farm land.
                               conclusion
    We are at a crossroads for the east side of the San Joaquin Valley. 
For some 50 years, we have thrived due to the foresight, planning, and 
wisdom of our forefathers. Leaders of both political parties worked 
together to provide an opportunity for the World War II generation by 
building Friant Dam and enacting Reclamation Law. This generation 
responded magnificently by creating a robust society of small and 
medium sized communities embedded in 1,000,000 acres of productive farm 
land. This land has nourished this country and the world. It has been a 
government program that worked.
    Now, all that is at risk not because of any continuing natural 
calamity, but because of a continuing series of overreaching 
environmental laws passed by Federal and State legislators and enforced 
by bureaucrats and judges. The only solution is to revise these onerous 
laws. The time to act is now.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Upton.
    I also want to say that at the entrance here there are 
forms if any of you would like to make a comment as part of the 
record for our committee hearing, or you can go to our Web 
site, which is naturalresources.house.gov, and go to 
``Contact,'' and you can put your comments in there if you 
would like, and we obviously invite your comments.
    I want to thank all the witnesses for your testimony. Now 
we will start the process here where we Members will ask 
questions of some of the witnesses. I will start with myself.
    Mr. Murillo, I want to ask you a question. I will ask my 
staff if they can put up a graph because this graph, I think, 
at least from my perspective, not living here all of the time, 
certainly tells a lot. It is a graph going back from 1952 to 
2013. The blue line represents the storage in millions of acre 
feet from the Central Valley Project starting in 1952 all the 
way up to 2013. You can see that blue line has been fairly 
constant, with the exception probably of some drought areas, 
1976 probably being the most obvious one. I remember that was a 
big drought in my State of Washington.
    The red square is the initial Ag Service allocation to 
agriculture. Since we are talking about agriculture, that is 
what the red square was. The green triangle was the final Ag 
Service allocation. Now, if you look at that graph starting 
from 1952 through 1990 or maybe 1991, with the exception of 
1976 when that really was very much a drought, the allocation, 
the initial allocation and the final allocation was sufficient. 
It was always higher than what the storage was.
    But all of that changed, it appears, in 1992, where you can 
see that the initial Service allocation and the final 
allocation was all over the board, mainly during that time 
period under what the CVP storage was.
    So, Mr. Murillo, I just wonder if you can explain to me, 
somebody from outside the State, what happened in the early 
1990s to change this graph when the one constant all the way 
through, at least from the graph, was that the storage was 
constant. So if you could explain that to me, I would very much 
appreciate it.
    Mr. Murillo. Thank you for the question, I appreciate it. 
So the CVPIA, one of the requirements of the CVPIA is that we 
set aside CVP yield, water yield, about 800,000 acre feet a 
year. We provide that for in-stream flows. So I think part of 
what you are seeing is you are seeing some of the requirements 
that have been imposed on us by the CVPIA.
    The Chairman. The CVPIA, explain what that was again.
    Mr. Murillo. The Central Valley Project----
    The Chairman. Improvement Act? Is that what it was?
    Mr. Murillo [continuing]. Improvement Act.
    The Chairman. OK. And that is legislation----
    Mr. Murillo. It was legislation----
    The Chairman. I was not in Congress at the time. That is 
legislation that was passed in the early 1990s through the 
Congress.
    Mr. Murillo. Yes, it was, and it was for us to take into 
consideration equally fish and wildlife demands. So we were 
supposed to put those equal to power generation, Ag delivery. 
So we were supposed to hold it at a high priority. So what that 
did is it required us to provide additional flows, in-stream 
flows to meet some of those concerns.
    I think what you are seeing here, at least part of the 
impact you are seeing here is some of that 800,000 acre feet 
that is being allocated to meet the environmental requirements 
of the CVPIA.
    The Chairman. Well, Mr. Murillo, I have to say, toward the 
end, when I look at these red dots where you have--again, 
comparing this with storage, comparing it to the final 
allocation, the initial allocation--final allocation, the 
storage seems to be pretty much constant. But the allocation, 
both initial and the final, seems to be much lower. Maybe I am 
missing something. You said 800,000 acre feet. Why would it be 
lower in the out years here? What is the reason for that?
    Mr. Murillo. Well, like I said, I think part of the 
reduction and probably the allocation and the final allocation 
that we present is there are a number of factors that we have 
to take into consideration these last several years. So CVPIA 
is one. That is something that we do have to take a look at. We 
talked about this before. There are just a number of other 
requirements. We have the water quality requirements that we 
have to continue to meet.
    The Chairman. Mr. Murillo, my time is rapidly coming out. 
Again, I ask that question as somebody not from the State. When 
I see this graph here, I see a dramatic change because, 
obviously, of legislation that happened. I think there needs to 
be an explanation, and maybe some of my colleagues who live 
with this better than I can follow up. So thank you for that.
    I will yield back my time and recognize Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Larry Starrh and Mark Watte and a few of our folks here, we 
have worked together over the years, and with your family, and 
I think a number of your comments clearly indicate it. I mean, 
we are kind of preaching to the choir here.
    My question to maybe you, Mark, and Larry, and if some of 
you want to opine in, we have 38 million people in this State, 
as we noted, and we have a broken water system, as we have 
noted, but we have 4 million people that live here in the 
valley, and if it were just us to make the determination, 
obviously, I think it would have been done a long time ago.
    Having said that, what do you think is going to be 
necessary to get people in southern California, people in the 
Santa Clara Valley that, by the way, get water out of San Luis, 
people in the delta to understand that their water is at risk 
as well? Because 4 million people by ourselves cannot convince 
38 million people in the State by ourselves that we have a 
broken water system.
    Mr. Starrh. Well, I will tell you, Benjamin Franklin said 
it. He said, ``When the well is dry, we know the worth of 
water.''
    Mr. Costa. I know. But southern California doesn't believe 
that water is at risk.
    Mr. Starrh. If I was really good at going out and being a 
publicist and a marketer of the problem, I think until you have 
a real tragedy--and I hate to say that--either the price of 
food has to come----
    Mr. Costa. And maybe the silver lining in this crisis, if 
there is one, is that the price of food will get to a point 
that maybe people will wake up. I don't know.
    Mark, do you have a thought?
    Mr. Watte. Well, the common theme through the whole day 
today is the issues we have with the Endangered Species Act. 
That law is just out of control.
    Mr. Costa. I agree.
    Mr. Watte. And I think until our elected officials will 
face that fact and push back against some of the most extreme--
--
    Mr. Costa. Yes, but we respond to our constituencies. And 
if our constituencies in southern California don't think they 
have a problem----
    Mr. Watte. Well, I think they are listening to a really 
tiny, small constituency. The bulk of the constituencies are 
disengaged. They are not aware.
    Mr. Costa. Oh, I would agree with that point, too.
    Mr. Watte. So I think it is up to the elected to begin the 
process----
    Mr. Costa. In Santa Clara, their intake is 30 feet above 
San Luis Reservoir, and they are going along like there is not 
a problem.
    Mr. Watte. Well, I just think some leadership from the 
elected is a beginning point.
    [Applause.]
    Mr. Costa. But you have, Mark, you have leadership here, 
but we don't represent southern California. You know, I mean, 
let's----
    Mr. Watte. I understand that, I understand that.
    [Voice.]
    Mr. Costa. Well, it is right here. I voted for all of those 
bills.
    [Voice.]
    Mr. Costa. Excuse me. I have another question.
    The Chairman. Mr. Costa has the time, and please respect 
the fact that he has the time.
    Mr. Costa, you are recognized.
    Mr. Costa. Thank you very much.
    Ms. Beland, you spoke about what is currently going on. But 
does the Governor understand that we have a broken water 
system?
    Ms. Beland. I would say yes, we very much understand that 
fact, and we have----
    Mr. Costa. And the proposal to fix this broken water system 
by the Governor is what?
    Ms. Beland. The Bay Delta Conservation Plan.
    Mr. Costa. And that does what? We don't want to get into--
people just want to know. Does that include storage? Does that 
include fixing the delta? Does that include creating 
flexibility in how the State and Federal pumps are operated?
    Ms. Beland. The BDPC, compliant with the California Water 
Action Plan, would do all of those things. It would allow us to 
fix our conveyance system----
    Mr. Costa. By building two tunnels.
    Ms. Beland [continuing]. By building two tunnels----
    Mr. Costa. Additional storage?
    Ms. Beland [continuing]. So that we can reliably move water 
to storage, and----
    Mr. Costa. Have you sited the storage? Are we talking about 
Shasta sites? Are we talking about San Luis? Are we talking 
about Temperance Flat?
    Ms. Beland. We have not sited storage. We are looking for 
storage partnerships because the State----
    Mr. Costa. Well, there has to be a cost sharing. I voted 
for the Valadao legislation. I was proud of that fact. But we 
don't provide any Federal funding in that legislation, which is 
why I introduced the other legislation, and that was 
understanding the issues that Mr. McClintock raised. I am more 
than happy to work with you on that point.
    Mr. Murillo, quickly, we talked about the storage, and you 
talked about the completion dates of the studies. When could we 
begin construction if we were able to reach an agreement 
between the State and locals on cost sharing on the 
construction of each of these individual projects? Let's take 
Shasta, for example. When could we begin there?
    Mr. Murillo. Actual construction itself? That all depends 
on, once again, once we complete the Environmental Impact 
Statements and----
    Mr. Costa. Well, but, I mean, it has gone way too long. 
Mike Connor acknowledges that; you acknowledge that. I mean, 
when could we begin construction? You are going to have to 
answer those questions.
    My time has run out. But I just think that until we can 
tell people up here definitively, if we reach a cost-sharing 
arrangement, that we can begin construction next year or in 18 
months, nobody is believing us.
    Mr. Murillo. Well, like I said, the final feasibility study 
and the final EIS for the Shasta will be completed this year. 
If we have cost-share partners, we should be able to get 
moving----
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from California, Mr. 
McClintock.
    Mr. McClintock. Just to quickly pick up on that point, 
Shasta was designed at an 800-foot level. It was built to 600 
because we didn't need the capacity then. That additional 200 
feet would mean 9 million acre feet of additional storage. How 
much are you actually proposing to increase Shasta by?
    Mr. Murillo. What we are looking at is an 18.5-foot raise.
    Mr. McClintock. Eighteen-and-a-half feet when it was 
designed to be raised another 200 feet.
    Now, you say that the feasibility study will be done then. 
The feasibility study is to meet all of the existing laws and 
regulations and edicts, which tend to make these completely 
infeasible. So isn't this just a shell game?
    That is a rhetorical question.
    [Laughter.]
    [Applause.]
    Mr. McClintock. Ms. Beland, the Burns Porter Act produced 
the entire State Water Project. That was 21 dams, 7 million 
acre feet of water storage, 3,000 mega-watts of hydro-
electricity, 700 miles of canals. If you do the inflation 
adjustment for the California Water Project, it is about $17 
billion in today's money. The Governor now proposes $14 billion 
for the cross-delta facility that adds zero additional water 
storage and zero additional hydro-electricity.
    Wouldn't that $14 billion be better spent building 
additional capacity? For example, $6 billion to raise Shasta to 
its full design elevation of 800 feet, build the Auburn Dam, 
which was half completed in the 1970s. That by itself, those 
two projects would more than double storage on the entire 
Sacramento system.
    Ms. Beland. Well, the Bay Delta Conservation Plan is only a 
portion of what the Governor is proposing that we do in the 
State. Our State Water Action Plan includes storage, both above 
ground and below ground.
    Mr. McClintock. How much storage? Anywhere close to the 9 
million acre feet in completing Shasta, or the 2.3 million acre 
feet of completing Auburn?
    Ms. Beland. It is going to rely and depend on those 
partnerships that can step forward. We don't have the financing 
to build----
    Mr. McClintock. I think the obvious answer is no.
    Mr. Watte, are we ever going to solve our water shortage 
without fundamental reform of the Endangered Species Act?
    Mr. Watte. Sorry?
    Mr. McClintock. Are we ever going to solve our water 
shortage without fundamentally reforming the Endangered Species 
Act?
    Mr. Watte. Absolutely not.
    Mr. McClintock. Ms. Beland, Mr. Starrh referenced 800,000 
acre feet of water that was released out of Oroville Shasta in 
Folsom Dam this fall. Those of us in Sacramento watched the 
Sacramento River at full flood, wondering what in the world 
were you people thinking. Our subcommittee has requested the 
release orders, many of which are completely without 
explanation.
    Let me put it to you: why was this water released last fall 
knowing full well that we were heading into a potentially 
catastrophic drought, draining the Folsom Lake almost 
completely of its water?
    Ms. Beland. We weren't anticipating the drought to continue 
in----
    [Voices.]
    Mr. McClintock. Thank you for your candor.
    Mr. Upton----
    [Voices.]
    The Chairman. Please come to order so we can continue.
    Mr. McClintock. Mr. Upton, you mentioned the incestuous 
relationship between extremist groups like the NRDC and 
policymakers in State government, particularly the State Water 
Resources Control Board. How widespread is this relationship?
    Mr. Upton. Well, I don't know. But I know that in a lot of 
the agencies and when you go to talk to people, you are facing 
the same people that you faced years ago when you were dealing 
with environmental organizations.
    Mr. McClintock. So you would say that relationship is 
pretty extensive now throughout the State government?
    Mr. Upton. Yes, it is very extensive, and it is very 
extensive on a lot of the staffs, especially in Sacramento and 
in DC. People come out of the environmental organizations and 
get on the staffs.
    Mr. McClintock. And it is also true in the Federal 
Government?
    Mr. Upton. Yes, also true of the Federal Government. It is 
very difficult to explain to somebody that doesn't understand 
Ag, doesn't understand water, and doesn't appreciate it. So 
before you can even convince them of anything, you first have 
to educate them, and a lot of times they don't want to be 
educated.
    Mr. McClintock. Mr. Knell, we haven't had a major reservoir 
since New Melones in 1979. You mentioned the need to build more 
capacity, but also to more carefully use our existing capacity. 
You pointed out that much of that capacity has been squandered 
to meet various governmental environmental mandates. Do you 
have any idea how much of our existing capacity--forget 
building new storage. Just with our existing capacity, how much 
of that is being squandered due to these decisions and laws and 
regulations?
    Mr. Knell. Well, I can't speak for the State. I can speak 
for Melones. I mean, the reservoir is----
    The Chairman. Please speak into the microphone. Pull it a 
little closer.
    Mr. Knell. I am sorry. Melones is, speaking from our basis, 
Melones is over-committed to meet downstream resource demands 
for fisheries, water quality, and all the rest.
    Mr. McClintock. Can you just give us a percentage? How much 
of New Melones is being used for people, and how much of it is 
being used for fish?
    Mr. Knell. Is it 60/40? It is 60/40.
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentle lady from Wyoming, Mrs. 
Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    A question for anybody on the panel. Can anyone tell me 
whether these flows that have cutoff irrigation water and are 
intended to help the recovery of the delta smelt have indeed 
done so? Is the delta smelt survivability increasing because of 
these flows? Can anyone answer that verbally?
    Mr. Delgado?
    Mr. Delgado. Yes. As far as the flows, there is water 
coming in from northern California. It is from the Sacramento 
River. The delta is a big mess right now. It is a cesspool of 
pollution. And basically, in my opinion--I might be wrong, but 
the water that has been legally stolen from us has been 
diverted through Sacramento River into the delta to clean up 
all the sewage from the cities along the coast, and then thrown 
basically back into the San Francisco Bay area to clean up the 
pollution from San Francisco and clean up the pollution from 
the oil refineries. They are using the excuses about the delta 
smelt and the fish, but they don't even exist anyway.
    The biggest problem we have is pumping restrictions. The 
last rain we had, we had rain, and you wouldn't believe--they 
would startup the pumps to restore and recharge the San Luis 
Reservoir. Instead, the pumps were only pumping like 10 percent 
of capacity, and the rest of the water basically went out into 
the ocean. That is the way I look at it.
    Mrs. Lummis. Thank you. Anyone else care to comment on 
that?
    Mr. Upton. My understanding is that the increased flows 
have not helped the smelt population, and there are a lot of 
factors involved with it. George just mentioned a few, but also 
I don't think we really understand completely the science of 
where habitat exists for smelt, or the predators or any of 
that. So we really don't know. And the fact is that throwing 
more water at it hasn't helped, in my understanding.
    Mrs. Lummis. So should there be a concept in the Endangered 
Species Act of a futile call on water? In Wyoming, we have this 
concept of a futile call. If delivering water to a senior water 
rights holder downstream will not even get there because the 
conveyance system would cause the water to just seep into the 
ground, so the water can't be delivered, then you can't make a 
call on a senior right because it is futile, it won't get 
there.
    Should there be a similar concept in the Endangered Species 
Act where if it is documented, as this is, that providing more 
water, cutting off other water uses to provide more water does 
not, in fact, aid the recovery of a species, then there is no 
sense doing it? Does that make sense?
    [Applause.]
    Mrs. Lummis. Yes, Mr. Coleman?
    Mr. Coleman. One of the problems is they never set a 
standard or criteria for what a successful delta smelt 
population is, so they don't know.
    Mrs. Lummis. That is a problem that Chairman Hastings and I 
identified through over a year of hearings in Washington 
regarding some of the flaws of the Endangered Species Act, is 
that if you can't measure successful recovery, how do you ever 
get a species delisted? So, thank you for that. That is another 
confirming bit of testimony that we are on the right track with 
regard to requiring scientific data and transparent data as 
criteria for recovery of a species so we can improve the 
success rate.
    Right now, there is only a 2 percent or less success rate 
in recovery of species listed under the Endangered Species Act. 
Well, that is a failed law.
    [Applause.]
    Mr. Coleman. The smelt population this season is the second 
lowest it has been, so it has been a total failure. But don't 
lose sight. It is not about the smelt. That is just a lever to 
take our water. But it has not been successful.
    [Applause.]
    Mr. Delgado. May I add another thing?
    Mrs. Lummis. Yes, sir, Mr. Delgado. By the way, I loved 
hearing your background. It mirrored my own. So thank you for--
--
    Mr. Delgado. I thank you very much. I am not the only one 
that has that background. There are a lot of west side farmers 
that come from different parts of the country--Oklahoma, 
Kansas. My history goes back to the valley for all of my life. 
I have always respected and will always have respect for 
farmers in the west side and any farmer that farms anywhere in 
the world because it is not as easy as it looks. We make it 
look pretty sometimes in the fields, but when you are really 
out there trying to make decisions, it is tough enough making 
decisions when we are dealing with markets and labor and 
dealing with all these environmental laws that have been 
imposed on us. So I am very thankful that I have had the 
opportunity to be part of the west side. But unfortunately, it 
is very sad because the west side is starting to die already.
    The Chairman. The time of the gentle lady has expired.
    Mrs. Lummis. Thank you, Mr. Chairman. I yield back.
    The Chairman. I recognize Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman. Mr. Chairman, thank you 
for yielding.
    Ms. Beland, just for the record, the Governor opposes the 
House-passed legislation?
    Ms. Beland. Yes.
    Mr. Nunes. So what is the Governor's plan? Does the 
Governor believe that there has to be any Federal laws that are 
changed or modified in order to bring water to all 
Californians?
    Ms. Beland. The Governor believes we need to work on the 
infrastructure projects that he has put forward in both the 
Water Action Plan and the Bay Delta Conservation.
    Mr. Nunes. You could build tunnels, you could build canals, 
you could build dams, but the problem remains that if the 
Federal laws aren't changed, those could all go unused like 
they are today.
    [Applause.]
    Mr. Nunes. I am just trying to see, do you agree with that 
statement I just made? Are we using the infrastructure that we 
have already built in the last 100 years? Are we using it to 
its fullest today?
    Ms. Beland. I don't think so.
    Mr. Nunes. OK. That is the right answer.
    [Laughter.]
    [Applause.]
    Mr. Nunes. So what dams does the Governor support at this 
time to construct? Can you name any dams that he would actually 
support raising, or new ones?
    Ms. Beland. Well, we are looking at a partnership right now 
with Sites Reservoir up in the Northern Sacramento Valley that 
will provide us with an opportunity to build in conjunction----
    Mr. Nunes. But just one, just the one.
    Ms. Beland. That is one example.
    Mr. Nunes. Ms. Beland, you are a young lady, so this 
comment is not toward you, but the Governor was Governor of 
this State 40 years ago when I was born. If the Governor hasn't 
figured out what new storage projects have to be built, then I 
think that any storage that is talked about--and I think 
everybody in this crowd needs to understand this--that it is 
only used to pacify those of us who have been fighting for 
storage for a long time.
    [Applause.]
    Mr. Nunes. Would the Governor be willing to waive SEQRA to 
construct dams in this State?
    Ms. Beland. I can't speak to that. I don't know.
    Mr. Nunes. OK. But the Governor does waive SEQRA, sign 
bills to waive SEQRA with the basketball stadium arenas, 
football stadiums? You know about that, right?
    Ms. Beland. Yes.
    Mr. Nunes. Mr. Murillo and Ms. Beland, could you comment 
on--so the graph I have on the screen, it is basically 2.5 
million acre feet that we are short, on average, in this 
region, basically from Merced to Bakersfield. Would you agree 
with those numbers?
    Mr. Murillo. I don't know if I can agree with those exact 
numbers, but I believe we are short.
    Mr. Nunes. Is it close to 2.5 million acre feet, or is it--
--
    Mr. Murillo. I don't know. I can't respond to that. What I 
can tell you is we do understand that we are short. We are 
trying to deliver water to Ag, and we do understand that we 
have a number of regulatory requirements that we are trying to 
meet.
    This year, what we have been doing is we have been working 
with the district general managers and we have been coming up 
with ideas this year. Last year, what we dealt with is 
basically trying to operate at minus-2,500, minus-2,000. This 
year we have moved forward and we are trying to operate at 
minus-5,000, minus-6,600. So we are trying to push those 
Biological Opinions to the limit.
    Mr. Nunes. No, I understand, Mr. Murillo. I mean, you are 
in charge of running the Bureau. I am not asking you to be a 
water expert, but we have to identify the problem. That is one 
of the challenges that I have realized in my time fighting this 
issue, is that we always talk in the abstract because it is 
easy for politicians to stand up here and say, oh, I want to 
build 20 dams, I want to build every dam imaginable. They 
always say that when they campaign, but then no dams ever get 
built.
    So I am trying just to get you and your folks and the 
Governor's folks and us, the Congress, to focus on what is the 
shortfall. I mean, it has to be close to 2.5 million acre feet, 
right?
    Mr. Murillo. Like I said, I don't know what the exact 
number is. I know we are short.
    Mr. Nunes. I mean----
    Mr. Murillo. Well, you are asking me the question.
    Mr. Nunes. We are not this much short, right?
    Mr. Murillo. Exactly.
    Mr. Nunes. We are a lot more than that.
    Mr. Murillo. Yes, we are more than that. I agree with that.
    [Laughter.]
    [Applause.]
    Mr. Nunes. I think it is really important, and I am asking 
both of you, please, to submit after this how much the region 
is short. You can take this graph with you. If you come back 
with 2 million acre feet, something like that, we can discuss 
it. But we have to figure out what the real problem is in order 
to build a solution.
    The Chairman. Would the gentleman yield real quickly?
    Mr. Nunes. Absolutely, Mr. Chairman.
    The Chairman. How quickly can you get that information to 
Mr. Nunes? I just ask. How quickly can you get that for the 
committee?
    Mr. Murillo. We should be able to get it within a couple of 
weeks.
    The Chairman. A couple of weeks?
    Mr. Murillo. Yes.
    The Chairman. All right, we will give you that leeway, 2 
weeks from today, which would be about April 2, I think, if my 
memory serves me correctly. So the committee can expect that 
information on April 2. Do you both concur?
    Ms. Beland. Yes.
    The Chairman. Affirmative on both cases.
    I yield back.
    Mr. Nunes. And we will get in writing the number we are 
asking for.
    The Chairman. The time of the gentleman has expired.
    Mr. Nunes. Thank you, Mr. Chairman.
    The Chairman. I recognize the distinguished Majority Whip, 
Mr. McCarthy.
    Mr. McCarthy. Thank you very much, and thank you to all the 
witnesses.
    A couple of things I would like to focus on, one following 
up on what Congressman Nunes said. We all agree in storage, but 
if we can't move the water through the delta, what will the 
storage matter?
    It goes back to the key question that a lot of people here 
said. When you answered the question that the Governor opposed 
a bill that passed the House, my question is what part of it 
does he oppose? Do you know? I will come back to you.
    I want to put the personal aspects of this because we do 
have some cameras here and we have some people from out-of-
state as well as part of this conference bill. What does that 
really mean that is affecting us today? I listened to Mr. 
Starrh say 1,000 acres. This isn't a rotation crop. You said 
you grow almonds.
    Mr. Starrh. Right. We are taking out--we are going to stop 
irrigating 1,000 acres of trees that are anywhere from 15 to 18 
years old. So they are productive trees, and with that we won't 
be able to--you don't harvest them, you don't hire the people 
to harvest them, you don't do any of that. None of that 
happens. The product is gone. The trees die. And you have 
invested 14 years of capital to get them built. You put them 
in, it takes 3 years before you get even a little bit of a crop 
off an almond tree, and then, yes, it is gone.
    Mr. McCarthy. These trees are 14 years old. You are 
fallowing them. They are dying.
    Mr. Starrh. Right.
    Mr. McCarthy. You can't bring them back the next year.
    Mr. Starrh. Right, right.
    Mr. McCarthy. A thousand acres.
    Mr. Starrh. A thousand acres.
    Mr. McCarthy. I want to put another face, not to the farm 
but to Mayor Chavez. You talked, even the last time, you gave 
some numbers in your community, a little less than 7,000, over 
90 percent Hispanic, working, many working in the fields and 
others, and you said that you had 40 percent unemployment the 
last time. Can you tell us some of the aspects of what happened 
during that 40 percent unemployment?
    Mayor Chavez. During that time we had long lines for food. 
Our crime rate went up during that time that there was no 
water. They had cut down on a lot of jobs. A lot of our 
community members had moved away, too, because of trying to 
find work somewhere else.
    Coming from the community, from Huron, I have been there 
all my life. I worked in the fields. I picked cotton. I picked 
grapes. I know how hard it is for these people to try to have 
to look for work, and they have to travel. Some of them have 
come back, but some have moved away and stayed away, and that 
affects our community a lot, and the revenues themselves and 
everything else that we have to pay.
    A lot of our homes went empty. A lot had to move out of 
their homes, and those went into foreclosure. So we lost that 
revenue, too.
    Mr. McCarthy. So, the entire city affected, from the 
police, fire, school districts as well, because of the 
unemployment?
    Mayor Chavez. Exactly. Because some couldn't pay for their 
homes, couldn't pay the property tax, we lost that money. So 
the city was hit very hard with that in 2000--that was in 2009. 
We are looking for more shortage this year.
    Mr. McCarthy. So those are some of the aspects that happen 
rather quickly that we are in the mode of happening right now.
    If I could turn back, and I don't hold it to you. You are 
not directly with the Governor. I know Secretary Laird couldn't 
be here. I served with him in the Assembly. I was hoping he 
could have been. I know the Governor declared this an 
emergency, so I was hopeful that the Secretary could be here.
    Part of why this hearing took place, I know when the 
President came out--and correct me if I am wrong, Mr. 
Chairman--the entire Democrat delegation inside Congress 
requested a hearing, maybe not from this committee but 
requested a hearing. And did you invite everyone?
    The Chairman. If the gentleman would yield, I sent a letter 
to everybody. Once we established the hearing date, I sent a 
letter to every Democrat Member of Congress in both the House 
and the Senate asking them to come to this hearing.
    Mr. McCarthy. If I could turn back to the Governor's 
difference of opinion on a bill that has passed the House 
dealing with the water issue, and none through the Senate, does 
he have some specific reasons that he would oppose it?
    Ms. Beland. I think two main concerns: one, that we are 
putting one set of interests above another.
    Mr. McCarthy. And which would that be? Would that be humans 
above fish?
    [Applause.]
    Mr. McCarthy. What else?
    Ms. Beland. And it would interfere with the flexibility 
that we would need to respond to the current crisis. Those were 
the two reasons that he gave in his letter.
    Mr. McCarthy. If I could turn to Mr. Upton, I thought you 
gave very interesting testimony, being part of that negotiation 
and restoration and coming back with the environmental 
accountability, you said. And the one thing I heard from all 
this, many times we have gone into these agreements, and what 
people have some agreement for is not what turns out to be. I 
find, yes, I want more storage, but if we can't get that water 
through the delta, we are not utilizing the capacities we have 
now.
    Maybe you can elaborate a little on what you were meaning 
by that based upon the negotiation and the restoration of 
others of where it ended up, and the accountability that you 
think you need in the environmental as well.
    The Chairman. Real quickly, Mr. Upton, real quickly.
    Mr. Upton. OK. All right. Well, we had an agreement, a 
signed agreement that they were supposed to help us get our 
water back, and they have reneged on that, so we are not going 
to get our water back. You are talking 250,000 acre feet, 
approximately, every year, on average, that is going to be sent 
down the San Joaquin River, and that means we are going to have 
to pump from underground to make it up. That is unsustainable. 
That is unsustainable. So what is going to happen? You are 
going to have to idle acres. That is the only other solution, 
unless you are going to rewrite this law for a warm-water 
fishery and have the Temperance Flat.
    This situation could be addressed, but it can't be as long 
as they continue to listen just to the environmental side of 
this.
    [Applause.]
    The Chairman. The time of the gentleman has expired.
    I recognize Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Knell, in your testimony you talked about past years 
being able to transfer water to Westlands Water District. In 
2012, you were prohibited from doing that. Can you explain why?
    Mr. Knell. The timing of the water, when it was available, 
and the capacity at the pumps being consumed for other purposes 
just delayed the pumping long enough that the water couldn't be 
released. We are trying to release the water within a timeframe 
that was fish-friendly so we could benefit the fisheries in our 
river, in the Lower San Joaquin. But there again, there just 
wasn't any capacity at the pumps due to pumping of other water. 
That is why we needed the storage at New Melones. Had we been 
able to back that water up the hill and wait until that 
capacity was available, then we could shoot the water across.
    Mr. Denham. So you were prohibited in 2012. What happened 
in 2013? Were you able to pump in 2013, the west side farmers?
    Mr. Knell. No. Our district has no surplus water available 
for transfers due to the depth of this drought at this time.
    Mr. Denham. And this year as well, I assume, there will be 
no transfers----
    Mr. Knell. I am sorry, I am sorry. In 2013, we moved 80,000 
acre feet. I am sorry. I apologize. We moved 80,000 acre feet 
across the delta last year. This year I was saying we have no 
water for movement.
    Mr. Denham. Mr. Murillo, when Oakdale Irrigation District 
has water to transfer, is there anything prohibiting them from 
addressing that?
    Mr. Murillo. I think, as you mentioned, we look at a number 
of factors. We look at the demands that are required.
    Mr. Denham. Are you currently addressing this problem?
    Mr. Murillo. We are taking a look at it. But like I said, 
we look at a number of factors. We look at the senior water 
rights that are in there. We also----
    Mr. Denham. When you say you are taking a look at that, 
what does that mean to the farmers in my community? Are you 
looking at it so that if there is excess water they can plan on 
having that, or is this something that is going to take several 
years to look at and do a study?
    Mr. Murillo. I think, as we mentioned before, last year we 
moved water. What we do is we take a look at what the 
conditions are. We take a look at what their proposals are. And 
we take a look to see what the impacts to the CVP overall are. 
So we consider that, and if we think that the conditions are 
right, we can go ahead and move that water through.
    Mr. Denham. And you work with Oakdale Irrigation District 
on that?
    Mr. Murillo. Yes, we work with all districts.
    Mr. Denham. Mr. Knell, I introduced H.R. 2554, which would 
allow more storage at New Melones Reservoir, again at no cost. 
I have heard about Reclamation seeking all avenues to expand 
and improve water supplies due to this drought. Has Reclamation 
contacted you about this bill?
    Mr. Knell. I am sorry?
    Mr. Denham. Has Reclamation, have they contacted you about 
the bill for New Melones?
    Mr. Knell. No. To my knowledge, no.
    Mr. Denham. Have you heard of the bill?
    Mr. Murillo. I have not seen the bill myself.
    Mr. Denham. OK. We will get you a copy of that.
    Mr. Murillo. Thank you.
    Mr. Denham. It is certainly alarming that you wouldn't be 
focusing on all water bills, certainly in an emergency, where 
the State has declared an emergency. The President has now 
declared an emergency, and we are not looking at all of the 
bills that would deal with water storage, especially one that 
would come at no cost.
    So will you commit to this panel today that you will not 
only take a look at the bill but you will actually sit down 
with Oakdale Irrigation District and work on a no-cost solution 
with new water storage in New Melones?
    Mr. Murillo. I personally will take a look at the bill, and 
we can sit down and have a discussion.
    Mr. Valadao. If the gentleman would yield just for a quick 
second?
    Mr. Denham. I will yield.
    Mr. Valadao. I just want to make sure for the record, Mr. 
Denham, that indeed your bill passed the Congress, and I am not 
sure about Mr. Murillo. I am not sure that they commented on 
the bill, but I know that the Governor's Office opposes the 
bill, because they have sent a letter opposing the legislation.
    Mr. Denham. I understand that the Governor, Ms. Beland, 
opposed this bill. Does he oppose the water storage at no cost 
at New Melones Reservoir?
    Ms. Beland. I don't have the background on the Governor's 
opposition to your bill in particular. I can respond back to 
you.
    Mr. Denham. I would look forward to a response.
    As well, there are a number of different water storage 
projects, both in authorization as well as new storage in the 
bill.
    Look, here is part of my frustration.
    The Chairman. Would the gentleman yield? Would the 
gentleman yield?
    Mr. Denham. You have to show us what you are for. If you 
are having an emergency here and you disagree with an approach, 
then either introduce a bill of your own or show us what you 
are for. But we can't continue to negotiate with ourselves.
    [Applause.]
    Mr. Denham. I would be happy to yield to the Chairman.
    The Chairman. I would ask the Undersecretary, when will you 
respond to him, to his specific question? When can he expect 
that response? It is an important response. We need to find out 
what the State of California wants. He says it very well. When 
will they respond?
    Ms. Beland. I can get back to you by Friday.
    The Chairman. When will you respond?
    Ms. Beland. I can respond by Friday.
    The Chairman. By Friday?
    Ms. Beland. Yes.
    The Chairman. You will get a response to Mr. Denham's 
question?
    Ms. Beland. Yes.
    The Chairman. All right. I yield back to the gentleman. He 
still has some time because I took it.
    Mr. Denham. Thank you. I had a number of questions for the 
State Water Resources Control Board, Mr. Chairman. I will 
submit those questions through the committee. I would expect 
answers.
    But I, as Mr. Upton, I find it alarming as well that the 
NRDC continues to sue on any new water storage, but yet the 
Governor, who is now claiming that we have an emergency here, 
continues to appoint the very same people that are suing us on 
all of our water projects.
    [Applause.]
    The Chairman. The time of the gentleman has expired.
    I recognize Mr. Valadao for 5 minutes.
    Mr. Valadao. Thank you, Mr. Chairman.
    My question, my first question, goes to Ms. Chavez in 
Huron. The last year, what was your water allocation for the 
city?
    Mayor Chavez. The last year the water allocation was 1,125. 
This year we received a letter from the Bureau of Reclamation 
that we will receive 649 acre feet. That makes us short 476 
acre feet, and that is what we have to deal with this 2014-2015 
year.
    Mr. Valadao. One of the most frustrating things for me, 
because I represent the area in Congress and I have had a lot 
of time with the mayor in her district office there, is you 
have papers coming from the Bureau saying they get 70 percent 
of historical use. They like to throw those big numbers out 
there, you are getting 70 percent, but they put the 
``historical use'' in there in small print, and it ends up 
being where you get less than 50 percent of your actual water, 
and you are putting these constituents in real danger. It is 
not just about the farmers but it is also about people in these 
communities. They are very important to us. They are important 
to everybody in this area.
    My next question, Mr. Delgado, you started this farm. You 
are a new farmer. How do situations like today--I mean, you 
don't have generations behind you of owning farmland. You 
started this on your own. You started as a farm worker. You 
built your way up. You probably don't have the same capital as 
someone who has been around for two generations or three 
generations.
    How does this affect you when you have to compete with 
these other farmers, and how does that affect you in achieving 
the American Dream, what we are all here for?
    Mr. Delgado. Well, personally, I have been very blessed to 
have this opportunity. So far, I have been blessed with--I have 
very close ties with business people, farmers who have been 
around for three or four generations. They basically trust me 
with my word, that my word is good, that I am honest, I have 
character, and that I have good intentions with the land.
    I have also been blessed that I have a family that supports 
me. My wife has a doctorate in education. I have a son who is a 
water law attorney. I have another son who teaches math. I have 
my daughter, who is a physical therapist. All of their wives 
are college educated. So I have been blessed with what is more 
important, which is really a family that comes first.
    If something were to go wrong, if I can't survive, well, I 
will be a statistic like anybody else. I am gone. But I am 
going to try to hang on like everybody else is.
    Mr. Valadao. One more question. Mr. Starrh, when you rip 
out those 1,000 acres of trees, just like a lot of other 
farmers are doing, does it require--obviously, you have an 
investment in those trees. You probably have loans. You 
probably have other acreage that you can borrow against to help 
carry yourself through those tough years. How long does it take 
you to rebuild those 1,000 acres, and how long does it affect 
other farmers in the area the same?
    I mean, obviously, 14 years you have had some of those 
trees, 18 years, but it takes now many years to actually get to 
the point where you rip those trees out that there was 
investment in, hopefully your loans are paid off, before you 
can plant the next group of trees and get those into production 
where you can start actually making payments to the bank for 
it.
    Mr. Starrh. Right. Well, when you take them out, then you 
would have to lay it out for a couple of years, and then you 
start the process. You plant, and then you have another 3 
years. But, David, the key is if you don't have water coming in 
the future, the decision will be there will be no trees and 
there will be no work, and there will be nothing. I mean, we 
will just go back to--I mean, I will find a place in Texas, I 
guess.
    [Laughter.]
    Mr. Valadao. So that goes to Mr. Delgado. When someone like 
my family and Mr. Delgado's family starts a business and they 
have to borrow and they have to do everything they can--you 
still work on another farm, I understand?
    Mr. Delgado. Right now, anyone--well, I can't speak for 
everyone. I speak for myself. We made major investments before 
this 1992 Improvement Act was put in place. So we purchased--we 
were able to buy land. We bought land, and it has to be 
financed with banks, and the banks want answers too. The banks, 
when they start having uncertainty, they start pulling back, 
and they have that fear. Myself, I have invested money into 
land. I purchased land, and at that time it did have 100 
percent water allocation. I thought we were in pretty good 
shape with water. And yet I understood that the drought would 
affect it, like most farmers know that.
    Now, another issue is we have invested also in trees, like 
Larry has, and drip irrigation systems. Every acre that I know 
on the west side and people that use Federal water, basically 
it is all under drip irrigation. There is not any water wasted.
    Mr. Valadao. So you have this investment. It is all at 
risk. We have communities that are affected by this. We are 
looking at opportunities, or people are looking for other 
opportunities to move. Communities are out of water, and I 
heard in your comments earlier, Ms. Beland, that you are trying 
to keep the salinity levels at a controllable level in the 
delta, and I understand the concerns there.
    But throughout the year, there were a lot of timed releases 
from these reservoirs that are paid for by the farmers, a lot 
of farmers here in the valley. When these reservoirs are 
releasing water to help the salinity levels in the delta, it is 
interesting that our money, our infrastructure that is supposed 
to be protecting jobs, supposed to be protecting communities' 
clean water, is concerned with something that, if those dams 
weren't there, the water would have just gone out to the ocean, 
the salinity levels would come in anyway. It is nature. It 
happens. It is not something that you should be using this type 
of infrastructure for.
    We are not God here. We are not concerned--we can't prevent 
water from going into these communities and hurting these 
people in the infrastructure that is there, all in the name of 
salt or in the name of a fish, because it just doesn't make any 
sense.
    The salinity levels, if you truly wanted to go back to 
nature, tear down the dams, let the water go out when it melts 
and then it is over, and by the end of summer the salt comes in 
anyway.
    [Applause.]
    Mr. Valadao. You can't use infrastructure like this to say 
that you are trying to protect the environment where, if 
everything was in its natural state, then the environment would 
be at risk, and then it would recover, just like it probably 
happened before humans came to California and started doing all 
these things.
    It is just interesting for me because when you were making 
those comments earlier, you are going down this direction where 
you are trying to use things that aren't natural to protect 
something that is natural, and it is the most asinine thing I 
have ever seen in my entire life.
    [Laughter.]
    [Applause.]
    Mr. Valadao. And it has been good because we obviously have 
a great panel here.
    I wanted to end because I know that I am the last one, and 
I am rushed because of the time limit. But I wanted to say 
thank you to the city of Fresno today for allowing us to do 
this. This was a really good event.
    [Applause.]
    Mr. Valadao. We had a lot of staff from Fresno City Hall 
help us a lot today, and I want to thank the Fresno City Hall 
staff for being so helpful with our staff.
    I also want to thank the Fresno PD. I hear they were really 
nervous about the size of the crowd, and I am glad we had a 
crowd to make them nervous.
    [Laughter.]
    Mr. Valadao. But Selma High School ROTC, thank you for 
taking the time. I know they have already left. They took their 
flag with them. We were able to give them a flag flown over the 
capital.
    [Applause.]
    Mr. Valadao. They are in the back. Thank you.
    Reverend Baptista, thank you for taking some time for us 
today.
    William Bordeaux, thank you for doing the Pledge.
    And Chairman Hastings, for convening this hearing today, it 
means a lot to us here in the valley.
    Congresswoman Lummis, thank you very much for making the 
trip from Wyoming. Everybody here really appreciates your 
comments today, and your questions.
    [Applause.]
    Mr. Valadao. And just on a closing line for myself, I have 
been in Congress for a year now, and this fight has been going 
on much longer. I was dragged into politics really the last 
time they had a huge rally on the west side that Devin was a 
part of in the middle of the orchard. I don't know if you 
remember that, in September of 2009. I never considered myself 
somebody to run for office.
    Having situations like this and being able to be in the 
fight on this side of the dais and having a team like this that 
is going to work together to pass legislation--when you pass 
legislation, what it means is you are putting your money where 
your mouth is. You are putting forth your ideas, what you want 
to do, how you are going to fix this problem.
    But you need partners. For us to do what we did so far has 
been really great. But the next step has to go through for us 
to actually deliver.
    So we have to continue this fight. We have to continue to 
move forward, and this is not over just because this is over 
today. We are going to continue to fight in Washington, and 
thank you so much for being a part of this.
    [Applause.]
    The Chairman. I thank the gentleman.
    And I want to thank all of the witnesses for your testimony 
here. From time to time there are questions on follow-up. If 
you get asked by a Member, please, I hope you will respond in 
quick time.
    I will say this. When I ask for timelines, I get very 
frustrated as a committee chairman when we ask people to 
respond and they don't respond. So I expect the State and the 
Bureau to respond in the time that we agreed upon here on the 
public record.
    With that, I thank everybody for coming.
    There being no further business, the committee stands 
adjourned.
    [Applause.]
    [Whereupon, at 12:38 p.m., the committee was adjourned.]

             [Additional Material Submitted for the Record]

        Bureau of Reclamation, Mid-Pacific Region, April 2, 2014

Response to House Committee on Natural Resources Field Hearing Question 
                 on South-of-Delta Water Supply Deficit

                              introduction
    At the March 19, 2014 House Committee on Natural Resources field 
hearing in Fresno, California, a slide was presented by the committee 
showing a 2.4 million acre-foot ``deficit'' to water supplies south of 
the Sacramento-San Joaquin Delta in California (this is referred to as 
the ``Deficit Slide'' elsewhere in this document). The total deficit 
was calculated as the sum of ``deficits'' created by requirements and 
water supply demands classified in several different categories, 
including Central Valley Project Improvement Act [CVPIA] environmental 
water, CVPIA refuge supplies, the Biological Opinions [BiOps] for the 
Central Valley Project [CVP] and State Water Project [SWP], groundwater 
overdraft, and the San Joaquin River Restoration Program [SJRRP]. 
Reclamation and the State of California were requested to provide their 
own representation of the water supply challenges and shortages to 
users south of the delta. This document responds to that request. In 
developing this response, Reclamation relied upon data from the State 
of California's Department of Water Resources.
                      central valley project data
    For reasons discussed later in this document, Reclamation does not 
agree that the figures shown in the Deficit Slide form an accurate 
characterization of a water supply ``deficit'' to water demands south 
of the delta. As further detailed in this document, there are many 
factors which make it difficult to develop a quantitative analysis of 
water supply challenges and shortages to water users south of the 
delta. Given these difficulties, Reclamation believes the best way to 
quantitatively illustrate the water supply challenges south of the 
delta is through a display of the recent history of allocations and 
supplies to CVP contractors both north and south of the delta (Table 
1).
    Of particular interest to the committee in reviewing Table 1 will 
be the allocations to south-of-delta agricultural contractors and the 
Friant Division. These allocations illustrate the amount of the total 
contract volume to those water users that Reclamation has not been able 
to serve over the past two decades due to a large number of hydrologic 
and regulatory controlling factors which vary (sometimes dramatically) 
from year-to-year.
    When reviewing the attached table, it is important to note several 
other key issues and factors. These key issues and factors highlight 
the difficulties previously noted in creating a single ``deficit'' or 
water supply shortage value. The issues and factors include:

  <bullet> Hydrologic conditions are a significant factor in annual 
        allocations and south-of-delta supplies. Table 2 illustrates 
        the precipitation indices for the Sacramento and San Joaquin 
        basins, as well as the Sacramento River Basin Year type 
        (calculation methodologies for these indices were developed by 
        the State Water Resources Control Board to summarize hydrologic 
        conditions as part of their regulatory activities). The 
        precipitation indices are shown in relation to the final south-
        of-delta agricultural allocation for each year.
  <bullet> Previous-year hydrologic conditions also play a strong role 
        in annual water supplies to the Central Valley. To illustrate 
        this, Table 2 also shows the carry-over storage totals in CVP 
        reservoirs.
  <bullet> The water service allocations shown in Table 1 do not 
        reflect the complete annual water supply to many water users 
        south of the delta. Many water users secure and develop other 
        water supplies from local sources (groundwater, local runoff, 
        reuse) and through other means such as transfers, agreements, 
        exchanges, and rescheduling of previous-year CVP water 
        supplies.
  <bullet> Specific to the Friant Division of the CVP and as noted in 
        the footnotes on Table 1, the Friant Class 2 allocation is 
        considered a ``supplemental'' water supply to the Friant 
        Division, and should not be considered a firm or ``base'' water 
        demand for the purposes of analyzing a water supply shortage or 
        deficit to south-of-delta supplies.
  <bullet> Attempting to create a single summary statistic or 
        ``deficit'' by averaging the allocation and water supply values 
        in Table 1 would be problematic due to the dynamic nature of 
        recent changes in regulatory requirements, particularly when 
        coupled with highly variable hydrologic conditions.
                        state of california data
    In addition to Table 1 which displays the effects of water supply 
challenges on water service to CVP contractors, Reclamation would like 
to direct the committee to products developed by the State of 
California which summarize the reliability of deliveries to the SWP. 
These reports can be found on the State's Web site at: http://
baydeltaoffice.water.ca.gov/swpreliability/.
    The most recent SWP reliability report was published in June 2012. 
The document is currently being updated and is presently available in 
``public review draft'' on the State's Web site at: https://
msb.water.ca.gov/documents/86800/202762/DRR2013_Report_20131210.pdf.
    Pertinent to the committee's request, the analysis of ``recent 
trends in SWP delta exports and Table A deliveries'' found in Chapter 4 
of the public review draft illustrates estimated reductions in SWP 
exports and deliveries as a result of changes over time to the 
operating environment of the SWP. These changes are shown graphically 
in Figure 4-1 of the public review draft (copy of Figure 4-1 attached).
    In addition to the SWP Delivery Reliability Reports, the committee 
may be interested in reports produced by the State summarizing water 
supply and uses across the State. The reports are produced every 5 
years in conjunction with updates to the California Water Plan 
(Bulletin 160), as required by the California Water Code. The 2013 
Update of the California Water Plan is presently available in ``public 
review draft'' form on the State's Web site at: http://
www.waterplan.water.ca.gov/cwpu2013/index.cfm. The final updated Plan 
will be published by summer 2014.
    The California Water Plan includes regional reports which provide 
details on the water supplies, water uses, and overall water balance in 
each region of the State. Pertinent to the Committee's request are the 
San Joaquin River and Tulare Lake regional reports. The most recent 
final reports on these areas (2009 Update) are available on the State's 
Web site at these links: http://www.waterplan.water.ca.gov/docs/
cwpu2009/0310final/v3_sanjoaquinriver_cwp
2009.pdf and http://www.waterplan.water.ca.gov/docs/cwpu2009/0310final/
v3_
tularelake_cwp2009.pdf.
    Of particular interest may be Figures SJ-3 and TL-21 within the two 
regional reports, which are water balance charts which illustrate the 
wide variety of supplies to the area beyond those provided by the CVP 
and SWP. Also attached to this document are Figures SJR-20 and TL-16, 
the 2013 updated versions of these charts, which are available now in 
public review draft form. These charts highlight one of the key 
complications with developing an analysis of the water supply shortages 
south of the delta, which is that groundwater extraction is often used 
in the place of Federal, State, and local surface water supplies in 
years when surface supplies are reduced. This can result in increased 
extraction of groundwater in the basin.
    If the increased groundwater extraction continues and is not 
naturally or artificially replenished over time, it may lead to 
overdraft. Groundwater overdraft is defined as the condition of a 
groundwater basin in which the amount of water withdrawn by pumping 
exceeds the amount of water that recharges the basin over a period of 
years, during which the water supply conditions approximate average 
conditions. In contrast, declining storage over a relatively short 
period of average hydrologic and land use conditions does not 
necessarily mean that the basin is being managed unsustainably or is 
subject to overdraft. Utilization of groundwater in storage during 
years of diminishing surface water supply, followed by active recharge 
of the aquifer when surface water or other alternative supplies become 
available, is a recognized and acceptable approach to conjunctive water 
management.
    Developing an accurate depiction of groundwater overdraft, and 
particularly how it relates to shortage of surface water supplies, is a 
very complex task. For this reason, for the purposes of the present 
request, the committee may be best served by utilizing the data found 
in Figures SJR-20 and TL-16 to observe the variations in water supplies 
and use for the time period 2001 to 2010 in the San Joaquin River and 
Tulare Lake regions, and the aforementioned SWP Delivery Reliability 
Report to estimate the challenges in serving south-of-delta water 
supplies to SWP contractors.
                     issues with ``deficit slide''
    As previously noted, Reclamation believes the information provided 
above and in the attached tables and charts are currently the best way 
to quantitatively represent water supply challenges to south-of-delta 
water users. For the benefit of the committee, Reclamation would like 
to provide the following additional notes as to why it believes the 
Deficit Slide presented at the hearing does not accurately capture or 
analyze these challenges.
    In general, the total ``deficit'' shown on the slide at the hearing 
appears to incorrectly add together several different categories of 
water supply requirements and demands under the CVPIA, Endangered 
Species Act [ESA], and SJRRP in order to calculate a total amount of 
water ``lost'' to south-of-delta water users. Reclamation questions the 
appropriateness of the use of several of the values for ``deficit'' 
shown in the slide, as well as their magnitude, as follows:

  <bullet> The numbers cited cannot be considered additive, because 
        portions of the water used for the requirements listed on the 
        slide are also utilized for other purposes, including supply to 
        south-of-delta water users. For instance, the amount listed on 
        the slide for CVPIA environmental water (800,000 acre-feet) 
        includes:

    <bullet> Releases from upstream storage that, at times, can be 
            exported for use south-of-delta;
    <bullet> Foregone pumping that meets the requirements of the BiOps 
            or State water quality requirements (which are separately 
            listed as a ``deficit'' on the slide).

  <bullet> 250,000 acre-feet of ``deficit'' is ascribed to the SJRRP. 
        The parties to the Settlement in NRDC v. Rodgers spent numerous 
        years negotiating procedures for determining and accounting for 
        the water supply impacts of the SJRRP. The procedures are 
        documented in the Restoration Flow Guidelines, dated December 
        2013.

    <bullet> Using the procedures agreed to by the parties, the average 
            long-term water supply impact to the Friant Division long-
            term contractors as a result of the Settlement is estimated 
            at 185,000 acre-feet per year.
    <bullet> This amount does not account for the recirculation, 
            replacement and offset actions that Reclamation is 
            implementing as part of the Settlement. With implementation 
            of the recirculation, replacement and offset actions, the 
            actual average long-term water supply impact will be less. 
            However, these actions will vary from year to year and are 
            not possible to calculate at this time.

  <bullet> The amount listed on the slide for CVPIA refuge supplies 
        (400,000 acre-feet) is larger than the amount delivered to 
        south-of-delta refuges in recent years (generally approximately 
        250,000-270,000 acre-feet), and a portion of the water 
        delivered to refuges generally returns to rivers where it can 
        be used again for other purposes (pertains to refuge deliveries 
        both north and south of the delta).
  <bullet> Reclamation is not certain as to the source or accuracy of 
        the data of some of the other values illustrated on the slide, 
        such as the amount of water ``loss'' for the BiOps, or the 
        ``groundwater overdraft'' value.

    <bullet> It is also not clear to which water users the 
            ``groundwater overdraft'' value applies; any groundwater 
            overdraft quantified for the area may apply to more than 
            just CVP water users, and as such, attempts to resolve any 
            such issue may involve more than operations of the CVP.
                                summary
    It is the belief of Reclamation that the information provided 
through the attached tables and the State's reports serve to respond to 
the Committee's request for information on the quantification of water 
supply challenges to users south of the delta. Should the Committee 
need additional information or wish to discuss these numbers, please 
contact Reclamation's Congressional Affairs representatives.
[GRAPHIC] [TIFF OMITTED] T7181.001


     Table 2 Central Valley Project South of Delta Agricultural Water Service Allocations and Hydrologic/Carryover Factors Affecting the Allocations
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          October 1 Carryover Storage (TAF) \3\                       Precipitation (in) \1\   Year Type
                                   ----------------------------------------------------------------------------------------------------------     \4\
    Year     Final  Allocation \2\                                                                                     Northern       San    -----------
                      \5\             Shasta     Folsom     Trinity     Federal       New       Millerton     Total   Sierra  8-  Joaquin  5-
                                                                       San Luis     Melones                    CVP      station     station    Sac Basin
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1990                50%          2096.0      570.5       76.2       149.0       671.9        139.9      5003.5        36.0        27.7          C
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1991                25%          1637.4      178.2     1162.4       387.8       377.7        183.0      3926.5        32.2        30.5          C
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1992                25%          1339.9      506.1      670.2       268.6       296.3        174.7      3255.8        36.0        29.6          C
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1993                50%          1683.2      171.6      838.3        95.9        83.8        164.6      3037.4        65.3        53.0        AN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1994                35%          3101.8      562.9     1947.7       347.2       670.7        179.4      6809.7        31.8        24.0          C
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1995               100%          2101.6      216.9     1214.9        91.6       379.2        183.7      4187.9        85.4        69.6         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1996                95%          3136.4      466.1     1872.6       442.4      1763.1        319.2      7999.8        61.3        43.5         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1997                90%          3088.8      726.3     1712.7       177.4      1988.2        237.2      7930.6        68.8        54.4         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1998               100%          2308.3      556.1     1493.9       131.8      1819.3        224.1      6533.5        82.4        65.3         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     1999                70%          3441.1      712.9     2077.3       713.0      2098.6        438.0      9480.9        54.8        37.0         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2000                65%          3327.5      721.6     1961.7       110.6      1828.7        234.9      8185.0        56.7        42.0        AN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2001                49%          2985.1      660.7     1791.0       464.0      1803.6        211.9      7916.3        33.0        29.3         D
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2002                70%          2199.6      367.6     1428.2       313.6      1481.0        187.9      5977.9        46.3        33.2         D
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2003                75%          2558.2      509.8     1500.1       294.4      1278.2        221.1      6361.8        59.8        39.0        AN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2004                70%          3159.4      658.1     1881.2       286.5      1280.3        215.0      7480.5        47.3        28.8        BN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2005                85%          2182.9      376.4     1591.0       157.0      1110.1        181.4      5598.8        57.5        54.4        AN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2006               100%          3034.8      652.3     1991.3       402.4      1933.2        235.7      8249.7        80.2        55.1         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2007                50%          3205.1      638.8     1973.9       402.1      2056.3        240.2      8516.4        37.2        24.9         D
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2008                40%          1879.1      323.0     1550.3       194.3      1437.0        200.2      5583.9        35.0        27.9          C
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2009                10%          1384.5      269.8     1461.1        36.9      1099.3        198.7      4450.3        46.9        38.9         D
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2010                45%          1773.9      411.6      919.0       197.7      1108.4        350.4      4761.0        53.6        44.7        BN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2011                80%          3318.8      624.2     1557.7       374.3      1276.0        247.5      7398.5        72.7        65.4         W
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2012                40%          3341.0      740.4     2166.8       642.1      2052.2        356.1      9298.6        41.6        25.0        BN
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2013                20%          2591.6      451.6     1799.6       250.9      1510.7        318.5      6922.9        46.3        26.5         D
--------------------------------------------------------------------------------------------------------------------------------------------------------
     2014                 0%          1906.0      361.1     1303.2       223.8      1047.1        317.1      5158.3
--------------------------------------------------------------------------------------------------------------------------------------------------------
  Average                58%          2511.3      497.4     1569.7       286.2      1298.0        238.4      6401.0        52.8        40.4
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Precipitation and year type columns are based on the water year (example 1990 represents 10/1/1989-9/30/1990).
\2\ Allocation for CVP South of Delta Ag Water Service based on the contract year (example 1990 represents 3/1/1990-2/28/1991).
\3\ Water in storage carried over from the previous water year (WY)--Example 1990 represents water carried over from WY 1989 that ended on 9/30/1989
  into WY 1990 which starts 10/1/1989.
\4\ Year types: C = Critical; D= Dry; BN = Below Normal; AN = Above Normal; W= Wet.
\5\ 2014 allocation data is preliminary, based on initial allocations as of April 1, 2014.

[GRAPHIC] [TIFF OMITTED] 



.epsKey Water Supply and Water Use Definitions
Applied Water. The total amount of water that is diverted from any 
    source to meet the demands of water users without adjusting for 
    water that is depleted, returned to the developed supply or 
    considered irrecoverable (see water balance figure).
Consumptive use is the amount of applied water used and no longer 
    available as a source of supply. Applied water is greater than 
    consumptive use because it includes consumptive use, reuse, and 
    outflows.
Instream Environmental. Instream flows used only for environmental 
    purposes.
Instream Flow. The use of water within its natural watercourse as 
    specified in an agreement, water rights permit, court order, FERC 
    license, etc.
Groundwater Extraction. An annual estimate of water withdrawn from 
    banked, adjudicated, and unadjudicated groundwater basins.
Recycled Water. Municipal water which, as a result of treatment of 
    waste, is suitable for a direct beneficial use or a controlled use 
    that would not otherwise occur and is therefore considered a 
    valuable resource.
Reused Water. The application of previously used water to meet a 
    beneficial use, whether treated or not prior to the subsequent use.
Urban Water Use. The use of water for urban purposes, including 
    residential, commercial, industrial, recreation, energy production, 
    military, and institutional classes. The term is applied in the 
    sense that it is a kind of use rather than a place of use.
Water Balance. An analysis of the total developed/dedicated supplies, 
    uses, and operational characteristics for a region. It shows what 
    water was applied to actual uses so that use equals supply.
    [GRAPHIC] [TIFF OMITTED] 
    
 .epsfigure tl-16 tulare lake hydrologic region water balance by water 
                            year, 2001-2010
    California's water resources vary significantly from year to year. 
Ten recent years show this variability for water use and water supply. 
Applied Water Use shows how water is applied to urban and agricultural 
sectors and dedicated to the environment and the Dedicated and 
Developed Water Supply shows where the water came from each year to 
meet those uses. Dedicated and Developed Water Supply does not include 
the approximately 125 million acre-feet [MAF] of statewide 
precipitation and inflow in an average year that either evaporates, are 
used by native vegetation, provides rainfall for agriculture and 
managed wetlands, or flow out of the State or to salt sinks like saline 
aquifers. Groundwater extraction includes annually about 2 MAF more 
groundwater used statewide than what naturally recharges--called 
groundwater overdraft. Overdraft is characterized by groundwater levels 
that decline over a period of years and never fully recover, even in 
wet years.
[GRAPHIC] [TIFF OMITTED] 

.epsKey Water Supply and Water Use Definitions
Applied Water. The total amount of water that is diverted from any 
    source to meet the demands of water users without adjusting for 
    water that is depleted, returned to the developed supply or 
    considered irrecoverable (see water balance figure).
Consumptive use is the amount of applied water used and no longer 
    available as a source of supply. Applied water is greater than 
    consumptive use because it includes consumptive use, reuse, and 
    outflows.
Instream Environmental. Instream flows used only for environmental 
    purposes.
Instream Flow. The use of water within its natural watercourse as 
    specified in an agreement, water rights permit, court order, FERC 
    license, etc.
Groundwater Extraction. An annual estimate of water withdrawn from 
    banked, adjudicated, and unadjudicated groundwater basins.
Recycled Water. Municipal water which, as a result of treatment of 
    waste, is suitable for a direct beneficial use or a controlled use 
    that would not otherwise occur and is therefore considered a 
    valuable resource.
Reused Water. The application of previously used water to meet a 
    beneficial use, whether treated or not prior to the subsequent use.
Urban Water Use. The use of water for urban purposes, including 
    residential, commercial, industrial, recreation, energy production, 
    military, and institutional classes. The term is applied in the 
    sense that it is a kind of use rather than a place of use.
Water Balance. An analysis of the total developed/dedicated supplies, 
    uses, and operational characteristics for a region. It shows what 
    water was applied to actual uses so that use equals supply.

    [GRAPHIC] [TIFF OMITTED] 

                               [all]

</pre></body></html>
